<html>
<title> - THE DEPARTMENT OF ENERGY FISCAL YEAR 2009 RESEARCH AND DEVELOPMENT BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        THE DEPARTMENT OF ENERGY
                     FISCAL YEAR 2009 RESEARCH AND
                      DEVELOPMENT BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2008

                               __________

                           Serial No. 110-80

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

40-940 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             March 5, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    11

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    18

Prepared Statement by Representative Rosgoe G. Bartlett, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    19

                               Witnesses:

Mr. Steve Isakowitz, Chief Financial Officer, Department of 
  Energy
    Oral Statement...............................................    20

Mr. Mark E. Gaffigan, Acting Director, Natural Resources and 
  Environment Team, U.S. Government Accountability Office
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    32

Dr. Arthur Bienenstock, President, American Physical Society; 
  Special Assistant to the President for Federal Research Policy, 
  Stanford University; Professor, Stanford Synchrotron Radiation 
  Laboratory and Departments of Applied Physics and Materials 
  Science and Engineering
    Oral Statement...............................................    33
    Written Statement............................................    34
    Biography....................................................    35

Discussion
  Section 999 of the Energy Policy Act...........................    36
  Breaking Dependence on Oil Through Alternative Energy..........    38
  Solar Research and Development Funding.........................    40
  Solar Workforce Training.......................................    41
  Solar Power Goals..............................................    42
  Long-term Energy Security Interests............................    42
  U.S. Interest in Hydrogen......................................    43
  Reprogramming Request for High Energy Physics Laboratories.....    44
  FutureGen Concerns.............................................    45
  Maintaining America's Competitive Advantage....................    46
  Funding for Rare Isotope Beams.................................    47

             Appendix 1: Answers to Post-Hearing Questions

Mr. Steve Isakowitz, Chief Financial Officer, Department of 
  Energy.........................................................    50

             Appendix 2: Additional Material for the Record

Statement of Mr. Clarence H. ``Bud'' Albright, Jr., Under 
  Secretary, U.S. Department of Energy...........................    58

Statement of Dr. Raymond L. Orbach, Under Secretary for Science, 
  U.S. Department of Energy......................................    69


  THE DEPARTMENT OF ENERGY FISCAL YEAR 2009 RESEARCH AND DEVELOPMENT 
                            BUDGET PROPOSAL

                              ----------                              


                        WEDNESDAY, MARCH 5, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        The Department of Energy

                     Fiscal Year 2009 Research and

                      Development Budget Proposal

                        wednesday, march 5, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 5, 2008 the Energy and Environment Subcommittee 
of the House Science and Technology Committee will hold a hearing on 
the Department of Energy's (DOE) fiscal year 2009 (FY 2009) Budget 
Request for research and development programs.

Witnesses

        <bullet>  Dr. Raymond Orbach is the Under Secretary for Science 
        at DOE, where he directs the Office of Science, serves as the 
        Secretary's science policy advisor for all departmental 
        programs, and oversees DOE's 17 national laboratories and 
        education activities. Prior to joining the Department, Dr. 
        Orbach served as Chancellor of the University of California at 
        Riverside.

        <bullet>  Mr. C. H. ``Bud'' Albright Jr. is the Under Secretary 
        of Energy at DOE, where he oversees the Energy and Environment 
        programs which include research and development efforts in the 
        offices of Energy Efficiency and Renewable Energy, Fossil 
        Energy, Nuclear Energy, Electricity Delivery and Energy 
        Reliability, among others. Prior to joining the Department in 
        2007 Mr. Albright served as the Republican Staff Director of 
        the U.S. House Committee on Energy and Commerce.

        <bullet>  Mr. Mark Gaffigan is an Acting Director in the 
        Government Accountability Office, Natural Resources and 
        Environment Team, which is responsible for recently produced 
        reports on DOE funding for advanced energy technologies, the 
        hydrogen fuel initiative, oil production shortages, and the oil 
        and natural gas research program.

        <bullet>  Dr. Arthur Bienenstock is the President of the 
        American Physical Society, which tracks funding for basic 
        research at DOE, among other agencies, and has also produced 
        several reports on applied energy research in recent years. Dr. 
        Bienenstock is also a Professor of Physics as well as the 
        Special Assistant to the President for Federal Research Policy 
        at Stanford University.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The $7.7 billion request for DOE civilian energy R&D funding in FY 
2009 is divided among five offices. The Office of Science (SC), 
represented in the hearing by Dr. Orbach, funds basic research at 
universities and 17 national laboratories, and is the single largest 
federal supporter of physical sciences research. The other four 
offices, represented by Mr. Albright, focus on applied research and 
technology development in the fields of Energy Efficiency and Renewable 
Energy, Fossil Energy, Nuclear Energy, and Electricity Delivery and 
Energy Reliability.

OFFICE OF SCIENCE

    The FY 2009 budget request for the DOE Office of Science is $4.7 
billion. This represents an increase of $704 million, or 18 percent 
over the FY 2008 enacted level of funding, and $478 million or nine 
percent below funding authorized in COMPETES. (Note: COMPETES includes 
only a top-line authorization level for the DOE Office of Science; it 
is silent on funding for specific research program areas.)
    The request for Basic Energy Sciences (BES) is $1.6 billion, an 
increase of $298 million or 23 percent over enacted FY 2008 funding. As 
the largest program within the Office of Science, BES conducts research 
primarily in the cross-cutting areas of materials and chemical 
sciences, and based on a series of recent workshops, plans to focus 
more on specific research areas for energy applications.
    The budget would provide $369 million for Advanced Scientific 
Computing Research (ASCR), an increase of $18 million or five percent 
over enacted FY 2008 funding. This includes funds to continue upgrading 
the Leadership Class Facilities at Oak Ridge National Laboratory and 
Argonne National Laboratory.
    Biological and Environmental Research (BER) would receive $569 
million under the President's budget, which is $24 million over current 
year funding. In addition to the role of BER in areas such as genomics, 
climate change research, medical applications, and environmental 
remediation, the FY 2009 request supports continued funding for three 
bioenergy centers established in FY 2008.
    The FY 2009 funding request for High Energy Physics (HEP) is $805 
million, which is $117 million or 17 percent more than the enacted FY 
2008 level. This program conducts fundamental research in elementary 
particle physics and accelerator science and technology. Funding for 
the NOnA neutrino physics experiment and research in preparation for 
the International Linear Collider at the Fermi National Accelerator 
Laboratory and Stanford Linear Accelerator Laboratory are restored in 
this request.
    Fusion Energy Sciences (FES) receives $493 million, an increase of 
$207 million or 72 percent over enacted FY 2008 funding. Of this 
amount, $214 million is dedicated to restoring funding for the U.S. 
role in the International Thermonuclear Experimental Reactor (ITER). 
Finally, Nuclear Physics (NP) would receive $510 million, an increase 
of $77 million (18 percent) over FY 2008 funding.

APPLIED ENERGY TECHNOLOGY PROGRAMS

    While the total budget for energy R&D has risen in recent years it 
is still a fraction of the robust levels seen when the Nation responded 
to the energy crisis of the late 1970's. According to the U.S. 
Government Accountability Office the Department of Energy's budget 
authority for energy R&D fell 85 percent from 1978 to 2005 (inflation 
adjusted). Within the applied programs funding has varied greatly over 
the years according to shifting Administration and Congressional 
priorities, as the chart below indicates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Energy Information Administration (EIA) projects that U.S. 
electricity generation will grow from 3,900 billion kilowatt-hours in 
2005 to 5,500 billion kilowatt hours in 2030. With continued high 
natural gas prices and sizable barriers to deployment of renewable and 
nuclear power technologies, coal will likely make up the largest 
percentage of this growth and continue to provide the largest part of 
U.S. electricity generation for the foreseeable future (roughly 50 
percent). Despite heavy investments in wind, solar and geothermal 
energy R&D, the bulk of the Nation's renewable energy portfolio comes 
from hydropower and still comprises only seven percent of total 
electricity generation. There are currently 104 operating nuclear power 
reactors in the U.S., with several new reactors in various stages of 
planning. However, it is expected that, short of very aggressive 
investment in nuclear capacity, new nuclear plants will only serve to 
replace aging existing plants in terms of overall electricity market 
share in the near-to-medium term. For the foreseeable future oil will 
fuel the Nation's transportation sector, though recent Administration 
and Congressional biofuels initiatives aim to drastically decrease its 
97 percent market share.

Energy Efficiency and Renewable Energy (EERE)

    The President's proposal of $1.26 billion for the Energy Efficiency 
and Renewable Energy program at DOE represents a 27 percent cut from FY 
2008 congressional appropriations, with the elimination of the 
Weatherization Assistance program, a key component of the Nation's 
energy efficiency strategy, bearing a large brunt of the decrease.
    Biomass and Biorefinery Systems would receive $225 million, a 14 
percent increase over FY 2008 funding. This program seeks to make 
ethanol from cellulosic sources cost-competitive through advancing the 
technologies and practices to make the entire ethanol supply chain more 
efficient. The largest share of the increase ($36.4 million) goes to 
work with industry for demonstration of biorefineries at both the 
commercial-scale and at smaller scale for higher risk technologies.
    The FY 2009 request of $221 million for Vehicle Technologies is an 
increase of $8 million over the FY 2008 appropriations, while funding 
for the Hydrogen Technology program decreased by $64 million, or over 
30 percent. The large decrease in funding for the Hydrogen Technology 
marks the end of the Administration's five-year commitment to hydrogen 
R&D, and a shift of program priorities to wider applications of 
advanced vehicle technologies, especially for plug-in electric vehicle 
platforms. The FY 2009 budget proposes a transfer of $31 million from 
the Hydrogen Technologies program to the Vehicle Technologies Program 
largely for increases in the hybrid electric systems and technology 
integration initiatives. The hybrid electric systems program funds R&D 
to reduce the cost of battery systems. The technology integration 
program aims to accelerate the adoption and use of alternative fuel and 
advanced technology vehicles through demonstrations and education 
initiatives.
    The proposed funding for the Solar Energy program would be 
decreased by $12.4 million, a seven percent reduction, to a total of 
$156.1 million in FY 2009, which is also $93.9 million below the level 
authorized in EPACT 2005. Wind energy is slated for $53 million, 
essentially even with FY08 levels.
    The Geothermal Technology Program would receive an increase of $10 
million to a total of $30 million in FY 2009. This is a reversal from 
last year's budget which proposed eliminating this program, but is 
still far short of the $95 million authorized in the Energy 
Independence and Security Act of 2007.
    The budget request provides $3 million for both conventional 
hydropower and marine and hydrokinetic energy research, a 70 percent 
reduction, despite explicit authorization in the Energy Independence 
and Security Act of 2007 for R&D in marine and hydrokinetic 
technologies at the level of $50 million in FY 2009. It is expected 
that a significantly higher level of federal effort is required to take 
advantage of this underdeveloped renewable resource in an 
environmentally friendly manner.
    The Administration's request for Industrial Technologies Program 
(ITP) of $62 million is a three percent decrease from FY 2008 
appropriated levels, and $128 million less than the amount authorized 
in the Energy Independence and Security Act of 2007. Heavy industry 
accounts for approximately one-third of energy use in the U.S., and the 
ITP has maintained a long and successful history of developing 
technologies and deploying them in industry, despite being funded at 
one-third of the levels from as recently as FY 2000 ($175 million).

Office of Nuclear Energy

    The Administration request for Nuclear Energy (NE) is $629.7 for 
research and development, with nearly half of that request dedicated to 
the Advanced Fuel Cycle Initiative which is focused on implementing the 
Global Nuclear Energy Partnership (GNEP). For NE's Research and 
Development programs, this represents approximately $191.7 million 
above the FY 2008 enacted funding level ($438 million).
    The United States has been conducting research on the reprocessing 
of spent nuclear fuel since 2002 under the Advanced Fuel Cycle 
Initiative (AFCI). In 2006, the Administration announced a change in 
this program when it unveiled GNEP as its plan forward to develop 
advanced, proliferation-resistant nuclear fuel cycle technologies that 
would maximize the energy extracted from nuclear fuels and minimize 
nuclear waste. GNEP has drawn criticism based on the substantial costs 
estimated for implementing the program and the technical challenges 
associated with developing, demonstrating and deploying advanced 
technologies for recycling spent nuclear fuel that do not separate 
plutonium. Last fall, the National Academies issued a report expressing 
similar concerns. The FY 2009 request is $301.5 million, substantially 
higher than the FY 2008 enacted funding for GNEP of $181 million. GNEP 
aside, general research activities on a closed nuclear fuel cycle are 
more widely considered to be worthwhile.
    The FY 2009 budget request eliminates funding for the University 
Reactor Infrastructure and Education Assistance program. However, it 
also includes directions to Nuclear Energy, through its Energy Research 
Initiative process, to designate at least 20 percent of the R&D 
appropriated funds for purposes of supporting R&D activities at 
university research institutions through competitive awards focused on 
advancing nuclear energy technology.

Office of Electricity Delivery and Energy Reliability

    The Office of Electricity is requesting $134 million for FY 2009, a 
$4.5 million reduction from FY 2008 appropriations. Of the total for 
this office the Administration proposes $100.2 million for R&D, a $9.3 
million decrease from FY 2008 appropriations. However, the request does 
include $13.4 million for Energy Storage and Power Electronics which 
doubles the FY 2008 appropriation for that program. Advancing energy 
storage systems is critical for modernizing the electric grid and 
expanding the use of renewable energy sources for power generation.

Innovative Technology Loan Guarantee Program (LGP)

    The FY 2009 budget proposes $19.9 million to administer the 
Innovative Technology Loan Guarantee Program established under Title 
XVII of the Energy Policy Act of 2005 (P.L. 109-58). The FY 2008 
omnibus appropriations bill included $38.5 billion for loan obligation 
authority for FY 2008 and FY 2009. Within that authority, $18.5 billion 
was designated for nuclear power facilities, $6 billion for coal-based 
power generation and industrial gasification facilities, $2 billion for 
advanced coal gasification projects, $10 billion for renewable and 
efficiency projects and $2 billion for front end advanced nuclear 
facilities. The Administration's FY 2009 request does not seek 
additional loan obligation authority, but requests an extension for the 
loan authority until 2011 for nuclear facilities and a 2010 extension 
for all other projects.

Fossil Energy R&D

    Fossil Energy R&D would receive $754 million in FY 2009, an 
increase of $11.2 million compared to FY 2008 appropriations. The 
funding increase would go to coal R&D, including the Clean Coal Power 
Initiative (CCPI) which will focus on validating carbon capture and 
storage in power generation applications in Round III of the program 
this year. CCPI funding is available to support projects on both 
existing power plants and new power plants. The FutureGen program would 
see a substantial increase to $156 million which more than doubles the 
FY 2008 appropriations of $74.3 million. The Administration has 
proposed a major revision of the FutureGen program which will now place 
an emphasis on early validation of clean coal technologies through 
multiple demonstrations of CCS technologies at commercially operated 
electric generating plants. This proposal is intended to capitalize on 
industry's investment in clean coal power plants by providing the funds 
for the CCS component of the advanced power plants and is a significant 
restructuring of the original program, which was promoted as a near-
zero-emissions power plant that would combine electricity and hydrogen 
production. The Fuels and Power Systems program, which includes R&D on 
advanced coal technologies to reduce emissions of carbon dioxide 
(CO<INF>2</INF>) at pulverized coal plants and continues R&D on 
promising technologies for capture, separation and compression of 
CO<INF>2</INF>, would receive an increase of $33 million to $382.7 
million in FY 2009. With the momentum to develop a national greenhouse 
gas reduction program growing, it is critical to have an appropriate 
investment in RD&D to cost effectively reduce CO<INF>2</INF> emissions 
from the use of coal, and sequester CO<INF>2</INF> on a commercial 
scale.
    The FY 2009 budget once again proposes to eliminate all oil and gas 
R&D, including $50 million in direct spending (mandated in the Energy 
Policy Act of 2005) for unconventional onshore and ultra-deepwater 
offshore natural gas exploration technologies that would go largely to 
smaller independent oil and gas producers.
    Chairman Lampson. This hearing will come to order. Good 
morning and welcome to today's hearing on the fiscal year 2009 
Department of Energy budget request and future directions for 
energy research and development.
    As indicated in the Committee's schedule notice, we invited 
Mr. Albright, the Under Secretary for Energy, and Dr. Orbach, 
the Under Secretary for Science, to present the 
Administration's Fiscal Year 2009 budget request on January 8. 
Unfortunately, they felt that they could not appear before the 
Subcommittee this morning. I am disappointed in the treatment 
that this subcommittee is receiving by the Department. Although 
the witnesses were invited in January, they didn't provide 
their testimony to the Subcommittee until 9:00 p.m. last night. 
Apparently, DOE does not approve of one panel hearings, which 
is commonplace on this committee and has been essentially the 
standard practice since the time Representative Sensenbrenner 
chaired this committee. I am very surprised and disappointed by 
this situation, but I am prepared to proceed with the scheduled 
hearing.
    Mr. Isakowitz, although you were not invited to appear 
before us this morning, I want to give the Administrative an 
opportunity to present their budget request to the Members of 
this subcommittee, so I invite you to stay seated where you 
are, take your seat at the witness table to participate in the 
hearing this morning, and I thank you for coming.
    The obstacles we face in energy and sustainability are of 
unprecedented scale and complexity. The Senate and House are 
working on legislation to institute a cap-and-trade program for 
greenhouse gases. We are still heavily dependent upon non-
renewable energy supplies that are located outside our borders. 
We will only meet these challenges through aggressive and 
sustained support of research and development.
    That said, I understand the difficult task of balancing 
priorities for energy research and development in an 
unfavorable budget climate. In general, I believe the 
Administration's budget request for DOE is a reasonable one. 
The Administration has proposed increases for a number of 
important energy R&D programs; however, I believe we need more 
invested in other areas that hold the great promise for 
diversifying our energy supplies, energy efficiency and 
renewable energy technologies.
    The budget request for the Office of Science is consistent 
with our efforts in the America COMPETES Act and the Democratic 
Innovation Agenda to increase investments in basic energy 
research and development. It was unfortunate that Congress was 
forced to make significant cuts to the Fiscal Year 2008 basic 
research budget to avoid the President's veto, and I hope that 
a bipartisan commitment to ensuring our country's future 
prosperity will help to avoid a repeat of this situation in the 
year ahead.
    I am pleased that this budget supports a restoration of 
funding for the U.S. contribution to the ITER International 
Fusion Project, as well as research towards a proposed 
International Linear Collider. It is important for us to honor 
our international commitments. The credibility of the United 
States as a reliable partner in future international research 
projects will be significantly undermined if these corrective 
actions aren't taken.
    The picture for applied energy programs is not quite as 
good as the one for basic research. The budget request for 
Energy Efficiency and Renewable Programs is 27 percent below 
the appropriation for this year. While there are some notable 
proposed increases, there are some reductions that take us in 
the wrong direction.
    The cheapest, cleanest energy we will ever find is the 
energy we don't use. Therefore, I cannot understand why the 
Administration has once again elected to eliminate the 
Weatherization Assistance Program. We should be looking for 
more ways to encourage deployment of products and technologies 
that increase energy efficiency. We should also provide 
increased support for solar and wind energy. If we are to 
expand the energy supplied by these renewable sources, we will 
need sustained increases in funding for these programs.
    In the U.S., industry is responsible for one-third of all 
energy consumed, with the majority of that attributable to the 
heavy manufacturing sector that is struggling to stay 
competitive in an increasingly global marketplace. The 
Administration's proposal to decrease funding for the 
Industrial Technologies Program is baffling, especially in 
light of its record of success.
    On the positive side, I am pleased to see the proposed 
increase for research and development in biomass and 
biorefinery systems. The increased investment in research and 
development for cellulosic ethanol production is essential if 
we are going to meet the targets we have set for bio-based 
fuels.
    I am also pleased to see the Administration's proposal to 
increase funding for the Geothermal Technology Program after 
the Administration proposed closing out this program just a 
year ago. The proposed funding level of $30 million is still 
far short of the $95 million authorized in the '07 Energy Act, 
but at least we are now moving in the right direction.
    There is much in this budget proposal that we can agree on, 
but not everything. What most troubles me is the 
Administration's repeatedly ignoring the law by withholding 
funds and trying to repeal programs that Congress authorized 
and funded, and I am going to repeat that slowly. What troubles 
me most is this Administration repeatedly ignoring the law by 
withholding funds and trying to repeal programs that Congress 
has authorized and funded.
    Specifically I am talking about the oil and gas research 
project funded in Section 999 of the Energy Policy Act of 2005. 
The Administration should take the time to understand this 
program and see the potential in research collaborations 
between universities and small, independent producers and to 
let them do their work. We cannot flip the switch overnight, 
and it is essential to develop and utilize new technologies 
that will enable us to reduce our dependence on foreign sources 
of energy.
    And finally, I must note the absence of ARPA-E in the 
budget request. What the Department proposes in its place, a 
smattering of small, inter-disciplinary projects and a half-
hearted reworking of the technology transfer policy, simply 
will not suffice as a substitute for implementation of this 
program.
    I have noted just a few items in this diverse budget 
proposal. Energy is essential to our way of life. We must do 
all that we can to ensure the Department of Energy has the 
resources to accomplish the monumental task of guiding us to a 
future with a more diverse energy supply that has fewer 
environmental impacts. Research and development investments are 
the key to that future. I hope the Administration will work 
with us to secure a budget for DOE that will accomplish these 
goals.
    We have a distinguished panel of witnesses with us this 
morning, and I look forward to hearing your testimony.
    Right now I am pleased to yield to the distinguished 
Ranking Member of the Subcommittee, Mr. Bob Inglis.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    This hearing of the Energy and Environment Subcommittee will come 
to order.
    Good morning and welcome to today's hearing on the FY09 Department 
of Energy budget request and future directions for energy R&D.
    The obstacles we face in energy and sustainability are of 
unprecedented scale and complexity. The Senate and House are working on 
legislation to institute a cap-and-trade program for greenhouse gases. 
We are still heavily dependent upon non-renewable energy supplies that 
are located outside our borders. We will only meet these challenges 
through aggressive and sustained support of research and development.
    That said I understand the difficult task of balancing priorities 
for energy R&D in an unfavorable budget climate. In general, I believe 
the Administration's budget request for DOE is a reasonable one. The 
Administration has proposed increases for a number of important energy 
R&D programs. However, I believe we need more invested in other areas 
that hold the great promise for diversifying our energy supplies--
energy efficiency and renewable energy technologies.
    The budget request for the Office of Science is consistent with our 
efforts in the America COMPETES Act and the Democratic Innovation 
Agenda to increase investments in basic energy R&D. It was unfortunate 
that Congress was forced to make significant cuts to the FY08 basic 
research budget to avoid the President's veto, and I hope that a 
bipartisan commitment to ensuring our country's future prosperity will 
help to avoid a repeat of this situation in the year ahead.
    I am pleased that this budget supports a restoration of funding for 
the U.S. contribution to the ITER international fusion project, as well 
as research towards a proposed International Linear Collider. It is 
important for us to honor our international commitments. The 
credibility of the United States as a reliable partner in future 
international research projects will be significantly undermined if 
these corrective actions aren't taken.
    The picture for applied energy programs is not quite as good as the 
one for basic research. The budget request for Energy Efficiency and 
Renewable programs is 27 percent below the appropriation for this year. 
While there are some notable proposed increases, there are some 
reductions that take us in the wrong direction.
    The cheapest, cleanest energy we will ever find is the energy we 
don't use. Therefore, I cannot understand why the Administration has 
once again elected to eliminate the Weatherization Assistance program. 
We should be looking for more ways to encourage deployment of products 
and technologies that increase energy efficiency.
    We should also provide increased support for solar and wind energy. 
If we are to expand the energy supplied by these renewable sources we 
will need sustained increases in funding for these programs.
    In the U.S. industry is responsible for one-third of all energy 
consumed, with the majority of that attributable to the heavy 
manufacturing sector that is struggling to stay competitive in an 
increasingly global marketplace. The Administration's proposal to 
decrease funding for the Industrial Technologies Program is baffling 
especially in light of its record of success.
    On the positive side, I am pleased to see the proposed increase for 
R&D in biomass and biorefinery systems. The increased investment in R&D 
for cellulosic ethanol production is essential if we are going to meet 
the targets we have set for bio-based fuels.
    I am also pleased to see the Administration's proposal to increase 
funding for the Geothermal Technology Program after the Administration 
proposed closing out this program just a year ago. The proposed funding 
level of $30 million is still far short of the $95 million authorized 
in the 2007 Energy Act, but at least we are now moving in the right 
direction.
    There is much in this budget proposal we can agree on, but not on 
everything. What most troubles me is the Administration repeatedly 
ignoring the law by withholding funds and trying to repeal programs 
that Congress has authorized and funded.
    Specifically I am talking about the oil and gas research project 
funded in Section 999 of EPAct 2005. The Administration should take the 
time to understand this program and see the potential in research 
collaborations between universities and small, independent producers, 
and let them do their work. We cannot flip the switch overnight, and it 
is essential to develop and utilize new technologies that will enable 
us to reduce our dependence on foreign sources of energy.
    Finally, I must note the absence of ARPA-E in the budget request. 
What the Department proposes in its place--a smattering of small 
interdisciplinary projects and a half-hearted reworking of the 
technology transfer policy--simply will not suffice as a substitute for 
implementation of this program.
    I have noted just a few items in this diverse budget proposal. 
Energy is essential to our way of life. We must do all we can to ensure 
the Department of Energy has the resources to accomplish the monumental 
task of guiding us to a future with a more diverse energy supply that 
has fewer environmental impacts. R&D investments are the key to that 
future. I hope the Administration will work with us to secure a budget 
for DOE that will accomplish these goals.
    We have a distinguished panel of witnesses with us this morning. I 
look forward to hearing your testimony.
    I am pleased now to yield to the distinguished Ranking Member of 
the Subcommittee, Mr. Bob Inglis.

    Mr. Inglis. Thank you, Mr. Chairman, and I suppose I should 
respond to your opening statement, and that is that generally 
the Department of Energy has the courtesy of testifying--of 
having its Under Secretaries testify on a single panel. And 
just last week Admiral Lautenbacher, for example, in a similar 
situation testified on a separate panel. I don't know why the 
Committee decided this week to change all that and decide that 
it would not accord this protocol to the Department of Energy, 
but as a result we are not hearing from Mr. Albright and Mr. 
Orbach. But we are happy to have the rest--the other panel 
here.
    And I would ask Mr. Chairman that, just to make sure that 
this is the case, that Mr. Albright's and Mr. Orbach's 
testimony--written testimony will be included within the 
record.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you Mr. Chairman, and I want to thank our witnesses from the 
Department of Energy (DOE), the Government Accountability Office (GAO), 
and the American Physical Society for appearing here today to discuss 
funding for vital research and development projects.
    After looking over the Administration's FY 2009 DOE Budget 
proposal, I find myself in agreement with the two points Dr. 
Beinenstock made in his submitted testimony: (1) the FY08 Omnibus 
significantly damaged DOE funding and DOE is now scrambling to recover 
(2) It's not a good idea to cut funding for the Office of Energy 
Efficiency and Renewable Energy.
    Mr. Gaffigan from GAO will tell us that our investments in 
alternatives to oil are nowhere near what they were following the 
energy crisis in the 1970s. I wonder if that's because we don't believe 
we're coming up on an energy crisis of our own in this century, or if 
it's just that we're ignoring it? I'm disappointed to see that this 
budget proposal cuts away at hydrogen, solar and nuclear energy 
alternatives that can create new industry, new jobs, and a better 
climate.
    Last year, about this time, I asked Andy Karsner for assurance that 
the final year of the President's Hydrogen Fuel Initiative did not mark 
the end of our commitment to hydrogen research and development. Mr. 
Karsner assured me that while the Hydrogen Fuel Initiative was coming 
to a close, it didn't mark ``the end of the Hydrogen Program and its 
robust future that [DOE] expects to continue growing to meet its 
technological readiness milestones which are necessary over the next 
decade.'' Today, DOE will suggest that we cut $64.9 million from the 
Hydrogen Program.
    Such a reduction would suspend applied research on renewable 
hydrogen and delay the advent of a hydrogen future. If enacted, this 
funding decrease would mean closure of laboratories dedicated to 
renewable hydrogen projects and a subsequent loss in the valuable 
momentum and research.
    The Department of Energy can help lead this country to energy 
security. American ingenuity, venture capitalists, and industry are 
ready to join in this effort. I hope that we can find agreement that 
breaking free of oil requires great goals and great commitments. This 
budget should embody those goals and empower those commitments.
    Thank you, Mr. Chairman, and I yield back.

    Mr. Costello. Mr. Chairman.
    Chairman Lampson. Mr. Costello.
    Mr. Costello. I object.
    Chairman Lampson. The objection is heard, and it will not 
be inserted in the record.
    Mr. Inglis. That seems nasty.
    Mr. Costello. Mr. Chairman, if I can be heard on my 
objection.
    Chairman Lampson. Mr. Costello.
    Mr. Costello. I thank you. Mr. Chairman, I find it highly 
offensive that the Administration did not send Mr. Albright, 
the Under Secretary, over here today to present their budget 
and to allow Members to ask questions concerning the 
Administration's budget.
    I am not aware of the protocol in terms of who serves on 
what panel or is invited to testify before this subcommittee on 
particular panels, but I certainly do not believe that it 
should be up to this Administration or any other Administration 
as to how this committee conducts its business or who serves on 
what particular panel to present their testimony.
    Further, I believe that if we allow the Administration just 
to submit their written testimony to this committee without 
coming over to allow Members the opportunity to discuss the 
budget and ask questions, then what is to say that future 
Administrations will say, well, the Bush Administration got 
away with it. Why don't we just send our written testimony over 
and protect our Department from questions that the Members of 
this subcommittee and Committee may ask.
    So that is my objection, and that is why I am reserving 
our----
    Chairman Lampson. Thank you, Mr. Costello.
    Mr. Inglis. May I be heard on the point? It is--I wonder, 
Mr. Costello, last week what do you think we did with NOAA?
    Mr. Costello. I don't know what the decision was, but my 
point is that it should be up to this committee and not the 
Administration, this Administration or future Administrations, 
to determine who is going to be invited on which panel to 
testify. That should be left to the discretion of this 
committee.
    You know, are we in the future going to say, well, we 
invite you to come over and testify before this subcommittee 
and then have the Administration tell us when they want to 
testify, what they are going to testify to, and if they don't 
get their way, they are not going to come? They will just 
submit written testimony?
    I find it highly offensive and I think every Member of this 
subcommittee should be offended by the fact that Mr. Albright 
did not appear here today, and I personally believe that there 
are other motives why they are not here today. I think it was 
to avoid questions concerning some of the decisions that have 
been made in this budget.
    Mr. Inglis. If I can be heard on that?
    Chairman Lampson. Before you comment let me just make, that 
there are two hearings scheduled next week under similar 
circumstances; NASA--excuse me. Single panel. Single panel----
    Mr. Inglis. It appears to me that we would have had 
actually more time for questions, would we not, if there were 
separate panels? You would have another round of questions for 
everybody on the panel up here, so it doesn't make any sense 
what you just said, that there would be less questions.
    In other words, so let us do the math. If we have two 
people out here, and we have five people up here, five people 
get to ask two people questions. If we then go to a second 
panel, you actually multiply the number of questions, don't 
you? You double the number of questions for each panel.
    Mr. Costello. I don't think we are--if the gentleman would 
yield, I don't think we are talking about the number of 
questions. I think we are talking about one, letting the 
Administration determine business that should be conducted by 
and rules that should be adopted by this committee, decisions 
that should be adopted by the Committee, and secondly, it is 
not a matter of the number of questions. I think--my personal 
opinion is that Mr. Albright is not here today because he 
doesn't want to answer questions concerning certain issues in 
this budget, in particular about FutureGen. Now, that is my 
personal opinion.
    But go back to the point that either this Administration or 
future Administrations should not determine decisions that 
should be made by this subcommittee. And I am highly offended 
that they would not be here today, and I think that every 
Member of this subcommittee should be highly offended on both 
sides of the aisle.
    You know, who knows what is going to happen in the next 
election and which Administration is going to be serving in the 
White House next. I don't think they ought to dictate the 
rules. I think we should.
    Mr. Inglis. Yes. Something tells me that that will change 
if we get the post-partisanship, and if a future Administration 
says that, would you give us the courtesy of letting our Under 
Secretaries get back to their jobs.
    Mr. Costello. Well, you are conceding that your side will 
not win, take the Majority over in the November election.
    Mr. Inglis. No. I am hoping that Mr. McCain will also move 
us to post-partisanship. I am not sure you got a nominee, but I 
assume you will have one before the big dance in November, but 
we have got a nominee, and I think that he will be talking 
about post-partisanship.
    And it seems to me quite a normal courtesy to simply say to 
the DOE witnesses, come, testify, answer plenty of questions, 
and then get back to work. Don't wait around while you have--
having people you want to put on the panel so the Under 
Secretaries are detained here. They are happy to come and 
testify. They are willing to come and testify, but now what we 
have got is a little waste of time here as we discuss whether 
we did--we are upset and offended that they didn't come and 
testify. Well, they are happy to come and testify, and they 
were going to answer questions. It is just--it is a courtesy to 
allow the Administration to come in, testify, and then leave. 
We did that last week. I don't know why we are not doing it 
this week. It really--it is one of those things where it is 
just sort of somebody got their back up, I guess, and decided 
that pride was more important than just moving along. And it is 
unfortunate, I think.
    So here we are in Science Committee with what is typically 
done in other committees, where you just have a little bit of 
pride entering into the situation and not allowing good work to 
be done.
    Mr. Costello. Mr. Chairman, I don't know about the pride 
factor, but I do know this. I do know that this Administration 
should not make decisions concerning policy that should be 
reserved for decisions made by this subcommittee. For that 
reason I continue to object.
    Mr. McNerney. Mr. Chairman, I would like to be heard on the 
issue.
    Chairman Lampson. You are recognized for five minutes.
    Mr. McNerney. I am going to follow up by saying I am 
surprised and disappointed that the DOE is not represented here 
this morning. I am looking forward to some of the testimony. I 
read what I was given this morning, and they seem to be setting 
a precedent here of not complying with our requests for 
testimony.
    So I hate to see a pattern develop in which this committee 
and other committees call for testimony and are not given the 
obligation.
    So I am going to join Mr. Costello and add my objection and 
disappointment to this behavior by the Department of Energy and 
the Administration.
    Chairman Lampson. Your objection is noted. I might add that 
Mr. Isakowitz has been asked to represent the Department and 
allowed to take the place, and I want to make a comment that I 
thought post-partisanship was already here, and it began with 
me when I came back to the House of Representatives and my 
effort to try to make sure that we didn't have nonsense like 
this.
    We do have a responsibility in this Congress, and our 
responsibility is that of oversight. We have, I thought, the 
right to set the rules when somebody invites, when I invited 
someone to our house. If a guest comes into my home, I 
typically don't allow them to tell me what I have to do in 
being a good host. It seems to me that that is the courteous 
way to handle something like this.
    I did not want this, Bud Albright is a friend of mine and 
has been for a very long time. I have not spoken with him. I 
don't know all of the reasons why this is occurring. It seems 
to me that the bottom line in my mind is that it is our 
responsibility to hear testimonies. When we invite someone to 
come here to help us understand what that proposal is, we ought 
to at least be able to set the terms of those visits.
    It has been that way. I believe that it was done that way 
under Mr. Sensenbrenner when I served under him and he was the 
Chairman of the Science Committee. I know that there have been 
Cabinet Members who have sat in this room at that table with 
outside witnesses. It was not intended to be offensive to the 
people that we invited to be our guests in any way whatsoever.
    I think that in order to be consistent and to make sure 
that we do things to set the precedent that needs to occur for 
future panels that we sit on, that I would uphold the 
objection.
    Ms. Biggert. Mr. Chairman.
    Chairman Lampson. Does anyone else wish----
    Ms. Biggert. Mr. Chairman.
    Chairman Lampson. Yes. Ms. Biggert, you are recognized.
    Ms. Biggert. Thank you. I am disappointed that the 
gentlemen are not here, but maybe this side of the aisle is the 
hostess with the host, and there is a difference of opinion 
about this situation.
    And I don't think that the DOE is being unreasonable since 
the Committee has not and will not be asking other 
Administration witnesses from NOAA and NSF and NASA to the DHS 
tomorrow to testify on a panel with outside experts. So I guess 
we are in--maybe we are in the silly season, but I think that 
is too bad.
    I am most concerned with the gentleman from Illinois' 
comment that they are not here because they didn't want to 
answer questions. They have submitted their testimony, and we 
have it. I don't see any reasons for not including that, and we 
have somebody that represents them to answer the questions. I 
don't know what evidence there is that they have something that 
they want to--not want to tell us. I think that they have 
always been very open and answered our questions extremely well 
and have been here. And I think this is just too bad that we 
have this situation.
    And I would ask that their testimony be included.
    I yield back.
    Chairman Lampson. Thank you. I just want to point out that 
on Tuesday and Thursday of next week there are panels of 
Administration officials who are going to be serving or 
testifying with outside panelists. So it is being done, and 
like I said a minute ago, there was one Cabinet Member who came 
with outside panelists under----
    Ms. Biggert. If the gentleman will yield. I think that----
    Chairman Lampson. Be happy to.
    Ms. Biggert.--they are not--the rule is not being applied 
uniformly, and so that this is why we--the question is raised.
    Chairman Lampson. How has it not been applied uniformly or 
not being applied?
    Ms. Biggert. Well, NSF and NOAA----
    Chairman Lampson. NASA and NIST have a hearing scheduled 
next week.
    Ms. Biggert. Yeah, but some of them have outside and some 
have not.
    Chairman Lampson. Of these two, these two have, and I think 
that it should be the decision of this committee, not the 
decision of the Administration telling us how we need to run 
our business. And again, it should cut across partisan lines. 
There should be no difference 10 years from now or two years 
ago. It should be that we set the rules, in my opinion.
    Ms. Biggert. Could the gentleman from Illinois answer what 
is the evidence that they don't want to answer questions?
    Mr. Costello. If the gentlelady will yield, I didn't say 
that I had evidence. I said it was my personal opinion that Mr. 
Albright does not want to answer questions concerning the 
decision to scrap the Future Generation Project. As the 
gentlelady may know, the Chairman of the Full Committee, along 
with the Chairman of the Subcommittee, myself, and other 
Members have asked the GAO to review the decision and how the 
decision was made by the Administration to scrap this program 
after five and one-half years of investments and so on.
    But it is my personal opinion. That is not the point. The 
point here this morning is should the Administration set policy 
for this committee, or should this subcommittee set our own 
policy and determine exactly what the rules will be for 
conducting business before this subcommittee. I don't think, 
you know, the Administration as the Ranking Member said, that 
Mr. Albright was willing to come here this morning, but 
apparently he was willing to come under his rules and under his 
terms and conditions as to how he would testify or what panel 
he would be on. And I don't think that should be in this 
Administration or any Administration's discretion to set policy 
for this committee.
    And that is the entire point that I am making.
    Mr. Inglis. If Mr. Chairman----
    Chairman Lampson. Ms. Biggert, are you finished with your 
time? Ms. Biggert, are you finished with your time?
    Ms. Biggert. Yes, sir.
    Chairman Lampson. Okay.
    Ms. Biggert. I yield back.
    Chairman Lampson. Then I recognize Mr. Inglis.
    Mr. Inglis. I would just like to respond to the gentleman 
from Illinois that as of seven o'clock, eight o'clock last 
night Mr. Albright was coming and was perfectly willing to 
come. DOE tells us that they have never testified at a budget 
hearing in a situation like this. In other words, that it has 
been the practice of this committee and the procedure to allow 
Administration witnesses to present the budget and then get 
back to work. This is their work as well, but they also can--
they have other things that they need to attend to.
    So I think it is not accurate to say that Mr. Albright 
didn't want to come here and answer questions. He was happy to 
be here and to answer questions. And if you do the math, he 
would have answered more questions this way. In fact, if you 
want more questions about FutureGen, do the math, and you got 
more question opportunities with two panels than you got with 
one. So if you want to make a point about FutureGen, the math 
works in your favor to have two panels.
    So--but what we are asking for here is simply this. Now we 
are--the DOE has not been afforded the courtesy, and now the 
Minority is about to not be afforded a courtesy and that is to 
ask unanimous consent, and I would specifically ask unanimous 
consent to allow the testimony of Mr. Orbach and Mr. Albright 
to be admitted as part of the record.
    Mr. Costello. Mr. Chairman, I object, and if we, in fact, 
follow this course and accept the testimony, we are sending a 
message to the Administration and to the Department of Energy 
and for that matter, other departments that this subcommittee 
has jurisdiction over that they can set the rules, and if they 
do not like the policy set by this committee, they just simply 
do not have to come over and testify. They can submit their 
written testimony and set policy for this committee.
    We, you know, we can continue this all morning if you would 
like, but the fact is I think we are setting a terrible 
precedent here. I think as I said earlier, all Members of this 
subcommittee on both sides of the aisle should be highly 
offended that the Administration has decided that they will 
come before this subcommittee only when they set the policy and 
under the conditions that they like.
    So with that, Mr. Chairman, I object.
    Chairman Lampson. And the objection is noted.
    Mr. Inglis. I request a vote to the objection 
notwithstanding to proceed with putting it in the record.
    Mr. McNerney. Mr. Chairman, before the vote I would like to 
ask a question of the Ranking Member.
    Chairman Lampson. Hold on one second.
    Mr. Inglis. Mr. Chairman, I am not sure it is debatable at 
this point. I think we ought to proceed to a vote.
    Chairman Lampson. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. The Ranking Member 
said the DOE has never presented in a panel with other experts.
    Chairman Lampson. Hold on one second, please. I have to do 
something slightly differently than that. I have to say that it 
is my prerogative, I believe, to allow this testimony to go 
into the record or not, and I am choosing to not allow that 
testimony.
    And at this point in time you may appeal that decision.
    Mr. Inglis. And so I appeal the ruling of the Chair, Mr. 
Chairman.
    Chairman Lampson. Further proceedings on this will be 
postponed to the call of the Chair.
    Recess for 15 minutes as of now.
    [Recess.]
    Chairman Lampson. Okay, our meeting is back in session. I 
would recognize Mr. Costello for five minutes.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, as you 
know, we have been talking to the Minority on this issue. I 
would be willing to withdraw my objection if the Minority will 
agree that we will not accept the testimony of the 
Administration in the future in lieu of an Administration 
witness appearing before the Committee to offer testimony, 
unless there is unanimous consent to do so.
    I yield to the Ranking Member for his comment.
    Mr. Inglis. I thank the gentleman from Illinois' 
suggestion. I think it is a good suggestion. I agree with him 
that it should not be a precedent that we allow Administration 
officials to duck hearings and submit written testimony. So I 
appreciate his offer and am happy to accept it.
    Mr. Costello. I thank the gentleman, and at this time I 
withdraw my objection.
    Chairman Lampson. The objection is withdrawn, and I ask Mr. 
Inglis to continue with his opening statement.
    Mr. Inglis. So, thank you, Mr. Chairman, and we have 
achieved post-partisanship here. See, we have worked together 
cooperatively, and the nice thing about this committee is even 
though we have differences of opinion that arise from where you 
sit determines where you stand and all that, still there is no 
personal acrimony, and I very much appreciate that in the 
Chairman and the gentleman from Illinois, my friends whom I am 
happy to work with. And so thank you for the cooperative spirit 
we just saw in working through that.
    Mr. Chairman, thank you for holding this hearing, and I 
want to thank our witnesses from the Department of Energy and 
the Government Accountability Office and the American Physical 
Society for appearing here today to discuss vital research and 
development projects and the funding for those.
    After looking over the Administration's fiscal year 2009 
DOE budget proposal, I find myself in agreement with the two 
points that Dr. Beinenstock made in his submitted testimony. 
One, that the fiscal year 2008 Omnibus significantly damaged 
DOE funding, and DOE is now scrambling to recover, and two, it 
is not a good idea to cut off funding for the Office of Energy 
Efficiency and Renewable Energy.
    Mr. Gaffigan from GAO will tell us that our investments in 
alternatives to oil are nowhere near what they were following 
the energy crisis in the 1970s. I wonder if that is because we 
don't believe we are coming up on an energy crisis of our own 
in this century, or if it is just that we are ignoring it? I am 
disappointed that this budget proposal cuts away at hydrogen, 
solar, and nuclear energy alternatives that can create new 
industry, new jobs, and a better climate.
    Last year about this time I asked Andy Karsner for 
assurance that the final year of the President's Hydrogen Fuel 
Initiative did not mark the end of our commitment to hydrogen 
research and development. Mr. Karsner assured me that while the 
Hydrogen Fuel Initiative was coming to a close, it did not mark 
``the end of the Hydrogen Program and its robust future that 
DOE expects to continue growing to meet its technological 
readiness milestones which are necessary over the next 
decade.'' Today DOE would suggest that we cut $64.9 million 
from the Hydrogen Program.
    Such a reduction would suspend applied research on 
renewable hydrogen and delay the advent of a hydrogen future. 
If enacted, this funding decrease would mean closure of 
laboratories dedicated to renewable hydrogen projects and a 
subsequent loss in the valuable momentum and research.
    The Department of Energy can help lead this country to 
energy security. American ingenuity, venture capitalists, and 
industry are ready to join in this effort. I hope we can find 
agreement that breaking free of oil requires great goals and 
great commitments. This budget should embody those goals and 
empower those commitments.
    Thank you, Mr. Chairman. I yield back.
    Chairman Lampson. Thank you, Mr. Inglis. I ask unanimous 
consent that all additional opening statements submitted by the 
Subcommittee Members be included in the record.
    Without objection, so ordered.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, thank you for overseeing this budget hearing today. I 
appreciate the opportunity to take a closer look at the Department of 
Energy's (DOE) budget request for fiscal year 2009 and also to discuss 
the FutureGen project, a prototypical clean coal research project five 
years in the making which was recently scrapped by DOE.
    I've been very clear that I think the decision by DOE to back out 
of the agreement to build the FutureGen project in Mattoon, Illinois 
was about politics. It is hard for me to believe that the 
Administration would have pulled the plug on the project had the 
Alliance decided to build the plant in Texas. Until just weeks before 
announcing their decision, Secretary Bodman stated that they were 
``diligently working to complete the process and issue the Record of 
Decision.'' Although I have heard DOE's reasoning behind the changes to 
the project, I don't believe any of the problems were insurmountable, 
nor do I believe the newly proposed project is any better than 
FutureGen as originally envisioned.
    What I do know, Mr. Chairman, is that none of the reasons 
previously stated by officials at DOE for scrapping FutureGen in 
Mattoon warranted the inevitable lengthy delays that this decision will 
cause to carbon capture sequestration technology research and 
development. After the President announced this clean coal initiative 
at the State of the Union in 2003, after five years of work, coalition 
building and negotiation, and after more than ten million dollars of 
taxpayer money spent, it's absolutely baffling that a decision as 
short-sighted as this was made.
    Finally, I'm afraid that in addition to ``re-scoping'' the 
FutureGen project and delaying the development of this critical 
technology, this decision has sent a terrible signal to our private 
sector partners to not invest in coal technology and not to trust the 
Federal Government. I firmly believe that a significant investment by 
the Federal Government to fully develop clean coal technologies. DOE's 
decision to cancel this project and start again at square one is a huge 
disappointment and represents irresponsible government. At a time when 
we are spending close to a trillion dollars in Iraq, certainly we can 
afford to invest in our energy future. Waiting three years will not 
make this project any cheaper and does not get us any closer to fully 
developing coal as an energy resource. This decision says to all those 
who have invested in this project-to the people of Mattoon, to the 
FutureGen Alliance of energy companies and to countless others that the 
government can walk away from a project whenever it wants.
    Thank you, again, Mr. Chairman, for the opportunity to discuss the 
DOE budget. I am committed to advancing clean coal technology, I 
believe that developing our domestic coal reserves to use coal cleanly 
and efficiently should be an essential part of this nation's energy 
policy. I look forward to hearing from our panelists on this matter.

    [The prepared statement of Mr. Bartlett follows:]
        Prepared Statement of Representative Roscoe G. Bartlett
    In order for the United States to expand the use of commercial 
nuclear power, an expansion which I strongly support, it will be 
necessary to increase the number of trained and certified nuclear 
engineers and technicians. That is why I was extremely disappointed 
when the Department of Energy chose two years ago to propose 
termination of the existing University program within the Office of 
Nuclear Energy. While the Department continued providing applied R&D 
funding to universities through its GNEP program, the lack of basic 
stewardship support and organizational accountability has had a 
tangibly negative impact on nuclear engineering programs and research 
reactors around the United States, including at the University of 
Maryland, College Park.
    In its FY 2009 budget submission, the Department has apparently 
rethought the need to be a steward of the U.S. University-based nuclear 
education enterprise. The FY 2009 budget again recommends elimination 
of funding for the University Reactor Infrastructure and Education 
Assistance program. However, it also includes directions to the Office 
of Nuclear Energy, through its Energy Research Initiative process, to 
designate at least 20 percent of the R&D appropriated funds for 
purposes of supporting R&D activities at university research 
institutions through competitive awards focused on advancing nuclear 
energy technology.
    The budget justifications also highlight the Department's intention 
to support investigator-initiated basic research, fellowships and young 
faculty awards, and infrastructure and equipment upgrades for 
University-based research reactors and laboratories.
    Who within the Office of Nuclear Energy will be responsible for 
management of DOE-funded R&D activities at university research 
institutions?
    How does the Department intend to allocate these funds?
    Will there be University-specific solicitations?
    Will these solicitations be peer-reviewed?
    How much of the 20 percent will be dedicated to mission-specific 
applied R&D?
    I look forward to receiving answers to these questions from the 
Department of Energy.

    Chairman Lampson. It is my pleasure to introduce our 
witnesses this morning. Our first witness is Mr. Steve 
Isakowitz, the Chief Financial Officer of the Department of 
Energy, Mr. Mark E. Gaffigan is the Acting Director of the 
Natural Resources and Environment Team for the U.S. Government 
and Accountability Office, and Dr. Arthur Bienenstock is the 
President of the American Physical Society and Professor at 
Stanford Synchrotron Radiation Laboratory and in the 
Departments of Applied Physics and Materials Science and 
Engineering at Stanford University.
    You will each have five minutes for your spoken testimony.
    Mr. Gaffigan and Dr. Bienenstock, your written testimony 
will be included in the record for the hearing, and when you 
are all complete with your testimony, we will begin with 
questions. Each Member will have five minutes to question the 
panel.
    Mr. Isakowitz, please begin.

  STATEMENT OF MR. STEVE ISAKOWITZ, CHIEF FINANCIAL OFFICER, 
                      DEPARTMENT OF ENERGY

    Mr. Isakowitz. Mr. Chairman, Congressman Inglis, Members of 
the Committee--Subcommittee, thank you for giving me the 
opportunity to appear before you to discuss the Department of 
Energy's budget request for 2009.
    I think it is safe to say that the goals of the Fiscal Year 
2009 budget are largely unchanged from our budget goals in 
previous years. This budget request provides us the resources 
needed to continue to move forward on our five central 
missions.
    First, promoting and enhancing energy security. Second, 
nuclear security. Third, the scientific discovery and 
innovation, fourth, environmental responsibility, and fifth, 
management excellence.
    Since 2001, this Administration and Congress have invested 
more than $180 billion in the Department of Energy and its 
programs. These investments have been used to address the 
growing demand for affordable, clean, and reliable energy, have 
helped safeguard our national security, and have enabled 
scientific research, leading to significant improvements in the 
quality of life and health of the American people and our 
environment.
    The Department's fiscal year 2009 request in the amount of 
25 billion was developed with the need to continue these 
activities in mind and to address the energy challenges that 
confront us daily.
    An investment of this size allows us to fulfill our central 
missions as well as advance the goals of the President's 
American Competitive--Competitiveness Initiative to ensure the 
U.S. technological competitiveness and economic security.
    It also allows us to continue our progress towards the 
goals of the President's Advanced Energy Initiative, 
accelerating the research, development, and deployment of 
clean, alternative energy technologies.
    The Department of Energy is responsible for promoting 
America's energy security. We encourage the development of 
reliable, clean, and affordable energy supplies, as well as 
strengthening U.S. competitiveness by leading in innovation and 
scientific discovery. At the same time we continue to ensure 
the security of the nuclear stockpile, and we reclaim and 
restore the sites that are the Nation's environmental legacy. 
All this is done under the rubric of sound management, 
consistent with the President's management agenda to improve 
performance and accountability.
    But this budget request also reflects our concerns about 
America's energy future. The projected growth in global energy 
demand is a major challenge for us all. It is a challenge that 
must be met with responsible action. Global demand will 
continue to grow. We cannot depend solely on hydrocarbons to 
meet it. This is a problem for all nations, energy producers, 
and consumers alike.
    I believe, therefore, that it is vital that the United 
States pursue policies that enhance global energy security, not 
just our own. We need new energy options, cleaner, more 
efficient technologies, and alternative fuels, and we must 
support fully the research and innovation necessary for their 
development. We must diversify our energy supplies, diversify 
our energy suppliers, and establish and secure additional 
energy supply routes.
    This budget document should also be viewed as a roadmap 
showing the future course of America's energy security. This 
course will not, in my judgment, be an easy one, but it is 
necessary. These efforts will require a sustained commitment on 
the part of Government, strong private sector investment, and 
strategic collaborations between the Government, the private 
sector, and the research community, including academia. Our 
goal is to foster continued economic growth and promote a 
sustainable energy future.
    Mr. Chairman, this concludes my statement, and I am pleased 
to answer any questions you or the other Members of the 
Subcommittee may have about the Department's budget request.
    Chairman Lampson. Thank you, Mr. Isakowitz.
    Mr. Gaffigan, you are recognized.

  STATEMENT OF MR. MARK E. GAFFIGAN, ACTING DIRECTOR, NATURAL 
RESOURCES AND ENVIRONMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Gaffigan. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, I am pleased to be here to discuss 
long-term trends in DOE's energy R&D funding and key barriers 
to the development and deployment of advanced energy 
technologies. These issues are of critical importance as the 
Nation strives to meet its energy needs.
    Today, the United States is heavily reliant upon 
conventional fossil fuels with oil, natural gas, and coal 
providing most of our energy. Fossil fuels have provided the 
benefits of relatively cheap and plentiful energy and great 
economies of scale from a fossil fuel-based infrastructure.
    However, this is a dual-edged sword, as the lack of 
diversification in our energy portfolio does not easily provide 
alternatives when concerns about the cost and supply of fossil 
fuels rear their ugly head.
    Well, after a relative lull in these concerns since the 
price spikes and shortages of the 1970s and early '80s, these 
concerns are back, bigger than ever. Fossil fuel prices have 
risen, and a continued reliance on these finite resources, in 
particular foreign oil, has raised concerns about supply.
    However, adding to the mix of these renewed price and 
supply concerns is a relatively new and sustained concern about 
the environmental costs of fossil fuels. In particular, the 
combustion of fossil fuels that account for significant amounts 
of greenhouse gas emissions.
    Advanced energy technologies offer the promise of 
alternatives to our current energy portfolio. DOE has funded 
research and development in advanced renewable, fossil, and 
nuclear energy technology since the 1970s.
    Today I would like to address two issues. One, the trend in 
DOE energy R&D funding, and two, the key challenges to develop 
and deploy advanced energy technologies.
    First, as the chart to my right shows, the trend in DOE 
energy R&D funding over the past 30 years has been a story of 
steep decline, followed by slight recovery. In today's dollars 
DOE energy R&D funding for advanced technologies in renewable, 
fossil, and nuclear energy peaked 30 years ago at $6 billion, 
falling 92 percent in 20 years to about a half billion dollars 
before a rebound over the last 10 years to about $1.4 billion 
in 2008.
    However, funding today still has not reached a quarter of 
its peak of 30 years ago. DOE's fiscal year 2009 budget for 
this R&D is about $1.8 billion. In addition, DOE's Office of 
Science has requested $4.7 billion, primarily for fundamental 
research in such areas as basic energy sciences, high energy 
physics, and fusion energy. Some aspects of this basic research 
for things like material sciences may have useful applications 
for advanced energy technologies.
    Regarding advanced energy technologies, the development and 
deployment of these technologies present key technical costs 
and environmental challenges. For renewable energy, a key 
challenge is to make these technologies cost competitive. For 
fossil energy, a key challenge is to address the environmental 
impacts of emissions, in particular the carbon dioxide and 
mercury emissions of coal plants. Nuclear energy faces key 
challenges in addressing its high capital costs and 
environmental concerns about minimizing and managing nuclear 
wastes.
    However, while DOE has spent about $57 billion over the 
past 30 years for R&D and these technologies, the Nation's 
energy portfolio has not dramatically changed. As the second 
pie chart shows here to my right, conventional fossil energy in 
1973 provided 93 percent of our needs, yet 30 plus years later 
it still provides 85 percent of our energy.
    It is clear that DOE energy R&D funding alone will not be 
enough to deploy advanced energy technologies. Thus, 
coordinating DOE energy R&D with other federal energy R&D 
programs and policies, incentives, standards, and mandates will 
be important. In addition, other governments at the local, 
State, and foreign levels, and the worldwide private sector 
will play key roles.
    To put all this in some perspective, one energy consulting 
firm recently estimated that worldwide clean energy investment 
could surpass $7 trillion by 2030. That is 122 times the $57 
billion DOE has spent in the last 30 years. As the Nation goes 
forward, it will be important for DOE energy R&D to find its 
niche amidst all these players and activities. Given the 
limited research dollars available to DOE, in the fiscal 
environment of a nation with a $9 trillion debt, it is 
important to make these dollars count. These dollars can count 
the most by targeting them towards specific and measurable 
goals with a clear federal role and benefits that make advanced 
energy technologies cost competitive and environmentally sound 
so that their deployment will be sustainable in the 
marketplace.
    Mr. Chairman, this concludes my opening remarks. I have 
submitted a written statement for the record, and I welcome any 
questions you might have. Thank you.
    [The prepared statement of Mr. Gaffigan follows:]
                 Prepared Statement of Mark E. Gaffigan
Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss the challenges that our 
nation faces in meeting its future energy needs. The United States has 
primarily relied on market forces to determine its energy portfolio. 
The market has generally succeeded in providing us with plentiful, 
reliable, and inexpensive conventional fossil fuels--oil, natural gas, 
and coal--to power our vehicles and run our homes and businesses. 
However, as shown in Figure 1, the Nation's energy portfolio today has 
not dramatically changed since 1973. In 2006, fossil fuels accounted 
for 85 percent of the Nation's energy supply as compared with 93 
percent in 1973--the primary difference in the portfolio was the growth 
of nuclear power in the 1970s and 1980s. Oil continues to account for 
97 percent of the energy consumed for transportation and fossil fuels 
continue to generate 71 percent of the Nation's electricity; renewable 
energy grew slightly during this period to seven percent of U.S. energy 
consumption.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While conventional fossil fuels have provided us with relatively 
inexpensive and plentiful energy, they present economic and national 
security risks and have adverse health and environmental impacts. For 
example, about two-thirds of the oil we consume is imported, and supply 
constrictions have contributed to major energy price shocks several 
times since 1973. More recently, decreased domestic production and 
increased world consumption of oil have pushed prices upward, nearly 
doubling the amount American consumers have paid for oil in just the 
past three years. In addition, DOE projects that U.S. transportation 
demand will increase by 31 percent and U.S. electricity demand will 
increase by 35 percent by 2030. Furthermore, emissions from the 
conventional burning of fossil fuels have contributed to health 
problems--about 50 percent of Americans live in areas where levels of 
one or more air pollutants are high enough to affect public health. 
Also, the combustion of fossil fuels account for most of the greenhouse 
gas emissions--particularly carbon dioxide--that have been linked to 
global warming.
    Since its inception in 1977, the Department of Energy (DOE) has had 
leadership responsibility for energy research, development, and 
demonstration (R&D) to deploy advanced renewable, fossil, and nuclear 
technologies. DOE's energy R&D goal is to develop technologies for 
meeting future energy demands, addressing health and environmental 
issues, and diversifying the Nation's energy portfolio.\1\ During the 
past 30 years, DOE has spent about $57.5 billion for R&D in renewable, 
fossil, and nuclear technologies. In addition, DOE's Office of Science 
has spent about $34.3 billion from fiscal year 2000 through fiscal year 
2008 on related basic energy research in such areas as high energy and 
nuclear physics, basic energy sciences, and fusion energy.
---------------------------------------------------------------------------
    \1\ DOE is also responsible for energy efficiency programs, which 
are integral to addressing future energy challenges by reducing demand.
---------------------------------------------------------------------------
    DOE's fiscal year 2009 budget requests $1.8 billion for renewable, 
fossil, and nuclear energy R&D and $4.7 billion for the Office of 
Science. In addition, several other federal agencies perform R&D to 
develop advanced energy technologies. For example, the Department of 
Agriculture funds R&D on ethanol and biodiesel production and energy 
crops that maximize ethanol production. The Department of Defense is 
the Nation's largest consumer of transportation fuels, spending $13.6 
billion on energy in fiscal year 2006. The Department of Defense is 
conducting R&D--some of it in collaboration with DOE--to develop 
alternative fuels to displace oil. One Air Force program has already 
certified a new fuel for the B-52 bomber, a 50/50 blend of the standard 
oil-based JP-8 jet fuel and a new synthetic fuel currently derived from 
natural gas that may be derived from biomass in the future.
    In addition to R&D funding, the Federal Government can attempt to 
tap the vast resources of the private sector through tax incentives, 
such as tax credits to companies that make certain types of energy 
investments. These tax preferences--which are legally known as tax 
expenditures--result in forgone revenue for the Federal Government. The 
revenue losses can be viewed as spending channeled through the tax 
system. The Federal Government provides the energy industry and 
consumers with 20 tax expenditures affecting energy supply, totaling 
$6.3 billion in fiscal year 2007 and $4.9 billion in fiscal year 
2008.\2\ While the tax subsidies were historically directed toward the 
conventional energy sector, they have also been directed toward 
stimulating the deployment of advanced energy technologies.\3\ For 
example, the Energy Policy Act of 2005 provided a (1) two-year 
extension of the production tax credit for renewable technologies, (2) 
new investment tax credit of up to $1.3 billion for constructing new 
clean-coal power plants, and (3) new production tax credit of 1.8 cents 
per kilowatt-hour for up to 6,000 megawatts of new nuclear power 
capacity lasting eight years after each qualifying nuclear reactor 
begins service. The Energy Policy Act of 2005 also authorized DOE to 
implement a new loan guarantee program for energy projects that 
decrease air pollutants or greenhouse gases, employ new or 
significantly improved technologies, and have a reasonable prospect of 
repayment. In February 2007, the Congress authorized DOE to guarantee 
loans of up to $4 billion.\4\ In December 2007, the Congress directed 
DOE to make loan guarantees of up to $38.5 billion in fiscal years 2008 
and 2009.\5\
---------------------------------------------------------------------------
    \2\ Summing of tax expenditure estimates does not take into account 
interactions between individual provisions.
    \3\ The alternative fuels production credit, the largest energy-
related tax credit, is a tax credit of $3 per oil equivalent barrel (in 
1979 dollars) for gas produced from biomass or synthetic fuels produced 
from coal.
    \4\ See Pub. L. No. 110-5 (2007).
    \5\ This direction appears in an explanatory statement to Pub. L. 
No. 110-161 (2007), published by the House of Representatives.
---------------------------------------------------------------------------
    Moreover, the Federal Government can enact standards and mandates 
that could impact the Nation's energy portfolio. For example, the 
Federal Government has recently revised the renewable fuels standards 
to require the use of 36 billion gallons of biofuels by 2022.\6\ For 
electricity, the Congress has considered renewable portfolio standards 
that require a percentage of electricity be generated from renewable 
sources. Consideration has also been given to either a carbon tax or a 
carbon cap and trade program to reduce the environmental impact of 
carbon emissions and to better enable the market to compare total costs 
of conventional fossil energy sources with advanced energy 
technologies. Many states and foreign governments have enacted energy 
portfolio standards, mandates, and financial incentives to stimulate 
the deployment of renewable energy technologies that address their 
growing energy needs and environmental concerns. In particular, 29 
states have established renewable portfolio standards requiring or 
encouraging that a fixed percentage of the state's electricity be 
generated from renewable sources. For example, in response to the Texas 
renewable portfolio standard's requirement that 5,880 megawatts of 
renewable capacity be installed by 2015, electric power companies had 
installed over 1,900 megawatts of new renewable capacity by September 
2006--about three percent of Texas' total electricity consumption. 
Similarly, to develop a sustainable energy supply and protect the 
environment, Germany established a goal to increase the share of 
renewable energy consumption to at least 4.2 percent of its total 
energy requirements by 2010 and 10 percent by 2020.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 110-140 (2007).
---------------------------------------------------------------------------
    Within this broader context, I will discuss today (1) funding 
trends for DOE's renewable, fossil, and nuclear energy R&D programs and 
its Office of Science and (2) key challenges in developing and 
deploying advanced energy technologies. My remarks are primarily based 
on our December 2006 report on key challenges to developing and 
deploying advanced technologies for using renewable, fossil, and 
nuclear energy.\7\ I will also highlight findings from our recent 
reports on DOE's R&D for oil and natural gas and the Hydrogen Fuel 
Initiative.\8\ We conducted our work for these reports from October 
2005 through December 2007 in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \7\ GAO, Department of Energy: Key Challenges Remain for Developing 
and Deploying Advanced Energy Technologies to Meet Future Needs, GAO-
07-106, (Washington, D.C.: Dec. 20, 2006).
    \8\ GAO, Department of Energy: Oil and Natural Gas Research and 
Development Activities, GAO-08-190R, (Washington, D.C.: Nov. 6, 2007) 
and GAO, Hydrogen Fuel Initiative: DOE Has Made Important Progress and 
Involved Stakeholders but Needs to Update What It Expects to Achieve by 
Its 2015 Target, GAO-08-305, (Washington, D.C.: Jan. 11, 2008).
---------------------------------------------------------------------------
    In summary, DOE's budget authority for renewable, fossil, and 
nuclear energy R&D dropped by 92 percent (in inflation-adjusted terms) 
between fiscal years 1978 and 1998 before bouncing back in part during 
the past 10 years. Specifically, DOE's budget authority for renewable, 
fossil, and nuclear energy R&D of about $6 billion was near its high 
point in fiscal year 1978, when the Nation faced severe energy crises. 
DOE's budget authority subsequently declined in the 1980s and 1990s as 
energy prices returned to historical levels reaching its lowest level 
in fiscal year 1998 at $505 million (in inflation-adjusted terms). 
Since then, DOE's budget authority for renewable, fossil, and nuclear 
energy R&D has increased to $1.4 billion in fiscal year 2008. The 
Office of Science's budget authority also grew by 16 percent from 
fiscal year 2000 through fiscal year 2008.
    Further development and deployment of advanced renewable, fossil 
and nuclear energy technologies faces three key challenges. First, 
there are technology-specific challenges. For example, high-wind sites 
have generally been developed using current wind turbine technology. To 
further expand the use of wind energy, DOE is working with industry to 
develop new wind turbine designs and materials that exploit low-wind 
and offshore sites. Second, there are cost challenges. These advanced 
energy technologies often face high up-front capital costs and the need 
to improve operating efficiency so they can better compete with 
conventional energy technologies. The nuclear industry, for example, 
projects that new nuclear power plants will likely cost between $4 
billion and $6 billion each, about twice the cost of comparable 
conventional coal power plants. Finally, these technologies face 
challenges in addressing emerging concerns related to public health and 
the environment. For example, DOE is working with electric power 
companies to demonstrate coal gasification and carbon sequestration 
technologies designed to enable coal plants to reduce carbon dioxide 
and mercury emissions.

DOE's Budget Authority for Renewable, Fossil, and Nuclear Energy R&D 
                    Has Substantially Declined in Real Terms Since 1978

    DOE's budget authority for renewable, fossil, and nuclear energy 
R&D dropped by 92 percent (in inflation-adjusted terms) from $6 billion 
(in inflation-adjusted terms) in fiscal year 1978 to $505 million in 
fiscal year 1998 before bouncing back to $1.4 billion in fiscal year 
2008. As shown in Figure 2, R&D budget authority in renewable, fossil, 
and nuclear energy peaked in the late 1970s and fell sharply in the 
1980s. Since fiscal year 1998, R&D budget authority for renewable and 
nuclear energy R&D have grown, while fossil energy R&D funding has 
fluctuated in response to coal program initiatives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Nuclear energy R&D, which received no funding in fiscal year 1998, 
experienced the largest increase, rising to $438 million in fiscal year 
2008. During this period, budget authority for renewable energy 
increased by 89 percent and fossil energy increased by 116 percent. A 
comparison of DOE's fiscal year 2009 budget request with the fiscal 
year 2008 appropriation shows that renewable energy R&D would decline 
slightly, while fossil energy R&D and nuclear energy R&D would increase 
by 34 percent and 44 percent, respectively (see App. 1).
    As shown in Figure 3, budget authority for the Office of Science 
increased by 16 percent from $3.4 billion in fiscal year 2000 to $4 
billion in fiscal year 2008. The budget request for the Office of 
Science for fiscal year 2009 is $4.7 billion, a 19-percent increase 
over the fiscal year 2008 appropriation. Because the Office of Science 
funds basic research in materials sciences, for example, many of its 
R&D programs may have useful applications for energy R&D. In fiscal 
year 2009, the Office of Science has requested $69.1 million for 
research related to the solar energy R&D program, $42.9 million related 
to biomass R&D, and $60.4 million for the Hydrogen Fuel Initiative. The 
Office of Science also funds fundamental research in such areas as high 
energy physics, nuclear physics, and fusion energy.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


DOE Faces Key Challenges in Developing Advanced Energy Technologies for 
                    Deployment

    There are key technical, cost, and environmental challenges in 
developing advanced renewable, fossil, and nuclear energy technologies 
to address future energy challenges.
DOE's R&D Challenges for Advanced Renewable Energy Technologies
    DOE's recent R&D focus in renewable energy has been in (1) biomass-
derived ethanol, (2) hydrogen-powered fuel cells, (3) wind 
technologies, and (4) solar technologies. The primary focus of ethanol 
and hydrogen R&D is to displace oil in the transportation sector. The 
primary focus of wind and solar technologies is to generate 
electricity. DOE also conducts R&D on geothermal and hydropower to 
generate electricity, but they have reflected a small proportion of the 
R&D budget in prior years and are not discussed here.
    Biomass-derived ethanol. DOE's short-term R&D goal is to help meet 
the administration's ``20 in 10'' goal of substituting 20 percent of 
gasoline consumption in 10 years with alternative fuels, primarily 
biomass-derived ethanol. DOE's longer-term R&D goal is to develop new 
technologies to allow the ethanol industry to expand enough to displace 
30 percent of gasoline requirements--about 60 billion gallons--by 2030. 
In 2007, industry produced over seven billion gallons of ethanol, 
displacing about three percent of the Nation's oil consumption.\9\ 
Ethanol, however, faces high production and infrastructure costs, 
creating challenges in competing with gasoline nationally.\10\ Ethanol 
refiners in the United States rely mostly on corn as a feedstock, the 
use of which has contributed to price increases for some food products, 
and ethanol's corrosive properties create challenges in developing an 
infrastructure for delivering and dispensing it. DOE's R&D focuses on 
(1) developing a more sustainable and competitive feedstock than corn, 
primarily by exploring technologies to use cellulosic biomass from, for 
example, agricultural residues or fast-growing grasses and trees; (2) 
reducing the cost of producing cellulosic ethanol to $1.33 per gallon 
by 2012 and $1.20 per gallon by 2017; (3) converting biomass to 
biofuels through both biochemical and thermochemical processes to help 
the industry expand; (4) contributing to a strategy to develop a 
national biofuels infrastructure, including demonstration projects for 
integrated biorefineries to develop multiple biomass-related products; 
and (5) promoting market-oriented activities to accelerate the 
deployment of biomass technologies. Although DOE has made progress in 
reducing ethanol production costs, cellulosic ethanol in 2007-based on 
current corn prices-still cost about 50 percent more to produce than 
corn ethanol.
---------------------------------------------------------------------------
    \9\ Biodiesel, electricity from batteries, and other technologies 
also contribute to the displacement of oil. DOE's R&D efforts also 
include, among other things, liquid fuels from biomass and plug-in 
hybrid vehicles.
    \1\ See GAO, Biofuels: DOE Lacks a Strategic Approach to Coordinate 
Increasing Production with Infrastructure Development and Vehicle 
Needs, GAO-07-713, (Washington, D.C.: June 8, 2007).
---------------------------------------------------------------------------
    Hydrogen-powered fuel cells. The long-term R&D goal of DOE's 
Hydrogen Fuel Initiative is to provide hydrogen fuel cell technologies 
to industry by 2015 to enable industry to commercialize them by 2020. 
To be commercialized, hydrogen fuel cell technologies must be 
competitive with gasoline vehicles in terms of price, convenience, 
safety, and durability. Hydrogen is the preferred fuel for vehicle fuel 
cells because of the ease with which it can be converted to electricity 
and its ability to combine with oxygen to emit only water and heat as 
byproducts. Let me clarify, however, that hydrogen is not an energy 
source, but, like electricity, is an energy carrier. Furthermore, 
because hydrogen is lighter than air, it does not exist on Earth and 
must be extracted from common compounds. Producing hydrogen through the 
extraction process requires energy from renewable, fossil, or nuclear 
sources, adding to the challenge of developing hydrogen technologies. 
Our January 2008 report concluded that DOE has made important progress 
in developing hydrogen fuel cells, but the program has set very 
ambitious targets and some of the most difficult technical challenges--
those that require significant scientific advances--lie ahead. 
Specifically, R&D for vehicles includes reducing the cost of 
commercial-scale manufacturing of fuel cells by nearly fourfold, 
storing enough hydrogen on board a fuel-cell vehicle to enable a 300-
mile driving range, and increasing the durability of fuel cells by more 
than threefold to match the 150,000 mile life-span of gasoline 
vehicles. DOE also conducts R&D on stationary and portable fuel cells 
which could be used, for example, to replace batteries on fork lifts 
and diesel generators used for back-up power. We recommended that DOE 
update its overarching R&D plan to reflect the technologies it 
reasonably expects to provide to industry by 2015 to accurately reflect 
progress made by the Hydrogen Fuel Initiative, the challenges it faces, 
and its anticipated R&D funding needs. I would also note that 
developing the supporting infrastructure to deploy the technologies 
nationally will likely take decades, tens of billions of dollars in 
investments, and continued R&D well beyond the 2015 target date.
    DOE's fiscal year 2009 budget request would reduce funding for the 
Hydrogen Fuel Initiative by 17 percent from $283.5 million in fiscal 
year 2008 to $236 million in fiscal year 2009. The budget also proposes 
to increase the proportion of longer-term R&D by increasing the funding 
for basic research. Although the Hydrogen Program Manager told us that 
funding is sufficient to meet target dates for critical technologies, 
other target dates for supporting technologies--such as hydrogen 
production from renewable sources--would be pushed back.
    Wind technologies. DOE is assessing its long-term vision of 
generating 20 percent of the Nation's electricity using wind energy by 
2030. Its current R&D efforts, however, are focused on more immediate 
expansion of the wind industry, particularly on utility-scale wind 
turbines. More specifically, DOE has focused its R&D efforts on 
improving the cost, performance, and reliability of large scale, land-
based wind turbines, including both high- and low-wind technologies; 
developing small and mid-size turbines for distributed energy 
applications, such as for residential or remote agricultural uses; and 
gathering information on more efficient uses of the electricity grid 
and on barriers to deploying wind technology and providing that 
information to key national, State, and local decision-makers to assist 
with market expansion of wind technologies.\11\ For example, one of 
DOE's targets is to increase the number of distributed wind turbines 
deployed in the United States from 2,400 in 2007 to 12,000 in 2015. 
Although wind energy has grown in recent years, from about 1,800 
megawatts in 1996 to over 16,800 megawatts in 2007, the wind industry 
still faces investors' concerns about high up-front capital costs, 
including connecting the wind farms to the power transmission grid.
---------------------------------------------------------------------------
    \11\ DOE continues to perform R&D on offshore wind technologies as 
well.
---------------------------------------------------------------------------
    Solar technologies. DOE's R&D goal is for solar power to be 
unsubsidized and cost competitive with conventional technologies by 
2015 by, for example, developing new thin-film photovoltaic 
technologies using less expensive semiconductor material than 
crystalline-silicon to reduce the manufacturing cost of solar cells. 
Specifically, DOE is working to reduce the costs of photovoltaic 
systems from about 18-23 cents per kilowatt hour in 2005 to about 5-10 
cents per kilowatt hour in 2015. DOE is also conducting R&D to reduce 
the cost and improve the reliability of concentrating solar power 
technologies, which use various mirror configurations to convert the 
sun's energy to heat to generate electricity. In addition, DOE has 
expanded R&D to address low-cost thermal storage to allow solar thermal 
systems to be more valuable to utility grid power markets. Along these 
lines, both the photovoltaic and concentrated solar power activities 
have ramped up efforts in the areas of grid integration and reliability 
to facilitate the transition to larger scale, centralized solar 
electric power plants. Investors' concerns about high up-front capital 
costs are among the most significant challenges in deploying 
photovoltaic or concentrating solar energy technologies. This requires 
both technologies to have lower costs for installation and operations 
and maintenance, better efficiency of converting solar power to 
electricity, and longer-term (20 to 30 years) durability.
DOE's R&D Challenges for Advanced Fossil Energy Technologies
    Since fiscal year 2006, DOE has proposed eliminating its R&D in oil 
and natural gas R&D and, in January 2008, announced a restructuring of 
its coal R&D program.
    Increased oil production. Since fiscal year 2006, DOE has proposed 
to terminate its oil R&D. In November 2007, we reported that DOE's R&D 
focuses on increasing domestic production primarily by improving 
exploration technologies, extending the life of current oil reservoirs, 
developing drilling technology to tap into deep oil deposits, and 
addressing environmental protection. DOE officials stated that if the 
oil R&D program continues, it would focus on such areas as enhanced oil 
recovery technologies and expanding production from independent 
producers. Independent producers account for about 68 percent of 
domestic oil production.
    Natural gas technologies. Since fiscal year 2006, DOE has proposed 
to terminate its natural gas R&D. Our November 2007 report noted that 
DOE's R&D focuses on improving exploration technologies, reducing the 
environmental impact of natural gas operations, developing drilling 
technology to tap into deep gas reservoirs, and developing the 
technology for tapping into natural gas in naturally occurring methane 
hydrate found in permafrost regions on land and beneath the ocean 
floor.
    Clean coal technologies. DOE's R&D goal is to reduce harmful power 
plant emissions to ``near-zero'' levels by 2020. For new power plant 
applications, DOE is developing and demonstrating advanced integrated 
gasification combined cycle (IGCC) technologies. In 2003, DOE announced 
plans to construct a near-zero emissions commercial scale R&D facility 
called FutureGen with an alliance of coal mining and coal-based 
electric generating companies. DOE had originally pledged about three-
quarters of the estimated $1 billion cost of the FutureGen project (in 
constant fiscal year 2004 dollars). With escalation costs and rising 
price of materials and labor, the estimated project costs rose to 
nearly $1.8 billion. As a result, DOE announced in January 2008 that it 
is restructuring FutureGen to focus on multiple, competitively selected 
projects that demonstrate carbon capture and sequestration at 
commercially viable power plant project sites. The impact of DOE's 
restructuring on FutureGen at this time is not known, but an industry 
official from the FutureGen Alliance noted that the project cannot go 
forward without Federal Government assistance. Separate from the 
FutureGen project, DOE also conducts R&D on near-zero emission power 
plants--including carbon capture and sequestration--through its fuels 
and power systems programs and its Clean Coal Power Initiative.
DOE's R&D Challenges for Advanced Nuclear Energy Technologies
    DOE has focused nuclear energy R&D in the following three areas:

        <bullet>  The Nuclear Power 2010 program focuses on reducing 
        regulatory and technical barriers to deploying advanced 
        ``Generation III'' nuclear power reactors, which are designed 
        to be more efficient than currently operating reactors. Because 
        no electric power company has applied to the Nuclear Regulatory 
        Commission for a license to construct a new nuclear reactor in 
        the past 30 years, Nuclear Power 2010 shares the costs with 
        industry of preparing early site permits and or construction 
        and operating license applications for submission to the 
        Nuclear Regulatory Commission. Nuclear Power 2010 also 
        regulates the risk insurance authorized by the Energy Policy 
        Act of 2005 that protects industry from certain regulatory 
        delays during licensing and construction.

        <bullet>  The Global Nuclear Energy Partnership program--an 
        extension of the Advanced Fuel Cycle Initiative--develops 
        proliferation-resistant nuclear fuel that maximizes energy 
        output and minimizes waste. Specifically, the program is 
        designed to reduce the threat of global nuclear proliferation 
        by developing advanced technologies for reprocessing spent 
        nuclear fuel in the 2030 time frame. One of the critical 
        elements of this effort is to develop a sodium-cooled fast 
        reactor designed to burn a wide variety of nuclear fuels to 
        reduce the total amount, temperature, and radiotoxicity of the 
        fuel that might otherwise have to be stored for thousands of 
        years in a repository.

        <bullet>  Beginning in fiscal year 2008, the Generation IV 
        Program is focusing solely on the Next Generation Nuclear Plant 
        (NGNP), designed as a versatile, efficient, high-temperature 
        reactor capable of generating electricity and producing 
        hydrogen. DOE collaborates with 12 other international partners 
        on R&D related to fuels, materials, and design methodologies as 
        part of the Generation IV International Forum.

Concluding Observations

    In the current wake of higher energy costs and the growing 
recognition that fossil energy consumption is contributing to global 
climate change, the Nation is once again assessing how best to 
stimulate the deployment of advanced energy technologies. While still 
considerably below its peak in the late 1970s, DOE's budget authority 
for renewable, fossil, and nuclear energy R&D has rebounded to $1.4 
billion during the past 10 years after hitting a low point in fiscal 
year 1998. However, despite DOE's energy R&D funding of $57.5 billion 
over the last 30 years, the Nation's energy portfolio remains heavily 
reliant on fossil fuels. Many technical, cost and environmental 
challenges must be overcome in developing and demonstrating advanced 
technologies before they can be deployed in the U.S. market. Our 
December 2006 report suggested that the Congress consider further 
stimulating the development and deployment of a diversified energy 
portfolio by focusing R&D funding on advanced energy technologies. 
However, because it is unlikely that DOE's energy R&D funding alone 
will be sufficient to significantly diversify the Nation's energy 
portfolio, coordinating energy R&D with other federal programs, 
policies, incentives, standards, and mandates that can impact the 
Nation's energy portfolio will be important for targeting any desired 
goals to change the Nation's energy portfolio. In addition, State and 
local governments and other nations, along with a worldwide private 
sector, will play a role in developing and deploying advanced energy 
technologies both here and throughout the global energy market. A key 
factor to any sustainable deployment of advanced energy technologies 
will be to make them cost competitive, while addressing technical and 
environmental challenges, so that the market can support a more 
diversified portfolio. Otherwise, without sustained higher energy 
prices for our current portfolio, or concerted, high-profile Federal 
Government leadership, U.S. consumers are unlikely to change their 
energy-use patterns, and the U.S. energy portfolio will not 
significantly change.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Contacts and Acknowledgments

    For further information about this testimony, please contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="75121413131c12141b183512141a5b121a035b">[email&#160;protected]</a> Richard Cheston, Robert Sanchez, Kerry Lipsitz, 
MaryLynn Sergent, and Anne Stevens made key contributions to this 
statement.

                     Biography for Mark E. Gaffigan
    Mark Gaffigan is currently serving as an Acting Director for the 
U.S. Government Accountability Office's (GAO) Natural Resources and 
Environment team. His current responsibilities include leadership of 
GAO's work on energy related issues. Mr. Gaffigan began his career with 
GAO in 1987 and has worked on a variety of reviews of federal programs 
with an emphasis on budget and program reviews of the U.S. Department 
of Energy. Mr. Gaffigan earned a BA in Economics and a MA in Public 
Administration from the University of Illinois. He is also a CPA in the 
State of Maryland.

    Chairman Lampson. Thank you, Mr. Gaffigan.
    And from Stanford, Dr. Bienenstock.

   STATEMENT OF DR. ARTHUR BIENENSTOCK, PRESIDENT, AMERICAN 
   PHYSICAL SOCIETY; SPECIAL ASSISTANT TO THE PRESIDENT FOR 
   FEDERAL RESEARCH POLICY, STANFORD UNIVERSITY; PROFESSOR, 
 STANFORD SYNCHROTRON RADIATION LABORATORY AND DEPARTMENTS OF 
     APPLIED PHYSICS AND MATERIALS SCIENCE AND ENGINEERING

    Dr. Bienenstock. Mr. Chairman, Mr. Inglis, Members of the 
Subcommittee, you have my written testimony. Let me summarize 
it briefly.
    In doing so I will address two issues: the extraordinary 
damage done by the 2008 Omnibus bill to DOE science, and the 
balance between DOE's basic research and technology programs.
    My one chart, which shows GDP deflated appropriations for 
the Office of Science, shows that for more than two decades the 
GDP corrected funding for science has been almost flat for DOE 
science. However, the deflator for scientific R&D generally 
runs about one to two percent above the GDP deflator. Using 
these numbers we estimate that the Office of Science has lost 
approximately one-third of its budget capacity over the last 
two decades.
    In Fiscal Year 2006 alone the program suffered a real 
reduction of about 7.5 percent, and to date the programs have 
not recovered. The '07 and '08 budget requests were designed to 
address this issue, but the appropriations failed to 
materialize.
    This year the consequences have been enormous. Four of the 
many major impacts are, first, the budget for the U.S. 
commitment to ITER was zeroed out, reneging on our commitment 
to this international project and severely damaging our 
reputation as an international scientific partner. That will 
make it much more difficult in future years for us to engage in 
other international efforts that will become very important as 
major scientific facilities grow increasingly expensive.
    Next is high energy physics. The reduction of R&D funding 
for the International Linear Collider and the zeroing out of 
the neutrino project, NOnA make the future of the field very 
bleak. Five hundred people at Fermilab and the Stanford Linear 
Accelerator Center (SLAC) are being laid off. An additional 10 
percent of Fermilab's staff is being furloughed. The loss of 
expertise at these labs will hurt science broadly, and the 
message to any young American scientist is to avoid the field 
or seek a position elsewhere in the world.
    Third is the operation of basic energy sciences user 
facilities. These facilities support a broad range of 
scientific and technological research from structural biology 
to semiconductor processing with users from academic, 
government, and corporate labs. Even though they are typically 
doubly oversubscribed when operating at full capacity, they 
will suffer operating reductions of up to 20 percent. The 
impact will be felt throughout the U.S. scientific and 
technological communities.
    Finally, the 2008 budget has resulted in the rejection of 
700 proposals in energy research the Department had hoped to 
fund. Scientific advances will be delayed, and there will be 
significant layoffs of students and post docs in the Nation's 
universities as a consequence. Young people will turn away from 
scientific careers just when the Nation needs them.
    It is vital that the damage done by the '08 Omnibus bill be 
reversed, at least partially. I urge you to provide a 
supplemental appropriation of at least $300 million to the 
Office of Science and allow it to contribute to ITER.
    Now let me turn to the '09 budget request. I strongly 
support the request and particularly if the supplementary 
appropriation is provided. With that budget DOE can fund the 
academic programs, it can operate its facilities full-time, and 
instrument the magnificent new facilities coming on line.
    Second, I believe that the Administration's budget for the 
energy efficiency and renewable energy account is insufficient, 
and Congress must rectify it.
    However, Congress must not offset the increases to EERE by 
reductions in funding for the Office of Science. Tempting as it 
might be to put off for tomorrow the funding of long-term 
scientific discovery for the sake of achieving short-term 
technological gains today, we must resist doing so. Otherwise 
the scientific basis for future technologies will be severely 
undermined.
    Thank you for your attention.
    [The prepared statement of Dr. Bienenstock follows:]
                Prepared Statement of Arthur Bienenstock
    Mr. Chairman, Mr. Inglis, Members of the Committee, thank you for 
the opportunity to testify today. I am President of the American 
Physical Society whose 46,000 members work in academia, industry and 
national laboratories. At Stanford University I am a special assistant 
to President John Hennessy for federal research policy, and I have 
previously served as director of the Stanford Synchrotron Radiation 
Laboratory, one of four major X-ray user facilities supported by the 
Department of Energy. As a disclaimer, I need to stress that my 
testimony today only reflects my opinions, although in many cases they 
are consistent with positions held by Stanford University and the 
American Physical Society.
    In the limited time I have, I will address two issues: (1) The 
extraordinary damage done by the Fiscal Year 2008 Omnibus 
appropriations bill to several DOE Science programs and the consequent 
need to remedy the damage as soon as possible; and (2) The balance 
between long-term basic science research and short-term technology 
programs in the DOE's energy portfolio and how that is reflected in the 
FY 2009 budget request.
    To put the FY 2008 DOE Science appropriation in perspective, I want 
to call your attention to the historic trend of federal support for the 
program. As the chart illustrates, for more than two decades, the 
funding has been almost flat when measured in GDP-deflator corrected 
dollars.
    However, salaries and, at big facilities, electricity bills are 
prime drivers of the cost of performing research. As a consequence, the 
GDP-deflator understates the inflation associated with research. In the 
case of biomedicine, for example, the BIRDPI--officially known as the 
Biomedical Research and Development Price Index--generally runs about 
one to two percent above the GDP deflator, according to the Office of 
Management and Budget, which calculates the index annually. There is no 
reason to believe that research costs in other science areas behave any 
differently.
    Using these numbers as a guide, we estimate that the DOE Office of 
Science has lost approximately one third of its budget capacity over 
the last two decades. In FY 2006, alone, the programs suffered a real 
reduction of about 7.5 percent, and to date, the programs have not 
recovered. Indeed, the FY 2007 and 2008 budget requests were designed 
to address the issue, but the appropriations failed to materialize. 
This year, the Department has finally been forced to take extreme 
measures to balance its books. Although many parts of the science 
budget were affected, four deserve special mention.

        <bullet>  First, the budget for the U.S. commitment to ITER, 
        which is the centerpiece of the world fusion energy effort, was 
        reduced to zero. The project involves an international 
        agreement among the European Union nations, Russia, China, 
        Japan, India the Republic of Korea and the United States. By 
        reneging on our commitment, which was supposed to be $160 
        million for FY 2008, we have severely damaged our reputation as 
        a reliable international scientific partner, and that will make 
        it much more difficult in future years for us to engage in 
        other international efforts. Yet, international collaboration 
        is likely to become increasingly important as major scientific 
        facilities grow increasingly expensive.

        <bullet>  A second area severely affected is high-energy 
        physics, long one of the flag ship fields of American science 
        and one that gave us the World Wide Web, as well as accelerator 
        capabilities used in medical treatment and synchrotron 
        radiation-based advanced materials and pharmaceutical research. 
        The reduction of R&D funding for the International Linear 
        Collider project and the zeroing out of the neutrino project 
        NOnA make the future of the field very bleak. Already 500 
        scientists and engineers at Fermilab and the Stanford Linear 
        Accelerator Center have been notified that they will lose their 
        jobs, and an additional 10 percent of Fermilab's staff is being 
        furloughed. The message to any young American scientist is to 
        avoid the field or seek a position elsewhere in the world.

        <bullet>  The operation of DOE user facilities is a third area 
        badly damaged. The facilities, which in the aggregate have cost 
        well more than $10 billion to construct, are gems in the 
        American scientific enterprise. The facilities support a very 
        broad range of scientific and technological research with users 
        from academic, government and corporate laboratories. They are 
        typically over-subscribed when operating at full capacity. They 
        will, however, suffer reductions of 20 percent in operations. 
        For American industrial users, the message is to move R&D 
        laboratories abroad, where similar facilities can provide more 
        reliable access. Academic and government laboratories users 
        will face a marked decrease in effectiveness and productivity.

        <bullet>  Finally, the FY 2008 budget has resulted in the 
        rejection of 700 proposals in energy research the Department 
        had hoped to fund as part of our nation's effort to gain energy 
        security. Scientific advances will be delayed. There will be 
        significant layoffs of students and post-docs in the Nation's 
        universities as a consequence. Young people will turn away from 
        scientific careers when the Nation needs them.

    It is vital that the damage done by the FY 2008 Omnibus 
appropriations bill be reversed partially through a supplemental 
appropriation that provides at least $300M of additional funding to the 
DOE Office of Science.
    This last point provides a segue to my observations about the FY 
2009 budget request, which for brevity I will restrict to two points. 
First, if appropriated, the funds requested by the Administration for 
the DOE Office of Science would move this nation forward markedly in 
energy sciences and reverse the trend towards declining budget capacity 
that characterizes most of the past two decades. I strongly support the 
request, and particularly if the supplementary appropriation discussed 
above is provided so that valuable people and skills are not lost from 
our national laboratories and academia.
    Our nation must move aggressively to reduce carbon emissions and 
our dependence on foreign oil and gas. To achieve these twin goals 
requires investment in both near-term technological research and long-
term scientific research. We cannot afford to sacrifice one for the 
other.
    I believe that the Administration's budget for the Energy 
Efficiency and Renewable Energy account is not nearly aggressive enough 
and Congress, as it did last year, must rectify it. However, Congress 
must not travel down the same road it did last year, when it offset the 
increases to EERE by reductions in the planned commitments to the 
Office of Science. Tempting as it might be to put off for tomorrow the 
funding of long-term scientific discovery for the sake of achieving 
quick, visible short-term technological gains today, we must resist 
doing so. Otherwise the scientific basis for future technologies will 
be severely undermined.

                    Biography for Arthur Bienenstock
    Arthur Bienenstock, the President of the American Physical Society, 
is Special Assistant to the President for Federal Research Policy at 
Stanford University, where he is also a Professor at the Stanford 
Synchrotron Radiation Laboratory and in the Departments of Applied 
Physics and Materials Science & Engineering. From September 2003 to 
November 2006, he served as the Vice Provost and Dean of Research and 
Graduate Policy.
    From November, 1997 through January, 2001, while on leave from 
Stanford, he was the Associate Director for Science of the White House 
Office and Science and Technology Policy (OSTP). At OSTP, Dr. 
Bienenstock sought to gain general recognition of the interdependencies 
of the sciences and the need for the country to maintain broad 
scientific and technological strength. He also focused on ensuring that 
the United States has a scientific and technological workforce, at all 
levels, to meets the Nation's 21st Century needs. He led a Task Force 
on the Government-University Research Partnership aimed at 
strengthening the relationship, and championed an Interagency 
Educational Research Initiative to fund large-scale, interdisciplinary 
research on teaching and learning.
    For the 20 years prior to his going to OSTP, Dr. Bienenstock 
directed the Stanford Synchrotron Radiation Laboratory at the Stanford 
Linear Accelerator Center, leading SSRL's transition from a scientific 
project to a major facility. Prior to that, he served as Stanford's 
first Faculty Affirmative Action Officer and as Vice Provost for 
Faculty Affairs.
    From 1963 to 1967, he was on the faculty of Harvard University's 
Division of Engineering and Applied Physics.
    Throughout the 1963-97 period, he maintained an active research 
group in the general areas of solid-state physics, amorphous materials 
and synchrotron radiation. He has published over 100 scientific papers 
in these areas.
    Dr. Bienenstock received a B.S. (1955) and M.S. (1957) degree from 
the Polytechnic Institute of Brooklyn. He received his Ph.D. from 
Harvard University in 1962. In addition, he was a recipient of a Ph.D. 
(honorary) from Polytechnic University in 1997 and from Lund University 
in June, 2006.
    In 1968, Dr. Bienenstock was the first recipient of the Pittsburgh 
Diffraction Society's Sidhu Award for his work in x-ray diffraction and 
crystallography. He received the Distinguished Alumnus Award of the 
Polytechnic Institute of New York Alumni Association in 1977 and the 
Distinguished Service Award of the Department of Energy in 2005. He is 
the President and a fellow of the American Physical Society and a 
fellow of the American Association for the Advancement of Science.

                               Discussion

    Chairman Lampson. Thank you, Dr. Bienenstock.
    We will now move to our question period. I recognize myself 
as Chairman for the first five minutes.

                  Section 999 of the Energy Policy Act

    Mr. Isakowitz, I am concerned that obstructive tactics by 
the Office of Management and Budget have impeded and 
unnecessarily delayed the implementation of Section 999 of the 
Energy Policy Act. We do not need burdensome governmental 
processes and intergovernmental wrangling to slow the benefits 
for American consumers.
    When will the research dollars that Congress has provided 
for the program begin to flow more than the trickle that we 
have seen so far?
    Mr. Isakowitz. You mentioned earlier the Administration's 
proposal to repeal Section 999, but in this fiscal year we 
understand and we are operating under the statute to go forward 
with the program. And so, indeed, we are moving forward at this 
time, having put out a competitive solicitation and do plan to 
make awards shortly with regards to this program.
    Chairman Lampson. I know that recommendations for research 
awards have been made to the Department, and the researchers 
are simply waiting for a decision as to whether the projects 
are approved or not. But when can we expect DOE to approve or 
disapprove recommended research projects?
    Mr. Isakowitz. I don't have a date for you, but my 
understanding is we are on pace to do something soon with this 
program, and it is our intention to award these dollars.
    Chairman Lampson. Is there anything that Congress can do to 
help expedite the process?
    Mr. Isakowitz. No. I think at this time we have what we 
need to undertake this program in this fiscal year.
    Chairman Lampson. It is my understanding that the annual 
plans that have been developed by RPSE and submitted to the 
Department of Energy have been developed with the input of 
thousands of scientists, geologist, and experts. I am 
concerned, however, that OMB has slowed the ultimate approval 
of the 2007 annual plan and may well slow the approval of the 
2008 annual plan.
    Does OMB have the technical expertise to evaluate the 
proposed annual plan?
    Mr. Isakowitz. Well, you know, as you know it is part in 
putting together the research plan as you said, through 
committees we have reached out to the community, done a 
thorough review, and of course, we coordinate within the 
Administration for getting the job done. We believe that the 
research plan that we have provided previously and we will be 
providing in the future should adequately provide the kind of 
information necessary to implement this program.
    Chairman Lampson. I think the real answer to that is no, it 
should reside with the advisory committee.
    Does OMB have any authority to review the annual plan 
before it is approved?
    Mr. Isakowitz. On many matters that go before the Congress 
we do, in fact, coordinate with OMB in advance of submission of 
that material.
    Chairman Lampson. The answer is no. Right?
    Mr. Isakowitz. Well, on this matter we do coordinate with 
OMB.
    Chairman Lampson. Okay. The answer is no. Why would OMB 
insert itself in the annual plan review process at all?
    Mr. Isakowitz. Because on matters dealing with how money is 
going to be spent in various areas, we do coordinate, you know, 
within the Administration to ensure that there is consistency, 
and we are not over-promising or obligating the Administration 
in future years.
    Chairman Lampson. Section 999 provides for the 
establishment and operation of a technical committee that among 
other duties will ensure that the research activities of NETL 
and RPSE are not duplicative. Has a technical committee been 
established? And what are the roles of the DOE and RPSE on that 
committee?
    Mr. Isakowitz. Frankly, sir, I am not aware of that 
committee. I would have to get you an answer back for the 
record.
    [The information follows:]
                         Insert for the Record
    The technical committee required by Section 999(H) has been 
established. Most of the members have been confirmed and additional 
members are being sought in order to provide full coverage of all the 
technical areas in the program. Planning and organization continue with 
an expectation that the committee will review NETL's complementary R&D 
program in June 2008. DOE and NETL staff are not members of the 
technical committee. NETL staff may be considered ex officio members 
with roles to inform the committee about its research, to engage in 
dialogue, and to respond to committee recommendations, as appropriate. 
A RPSEA representative is participating on the committee in order to 
provide information on RPSEA's activities and to participate in the 
committee's discussions on the complementary nature of RPSEA and NETL 
research.

    Chairman Lampson. Could there not be a greater degree of 
communication between NETL and RPSE and perhaps even including 
establishing a small NETL office near RPSE, and perhaps I 
should say I don't think that NETL has collaborated with RPSE 
on this matter. Would you want to make any comment on it?
    Mr. Isakowitz. Sir, we are happy to sit down with you and 
your staff as to how you feel there are better ways we can work 
between the various organizations. We think we are trying our 
best with regards to reaching out to the various organizations 
and getting their input so, in fact, we do have a good program.
    Chairman Lampson. I think instead of us sitting down with 
it, the law said a specific statement of--and even appropriated 
the money. It just seems to me that the Executive Branch has a 
responsibility of following the law. Maybe instead of us 
sitting down and discussing it, that we need to revisit what 
Congress said or you all need to revisit what Congress said in 
the laws it had passed and the President signed.
    That being said, I am going to stop at this point and yield 
to the Ranking Member for his five minutes of questions.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    Mr. Isakowitz. Am I pronouncing that right?
    Mr. Isakowitz. Isakowitz.
    Mr. Inglis. Isakowitz. Okay.
    Mr. Isakowitz. Yeah. It is a tough one.

         Breaking Dependence on Oil Through Alternative Energy

    Mr. Inglis. Thank you for being here and a question for you 
is, I see the budget proposal has cuts for hydrogen, solar, and 
nuclear infrastructure. I think it has an increase for the 
biomass program. Other than that biomass program can you 
highlight any significant lines that might indicate long-term 
investments to breaking our dependence on oil?
    Mr. Isakowitz. Yeah. I think it is important to look at it, 
you know, certainly in its totality. You know, with regards to 
the overall renewable budget, it is true that there are some 
areas that are going up and some areas that are going down. We 
have set out very aggressive paths with regard to implementing 
a lot of the technologies, you know, in the various areas. You 
do mention in the case of biomass, that is an area that is 
going up. We propose increases in wind and geothermal and 
building technologies, and there are good reasons why you see 
changes in some of the other areas.
    I think it is also important to note that when one views 
the renewable budget, that we have another program that is 
important for the Department of Energy, our Loan Guarantee 
Program, that is also an effective means by which we can help 
to bring a lot of these research efforts out of the 
laboratories and working with industry to actually see them 
implemented with regards to industry in the marketplace.
    Mr. Inglis. Those are--that is helpful to know about, so 
you are highlighting biomass, wind, geothermal, and building 
technology. Those are----
    Mr. Isakowitz. Uh-huh.
    Mr. Inglis.--key areas to focus on. What was the rationale 
for reducing hydrogen, solar, and nuclear?
    Mr. Isakowitz. As you had mentioned in your opening 
comments, the President did commit to spend $1.2 billion over 
five years, from 2004 to 2008, in a Hydrogen Initiative. That 
having been said, the Department of Energy does not view the 
end of that five-year period being the 2009 budget as in any 
way a sunset for that activity. I think instead we view it as a 
maturing of that activity, where we have learned a lot in terms 
of things that are going well and things that need more work.
    I think if you look at the overall funding for hydrogen 
across the Department, the funding does drop from the '08 
enacted by about $13 million, and a lot of that is coming out 
of the Office of Energy Efficiency and Renewable Energy.
    The other thing you need to keep in mind is we have 
significant increases in the Office of Science. In fact, we 
have a $24 million increase in hydrogen in the 2009 budget. I 
believe that reflects that things that we have learned and 
opportunities that we see that require longer term, more 
fundamental research to ensure the success of the initiative.
    Also, I would add that we have tried to within the funding 
with EERE to make sure we focus on those things that meet the 
date of 2015 in terms of addressing critical path technologies.
    Mr. Inglis. Of course, the $24 million increase in 
hydrogen, for example, in the Office of Science, that is nice. 
It didn't compare very favorably to $1.2 billion.
    Mr. Isakowitz. Yeah, and again, when I talk $24 million, 
that is just going from '08 to '09, $1.2 billion is a grand 
total across five years of the project. So for example, in '09 
we are proposing $266 million, which a sizable portion of that 
is from the Office of Science.
    Mr. Inglis. Two-hundred and sixty-six million for----
    Mr. Isakowitz. Overall for hydrogen across the Department 
of Energy.
    Mr. Inglis. For '09?
    Mr. Isakowitz. For '09.
    Mr. Inglis. Okay. And what is the impact of earmarks on 
that, the money that has been spent in that $1.2 billion?
    Mr. Isakowitz. I can't speak specifically with regards to 
the earmarks within the Hydrogen Initiative. I can speak more 
broadly with regards to the Department of Energy. You know, we 
have seen a very worrisome growth the number of earmarks across 
the Department and a lot of our critical areas. In fact, if we 
look at the level of earmarks between 2002 and 2008, we have 
had a total of $3.8 billion in earmarks within the Department 
of Energy. And when you consider all the things we have talked 
about, $1.2 billion for a Hydrogen Initiative, that is a 
substantial amount of money, and that is an area of increasing 
concern for the Department in order for it to accomplish its 
mission.
    Mr. Inglis. What I have heard, and tell me if you agree 
with this, is that the earmarks, especially in hydrogen for 
demonstration projects let us say that really don't demonstrate 
a whole lot except maybe the ability of a Member of Congress to 
bring home some bacon, really have eroded some of the punch 
that could have been delivered in hydrogen. Is that correct?
    Mr. Isakowitz. Yeah. I think what we had proposed, I 
believe, is a very tight but highly-prioritized budget with 
regards to hydrogen, and we do think to the extent that other 
things are crowding that out, that we are having a less-than-
optimal budget. Yes.
    Mr. Inglis. And Mr. Bienenstock, did you have some comments 
you wanted to add about that, about the earmarks especially?
    Dr. Bienenstock. Well, there is no question that the $124 
million of earmarks in the Office of Science budget had an 
enormous impact. I wouldn't have been speaking about these 
other matters if that money had gone to the Office of Science, 
and I assure you that within the academic community I am 
working to get the universities to show more discipline in 
their requests through the Association of American Universities 
and the Council on Government Relations.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman. My time is 
up.
    Chairman Lampson. Ms. Giffords, you are recognized for five 
minutes.

                 Solar Research and Development Funding

    Ms. Giffords. Thank you, Mr. Chairman, and I want to thank 
the panelists for being here today.
    I come from a very sunny state, the State of Arizona, so 
most of my questions are going to be on solar energy. The 
President's request for solar research and development funding 
have not only failed to increase during the recent years but 
they have also failed to keep pace with inflation. This is 
inspite of the case that solar energy is growing stronger with 
each passing year, not just in the southwest, but in states 
across the country and countries across the world.
    And solar is increasingly becoming a viable solution to 
some of the greatest challenges our nation faces in terms of 
our dependency on foreign energy, in cases of global warming 
and climate change and U.S. competitiveness as well. It also is 
becoming more competitive in terms of a cost standpoint with 
coal-fired electricity.
    So I would like to ask Mr. Isakowitz specifically why the 
President is not committed to spending more resources on solar 
energy when this opportunity is presenting itself?
    Mr. Isakowitz. We fully agree with you over the importance 
of solar energy with regards to a national strategy on energy. 
I think it is important to view our investments in the research 
part of solar energy as part of a bigger investment that is 
being made nationwide, and when we often look at our 
investments, we look at where the technologies are, and in 
fact, what is industry investing in these areas. I think solar 
is one of the areas that we are seeing an increasing amount of 
industry and private sector investment going in that area. So 
we tried to be much more pinpointing in terms of the 
investments we make within solar.
    We do have a Solar America Initiative, which is very 
important which continues on track in terms of achieving its 
goals. I mentioned earlier that we have a loan guarantee 
program of which right now we are negotiating with two firms 
that are trying to bring online some very innovative ideas on, 
one for concentrating solar power at a rather large scale, and 
another one where we are working on some innovative ideas with 
regard to thin film technologies on photovoltaic. And those 
efforts are actually quite considerable, and if you look at the 
volume of the dollars we are talking about there, they 
certainly surpass just the research part of it.
    So in addressing it we have to consider all those things, 
the research dollars, what we can do in the loan program, what 
the private sector is doing, but we feel that the investments 
we are making are adequate to meet those needs.
    Ms. Giffords. You mentioned concentrated solar power. I am 
curious, does the CSP budget contain an increased funding for 
thermal energy storage? And if so, what amount?
    Mr. Isakowitz. I would have to get back to you on that one. 
I don't have that at my fingertips.
    [The information follows:]
                         Insert for the Record
    Out of the approximately $30 million appropriated for Concentrating 
Solar Power (CSP) in FY 2008, $10 million is being directed at thermal 
energy storage, for R&D at the national labs and in preparation for an 
upcoming solicitation this fiscal year directed at thermal energy 
storage at both universities and private industry. Although the overall 
FY 2009 budget request for CSP is $19 million, DOE hopes to provide 
funding for thermal storage at the FY 2008 funding level.

                        Solar Workforce Training

    Ms. Giffords. If you would. And the other issue that I 
wanted to bring up is this workforce training, where this 
Congress has had a chance to authorize workforce training 
because that is something that we hear from the installers in 
the field, and we hear from people around the country. They are 
interested in solar, but we do not have enough qualified, 
trained installers.
    Again, Congress moved forward to authorize this training, 
and it has not been put in the President's budget. So could you 
please address that?
    Mr. Isakowitz. Yes. I mean, I think this is something that 
is true across the board, whether you are talking the nuclear, 
solar, or the various other different technologies, and we 
recognize this is a critical area. I believe it was in the 
America COMPETES Act that call for investment in this area and 
identified some amount of funding that should be set aside to 
address that, and we are in the process now of doing a crosscut 
to make sure that we are making adequate investments in this 
area.
    That having been said, we also recognize that our national 
labs are a great attraction to students coming out of school 
and an opportunity to do research. So in more recent years we 
have tried to get more aggressive out at our national labs 
working with faculty and students to try to encourage them to 
pursue critical careers in these needed skills.

                           Solar Power Goals

    Ms. Giffords. A couple questions I have. The wind program 
in DOE's Office of Energy Efficiency and Renewable Energy has 
articulated a specific goal of wind power providing 20 percent 
of the electricity in the United States. I want to know whether 
or not there is a comparable goal for solar.
    Mr. Isakowitz. There is a goal, and I will probably have to 
get back for the record on that one, but I think the goal that 
they have primarily set is that by, I believe the date was 
2015, they tried to have solar to be cost competitive against 
the other technologies that are out there.
                         Insert for the Record
    Contributing 20 percent of electricity from wind is not a goal, but 
rather a recognition of the potential for wind energy in the United 
States. The specific DOE goals for solar energy are for PV to be cost-
competitive in residential and commercial markets by 2015 and for CSP 
to be cost-competitive in intermediate power markets by 2015 and 
baseload power markets by 2020.

    Ms. Giffords. If you could get back to me on that. And one 
last question. Mr. Bartlett had been working with us on his 
interest in solar technology, and in terms of an amendment 
offered by Representative Bartlett on solar lighting and also 
solar air conditioning, I notice that the President had failed 
to include that in the funding. And I was just curious why the 
President has not taken, again, those initiatives brought 
forward by Congress into consideration.
    Mr. Isakowitz. As in with every type budget, you know, 
there is a lot of exciting opportunities of things we can fund, 
and oftentimes in a tight budget we just have to set some 
priorities.
    Ms. Giffords. I know, but Mr. Bartlett has been here a very 
long time and is one of our smartest Members on the Committee, 
so you know, if you could please bring back that consideration 
to the President, I would appreciate that.
    Thank you.
    Chairman Lampson. Thank you, Ms. Giffords.
    And I recognize Dr. Bartlett for five minutes.

                  Long-term Energy Security Interests

    Mr. Bartlett. Thank you very much.
    Dr. Bienenstock, your concern about the decrease in basic 
research and R&D funding is very appropriate. Cutting funds in 
those areas is the exact equivalent of the farmer eating his 
seed corn.
    I represent a rural area. I have a lot of farmers. Not one 
of them is dumb enough to eat their seed corn, and I think that 
they are quite surprised that our government is dumb enough to 
eat its seed corn in this area. So thank you very much for your 
concern and your counsel.
    Mr. Gaffigan, you note that fossil fuels are finite. You 
made that statement. Help me understand how our long-term 
interests are served if, in fact, these fossil fuels are finite 
and our present objective is to go out and find the remaining 
reserves as quickly as we possibly can and consume them as 
quickly as we possibly can. How is that in our long-term 
security interests?
    Mr. Gaffigan. Thank you. And I would say we have invested 
in this infrastructure. You know, we have bought into fossil 
fuels and it so hard to change off that course because they 
have been relatively cheap, relatively inexpensive, and it is 
very hard to change course--it is kind of a dramatic change 
unless there is some realization that we are going to address 
the environmental impacts--try to establish some type of 
mandates or standards that say that that dependence on fossil 
fuels is a bad idea. Again, that is a policy decision. But I 
think ultimately it is hard to get off of an investment we have 
made in fossil fuels. And I think to some extent fossil fuels 
are still going to be part of our picture going forward. 
Everyone I have talked to says it is going to be part of it.
    Mr. Bartlett. It will be a part of it. We are kind of like 
as the President observed, the cocaine addict that just has to 
have another fix. We are hooked on oil, addicted to it. He is 
exactly right.

                       U.S. Interest in Hydrogen

    Mr. Isakowitz, why are we interested in hydrogen?
    Mr. Isakowitz. I think hydrogen, like fusion research, I 
think represents those sort of holy grails out there that if we 
are successful in these areas of----
    Mr. Bartlett. If we are successful in what areas?
    Mr. Isakowitz. In the areas like hydrogen. If we can move 
towards an economy that can support----
    Mr. Bartlett. Then why are we interested in hydrogen?
    Mr. Isakowitz. Well, because it reduces our dependency on 
other forms of energy such as----
    Mr. Bartlett. How is it going to do that? How is it going 
to do that since hydrogen is not an energy source? We always 
will use less--more energy producing hydrogen than we get out 
of it. So the more hydrogen you use, the less usable energy you 
have, unless we have some improvements in fuel cells. Is that 
not correct? That the only justifiable reason for a heavy 
investment in hydrogen is if we have fuel cells for which it is 
a great candidate. Because burning it in the reciprocating 
engine doesn't make a whole lot of sense because you could have 
burned the thing you were making the hydrogen from in the 
reciprocating engine and gotten more energy from it because the 
second law of thermodynamics assures that. Does it not?
    Mr. Isakowitz. I defer to your expertise on this matter, 
sir, but I will just suffice it to say that the Department does 
recognize that there--it is an important issue with regards to 
how you go about producing the hydrogen. That is why as part of 
our, for example, in our nuclear program, we have efforts to 
look at how, through the conduct of nuclear energy, we can find 
more affordable ways from which to produce the hydrogen that 
can, in fact, support a hydrogen economy.
    Mr. Bartlett. If we have a big increase in the nuclear 
electricity generation, the hydrogen makes some sense, because 
think of it, sir, in terms of a battery. It is a convenient way 
to carry energy from one place to another. It is not an energy 
source. It is not a silver bullet. It will not solve our 
problem.
    There is an enormous amount of irrational exuberance in 
this whole area. There was a lot on hydrogen. Today the 
irrational exuberance is on biomass and cellulosic ethanol. I 
would encourage you to pull up and read a speech given 51 years 
ago, the 14th day of May, by Hyman Rickover, the father of our 
nuclear submarine, and he wisely warns that you probably 
shouldn't be burning your food. We learned that with our silly 
expansion of corn ethanol which doubled the price of corn, 
raised the price of wheat and soybeans worldwide, and created 
what one U.N. official said was a crime against humanity.
    He also warned that you probably shouldn't be burning the 
biomass. It will go back to increase the detilt of your soils 
and then assure their fertility.
    Thank you very much, Mr. Chairman.
    Chairman Lampson. Thank you.
    Mr. Bartlett. I yield back.
    Chairman Lampson. And I recognize Mr. Lipinski for five 
minutes.

       Reprogramming Request for High Energy Physics Laboratories

    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony and good to see you again, Dr. 
Bienenstock. I was out there at Stanford last year, and I also 
toured SLAC, and I have great concerns about the cuts to high 
energy physics and the impact that that has not only on SLAC 
but on Fermi in my home State of Illinois.
    All the cuts, the layoffs that are taking place at both 
Fermi and SLAC are, you know, very troubling. The impact that 
this is going to have on the United States' position in terms 
of high energy physics obviously, you know, I know as a former 
academic that if you cut off the funding, people are going to 
leave. First, you are not going to get interest in students 
coming in and studying that in the future, but you are also, 
you are going to have all these scientists leave our country, 
go elsewhere.
    And we have great hopes for the International Linear 
Collider at Fermilab, and certainly I don't see--unless 
something is done right now, I just don't see that moving 
forward as high energy physics really is left in a lurch here 
in the United States.
    I want to ask Mr. Isakowitz if there are any plans that the 
Administration has for submitting a reprogram request or 
supplemental request to address the 2008 funding shortfall in 
high energy physics.
    Mr. Isakowitz. With regard to high energy physics, we are 
not planning to send up a reprogramming in that area. We have 
sent up with regards to ITER, because that is a program that is 
an important international program that has been zeroed out. We 
are deeply concerned and with regards to our international 
commitments on that effort and our obligations. The 
reprogramming that we sent up does not offset what was lost in 
the '08 appropriations but will provide us with the funding 
needed to at least keep the project office open so that we can 
continue to work with our international partners on this 
important effort.
    And we are, hopefully we will achieve that reprogramming 
soon so, in fact, we can keep the office open, which I think we 
have funding currently only through the end of March.
    Mr. Lipinski. I think ITER is also a very important 
program. It is good to hear that, but Dr. Bienenstock, what 
impact do you think this is going to have on high energy 
physics in the United States?
    Dr. Bienenstock. Oh, as I stressed in my testimony I think 
it is a disaster for high energy physics and more than that. We 
are going to see a loss of accelerator physicists, and you 
think of accelerator physicists primarily for high energy 
physics, but they are the people who have made possible the new 
Spallation Neutron Source at Oak Ridge. They are the people who 
originally made possible the synchrotron facilities like the 
one that I operated that was originally a high energy physics 
accelerator and then became a synchrotron facility.
    We will need them for the next generations of the X-ray-
free electron lasers based on what is going on at SLAC, and I 
fear that they will disperse to Europe and elsewhere, and we 
will lose enormous capability where we were world leaders.

                           FutureGen Concerns

    Mr. Lipinski. And I share your great concern about that.
    One other issue I wanted to address was FutureGen. I am 
very unhappy with the decision that was made on FutureGen. In 
March of 2007, DOE signed these cooperative agreements with 
industry to build FutureGen, and then the announcement being 
made essentially that, you know, DOE was reneging on the 
commitment that it had made. And right now it doesn't look 
like--it is not that there is money being saved even, but my 
great concern is I think FutureGen and what we are trying to do 
with FutureGen is very critical to our energy needs and the 
environmental concerns that we have now with global warming.
    But, you know, why should anyone believe DOE is a worthy 
partner when they see DOE back out of FutureGen like this?
    Mr. Isakowitz. I assume that is directed to me.
    Mr. Lipinski. Yes.
    Mr. Isakowitz. First, to be clear, the Department is 
completely and fully committed to the FutureGen and the goals 
of the FutureGen, and we fully, as you have articulated, 
recognize the importance of being able to demonstrate carbon 
capture and sequestration at a large scale as being critical 
for the industry.
    That having been said, the Department often is faced with 
the situation that although committed to a goal, must also 
watch out for the taxpayer. And the feeling was that under the 
current arrangement that there was a better way to go forward 
than the arrangement that we had driven by two factors. One is 
the significant cost growth that we have seen in the program, 
and the concern that even though we had a number now that was a 
lot bigger than we started with, we started with $900, now it 
is $1.8 billion, we were concerned that that number would 
continue to grow.
    Second factor to keep in mind was a significant change in 
the marketplace itself. When we started this program, a lot of 
effort with regards to IGCC, Integrated Gasification and 
Combined Cycle plans, was more of a research effort. Today it 
is not just a research effort. We actually have the private 
sector making important investments in this area. In fact, 
under our loan program we had two companies that have come in, 
in fact, we are in negotiations with now, with regards to 
pursuing an IGCC plant.
    And we are seeing increasing numbers of other companies 
wanting to pursue it in this uncertain regulatory environment 
that we see in a number of states.
    So the critical component for us has been the CCS, the 
carbon capture and sequestration. So what we have tried to 
establish is a program that allows us to potentially award more 
than one site to demonstrate this in a variety of areas and to 
get it out in the commercial marketplace, potentially faster 
than we otherwise would have done when we were treating it as a 
research program.
    So it was really driven by these two factors. One was the 
concern that we wouldn't be able to control costs in its 
current configuration, and second, we saw a major change in the 
marketplace.
    Mr. Lipinski. I know my time is up, but I just wonder about 
how the DOE can go and choose a site and then so quickly all of 
a sudden say, okay, after all that we really are not moving 
forward with this after the site is chosen, the announcement is 
made. I have great concerns about that, but I know that my time 
is up and----
    Chairman Lampson. The gentleman's time has expired, and we 
do want to move on because we have got votes that we are going 
to run out to, and I recognize Ms. Biggert for five minutes.

              Maintaining America's Competitive Advantage

    Ms. Biggert. Thank you, Mr. Chairman.
    I would like to thank the Department of Energy for 
remaining committed to the American Competitiveness Initiative 
and the spirit of the America COMPETES Act in the Fiscal Year 
2009 budget request.
    Despite the failure by this Congress to fully fund related 
R&D programs in each of the last two years, and I know that the 
DOE was particularly hit hard by the Fiscal Year 2008 Omnibus, 
and as a prior speaker said, we have been hit by the fallout in 
the suburbs of Chicago with the premature shutdown and reduced 
operation of the user facility at Argonne and the furloughs and 
layoffs at Fermilab, which I am so upset about.
    But I would like to look at just broader first of all. One 
half of the growth of the GDP since World War II has been 
attributed to science and technology innovation. And we are not 
competing as a country, and we are losing ground to so many 
other countries and the ability for us to be able to compete 
economically is based on this physical research and 
development.
    And we are sitting here talking about all these little 
things, but we are not as a nation really looking to push this. 
Our committee needs to do this, and we have been doing this on 
a bipartisan basis, but I think we really have to--our 
Committee and our Congress has to follow through on our 
commitment to increase the funding for basic research. We have 
asked for doubling and now it has gone down. We have seen from 
both Dr. Bienenstock's charts and Dr. Gaffigan's charts that we 
are not making any progress practically at all.
    And, you know, we are all singing on the same page, but we 
are not in key, and if we don't find a way to make this a 
priority, we talk about it, we have got an R&D caucus, we have 
got all kinds of things where we talk about this. And I really 
thought that our Members were all on the same sheet, and yet 
then we find the appropriators cutting in the Omnibus bill or 
the leadership, however that happened.
    It is making such a mistake, and we see, you know, we are 
talking about ethanol, but if we don't progress on our nuclear 
energy and our reprocessing, it takes a long time to do that, 
and we have to use every means and alternative energy to 
proceed. And we just keep backsliding.
    So that said, one of the questions is, you know, what are 
the consequences to American businesses in reducing the 
operation of DOE's user facilities by 20 to 25 percent? You 
know, at Argonne that is going to happen. And have the, have 
businesses raised concerns about this? And does American 
industry have the option of taking their research overseas? And 
what is the likelihood that these industrial users will ever 
bring back the research to the U.S. if that is true, if maybe 
Mr. Isakowitz, you could--I don't have much time. We are going 
to vote. If you could answer that briefly.
    Mr. Isakowitz. Yes. I think you raised two very important 
points. Our funding in the Office of Science I think it is 
interesting that it is under an initiative with the title, the 
American Competitiveness Initiative. I think too often people 
associate funding in basic research as not necessarily tied to 
the economy and the competitiveness. We do. We take it very 
seriously.
    In fact, in our '09 budget proposal we have identified a 
number of areas where areas in basic research teamed up with 
our applied side of the house to make funding in a number of 
areas such as energy storage, carbon capture, dealing with 
advanced plasma technologies, as a way to insure that the basic 
research we do, in fact, is inspired to ultimately make its way 
into the marketplace.

                     Funding for Rare Isotope Beams

    Ms. Biggert. And I have just got one more statement, and I 
am going to run out of time, so I will cut you off.
    I commend the DOE again for issuing the funding opportunity 
announcements for the construction and operation of a facility 
for the rare isotope beams. We call it kind of a real light, 
but now it is called FRIB I guess is the new name, but this is 
welcome progress and a project that has been identified as 
critical to maintaining the U.S. leadership in nuclear physics 
and nuclear science.
    So this project isn't new. It has been on the drawing 
board, but I hope that you will commit to sticking to the 
timetable of this project, and I don't think that the 
Department has had a very good track record when it comes to, 
you know, to these projects and the commitment, whether we are 
talking about RFPs for REA in 2005, or FutureGen. So I hope 
that you will prevent this project from slipping any further.
    And with that I would just like to thank Dr. Bienenstock 
for bringing up the Fermi and Argonne and all of those projects 
that are so important, and I hope that we all will, you know, 
continue to really push for this research and development. 
Thank you all for being here.
    Chairman Lampson. Thank you, Ms. Biggert.
    Ms. Biggert. Yield back.
    Chairman Lampson. I want to thank all of you for appearing 
before the Subcommittee this afternoon. I will apologize for 
the way that we started our session out. Those of you who are 
not from the government, it was the government's fault. All of 
us.
    Under the rules of the Committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any questions that they might have for the witnesses. We 
will submit our additional questions. We will not come back 
following the votes.
    We thank you all very much. This hearing is now adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Steve Isakowitz, Chief Financial Officer, Department of 
        Energy

Questions submitted by Chairman Nick Lampson

Q1.  The America COMPETES bill established an Advanced Research 
Projects Agency for Energy, or ARPA-E. Has there been an organized 
effort within the DOE to gather views on how a tool like ARPA-E can be 
utilized for energy research? If so, how would you characterize the 
findings of this effort?

A1. Yes, the Under Secretary for Science requested a review, which 
determined that many of the goals of ARPA-E have largely been met by 
ongoing energy research efforts within the Department.

Q2.  The Industrial Technologies Program at DOE has had a long and 
successful history of conducting collaborative research with industry 
to improve the efficiency and emissions of industry. Yet, the 
Administration has repeatedly cut this program, leaving it at one third 
the level of funding it had as recently as 2000.

Q2a.  Given the proven successes of the ITP, and the enormous potential 
for energy savings and emissions reductions, why does the Department 
continue to propose cuts to this program?

A2a. The Department recognizes the significant opportunity for 
improving energy efficiency within industry. The Department requests 
$62.1 million in FY 2009 for ITP, nearly a 35 percent increase over the 
FY 2008 request, reflecting the important role of ITP in the 
Department's portfolio.

Q2b.  If industry was really capable of doing this research on its own, 
would record high energy prices, global competition, and tougher 
emissions regulations not already be enough incentive to do it?

A2b. Rising energy costs caused by higher global oil prices and growing 
global competition are challenges faced by industries around the world, 
including in the U.S. The Industrial Technologies Program is working 
with industry in cost-sharing partnerships to develop real-world energy 
solutions to help industry improve its efficiency.

Q3.  A large fraction of the DOE federal workforce has been there for 
decades. Yet, there does not appear to be a significant effort to make 
it easier to bring in top talent and pass on institutional knowledge 
before these folks retire in the next few years.

        a.  Does the Administration have any plans to address this 
        issue?

        b.  Is the Administration conducting a wholesale review of 
        recruiting and hiring practices to ensure a free-flowing 
        pipeline of top talent into federal research agencies?

A3. The Department is cognizant of the importance of succession 
planning and has implemented initiatives to ensure a sustainable 
workforce throughout the ``retirement tsunami'' which is anticipated as 
the baby boomers enter the retirement era. As part of the Human Capital 
Initiative of the President's Management Agenda the Department has 
focused on improving several succession planning strategies to keep in 
step with, or ahead of, attrition in both the SES and the GS ranks.
    In 2006, a strategy was implemented to streamline the hiring 
processes throughout the Department with results reported to the senior 
managers. Since the inception of this strategy, hiring times have 
improved dramatically. Currently, our non-SES hires are completed in 38 
days, well below the OPM standard of 45 days, and our n SES hiring time 
has improved by 64.4 percent over hiring in 2006.
    Replacement percentages have likewise improved and kept abreast of 
attrition in 2006 and, in fact, well ahead of attrition in 2007, as 
illustrated below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These statistics are an indication of our continued improvement in 
human capital management, with practices in place to monitor both SES 
and non-SES hiring on a monthly basis. In addition, annual Workforce 
Plans and quarterly updates are prepared throughout the Department 
which set goals and track results of a variety of human capital 
initiatives, including succession planning and projecting workforce 
requirements for the future.
    The Department is continually monitoring trends in attrition and 
retirements and incorporates those projections into Workforce Planning. 
In addition to progress in the hiring process, the Department has 
identified mission critical occupations and conducts a systematic 
evaluation of current strengths/gaps in these areas, projecting needs 
for the next five years. The Department is currently implementing an 
automated Workforce Planning Model to streamline this process and 
provide even more accurate forecasts.
    The Department places high emphasis on maintaining a sustainable 
and talented workforce, and senior management will continue to monitor 
progress.
    The Department has also implemented professional development 
programs to enhance learning and knowledge sharing. Strategies to reach 
this goal are being implemented corporately throughout the Department. 
These strategies include: the Mentoring Program, Senior Executive 
Service Career Development Program, and development programs for entry 
and mid-level employees. Collectively, these programs support an 
adequate workforce pipeline, effective strategic recruitment 
activities, and successful continuity and succession planning 
throughout the Department.
    The Department of Energy is working with groups such as the 
Partnership for Public Service to find best strategies to recruit from 
colleges and universities and is also serving on many pilot projects in 
an effort to find better approaches and solutions to the dilemma of an 
aging workforce and mass retirements in the near future.

Q4.  Can you provide an assessment of the impact that cuts in the 
recent Omnibus to the ITER and International Linear Collider R&D 
budgets are having on our international research collaborations 
overall? How have our domestic fusion and high energy physics research 
communities been impacted?

A4. The FY 2008 appropriations reduced U.S. credibility as a partner in 
international scientific collaborations in general; and especially so 
with ITER, since there is a formal agreement among the seven partners 
to build it and it is currently under construction. I expect many 
future science projects will require international collaboration and 
cost sharing due to their cost and scope. If the U.S. is perceived as 
an unreliable partner, it may limit our ability to participate in 
world-class scientific collaborations in the future. The unwillingness 
to deliver on U.S. financial commitments to ITER and wavering support 
for International Linear Collider (ILC) R&D could have profound 
international impacts. It is possible that there could be retaliation 
from international partners in ongoing efforts such as the 
International Space Station, the Large Hadron Collider, and the Global 
Nuclear Energy Partnership.
    The reduction to the funding for ILC R&D severely limited all 
international collaborations and domestic programs in this research 
area. Because most of the funds had already been costed at the time of 
the appropriation, almost all U.S. ILC R&D programs were halted and the 
workforce shifted to other programs, furloughed or released. The 
international community adjusted by revising and extending its plan for 
ILC R&D by several years. A more limited role is now planned for the 
U.S., with efforts focused on those areas in which the U.S. has unique 
capabilities. The United States' leadership role in the international 
ILC R&D effort has been significantly diminished.
    The FY 2008 funding shortfall for the U.S. Contributions to ITER 
Project has had only a modest impact on the overall U.S. fusion 
community because most of the people lost from the U.S. ITER Project 
team were able to be transferred onto other programs in their home 
institutions (Oak Ridge, Savannah River, and Sandia National 
Laboratories, and Princeton Plasma Physics Laboratory). Several staff 
from the Magnet Group at the Massachusetts Institute of Technology, 
however, may eventually lose their jobs.

Q5.  A late addition to this budget regarding the Office of Science was 
the creation of ``Energy Frontier Research Centers,'' which will focus 
on important applications-oriented research including electrical energy 
storage, solar energy, and carbon sequestration. However, there was 
little description on how they will function and none on how much 
they'll cost. Would you please provide more details on this?

A5. The Energy Frontier Research Centers (EFRCs) are a funding 
mechanism, modeled after NSF's Physics Frontier Centers, used to 
attract the very best scientists and engineers to address our country's 
energy needs. The EFRC program will provide substantial, long-term 
support for 20 to 30 groups of multiple investigators in a dynamic 
research environment necessary to inspire, train, and support 
scientists of the future who will have an appreciation for global 
energy challenges. EFRC awards are each expected to be in the $2 to $5 
million range annually for a five-year period, resulting in an initial 
overall EFRC effort of approximately $100 million in FY 2009, pending 
appropriations. This additional commitment of funds and duration-of-
effort will permit an EFRC to achieve a critical mass of researchers 
and students having a diverse range of experience, skills, and talents. 
The magnitude of the funding, and the five-year minimum commitments are 
important aspects of the program.
    The EFRCs will address energy and science grand in a broad range of 
research areas that have been defined through a series of more than one 
dozen workshops conducted over the past five years. Included in this 
series were workshops devoted to identifying critical basic research 
needs in: solar energy utilization, the hydrogen economy, 
superconductivity, solid state lighting, advanced nuclear energy 
systems, clean and efficient combustion of transportation fuels, 
geosciences for energy systems, electrical energy storage, materials 
under extreme environments, and catalysis for energy applications. EFRC 
proposals are being solicited through a Funding Opportunity 
Announcement (FOA) on Grants.gov, which opened on April 4, 2008 and 
closes on October 1, 2008 (RE: http://www.grants.gov/search/
search.do?oppId=1738&mode=VIEW). This solicitation provides an open 
competition among all researchers for the very best ideas to address 
the fundamental questions of how nature works and to help solve some of 
our most critical real-world challenges. The selection of awards in 
will depend on the quality of the proposals received and the peer 
review outcomes of the FOA competition. The EFRCs will address key 
scientific issues that limit transformational advances needed for 
future energy technologies.

Q6.  The DOE Office of Science is the steward for several very large-
scale experimental and scientific facilities around the country, some 
of which can cost hundreds of millions or more to build, and tens of 
millions in annual operational costs. But, these facilities are often 
used for non-energy research by other agencies such as NIH, DOD, NSF, 
and private industry.

Q6a.  Given the President's Science Advisor's calls to diversify 
funding sources for research, is the current scheme adequate for the 
dual goals of encouraging diverse, productive use of these facilities 
and covering significant operational costs?

A6a. In the Office of Science, we employ a steward-partner model for 
operating large user facilities for the Nation and find this model 
provides stability and continuity of operations while promoting the use 
of the facilities by a broad group of stakeholders for the advancement 
of science and innovation. Under this model, as the steward the Office 
of Science funds the core facility aspects (such as an accelerator 
complex for a synchrotron light source) while simultaneously 
encouraging our partners to use and invest in supporting facility 
aspects (such as instruments, beamlines, and upgrades of a light 
source).
    The National Academy of Sciences endorsed this steward-partner 
model in a 1999 report, Cooperative Stewardship: Managing the Nation's 
Multi-disciplinary User Facilities with Synchrotron Radiation, 
Neutrons, and High Magnetic Fields. The report noted if core operations 
and maintenance of a facility become dependent on dispersed funding, 
the entire facility operation may be threatened by the reduction or 
withdrawal of support by a single component.
    The Office of Science explores partnerships of all kinds: 
interagency; international; Federal-State; and government-private 
sector. For example, the Office of Science and the National Institutes 
of Health equally funded the upgrade of the Stanford Synchrotron 
Radiation Laboratory. We are pursuing the Joint Dark Energy Missions 
jointly with NASA. Non-DOE domestic and foreign funding sources have 
invested in instruments at some of our newest facilities, such as the 
Spallation Neutron Source at Oak Ridge National Laboratory. And the 
Office of Science forged international partnerships for some of the 
largest facilities such as the Large Hadron Collider and ITER. These 
types of partnerships leverage investments from diverse sources, enable 
stable facility operations, and encourage diverse, productive facility 
use.

Q6b.  Is there a requirement of ``total cost recovery'' if a private 
company wishes to retain intellectual property rights for work 
conducted on these facilities, and do you have a sense on whether this 
has prevented a significant number of American companies from making 
good use of them?

A6b. The Department's policy is to provide access to the facilities 
without charge to all qualified researchers, including those from the 
private sector, whose intention is to publish in the open literature. 
Researchers with proprietary interests may seek enhanced intellectual 
property rights, which include the right to keep research results 
secret. Researchers desiring such enhanced intellectual property rights 
are charged user fees at rates designed to recover the full cost of 
providing the service of operating our scientific user facilities. 
Private companies retain ownership of new inventions they make as 
users, regardless of whether they provide ``total cost recovery.'' The 
vast majority of users does not seek enhanced rights and gain access to 
the facilities without charge after their proposals have passed peer 
review.
    We believe this cost recovery policy encourages American companies 
to use our facilities. Many industrial users of our facilities publish 
in the open literature and use the facility without charge, and the 
full-cost recovery policy for proprietary research gives researchers a 
mechanism to retain enhanced intellectual property rights for work at 
the facilities.
    Charging user fees for non-proprietary work would discourage 
industrial use of facilities. Significant industrial contributions to 
beam line fabrication, instrumentation, and user support would diminish 
or cease, thus denying the Department's leveraged use of these non-
federal investments for federal as well as non-federal use.

Q7.  The nuclear R&D programs received a significant proposed increase 
from $458 million in fiscal year 2008 to $629 million in the fiscal 
year 2009 request. A big part of that increase is in the Advanced Fuel 
Cycle Initiative which includes the Administrations Global Nuclear 
Energy Partnership program.

        a.  Given that the National Academies October 2007 report 
        recommended that the GNEP program not go forward, but instead 
        should be replaced by less aggressive fuel cycle research, what 
        achievements can you share with us regarding GNEP that warrant 
        such a significant increase in funding?

A7. No response given.

Q8.  Under a cooperative agreement the U.S. and Russia are jointly 
developing a Gas Turbine Module Helium Reactor for the disposition of 
excessive weapons-grade plutonium. This fiscal year this joint U.S./
Russian program has been moved from the National Nuclear Security 
Administration to the Office of Nuclear Energy.

        a.  Could you please describe what the Office of Nuclear Energy 
        is doing to ensure that this program continues uninterrupted?

A8. No response given.

Q9.  Given that a significantly expanded marine and hydrokinetic energy 
R&D program was authorized in the energy bill passed just a few months 
ago, please explain why the Administration cut this funding by 70 
percent to just $3 million in its proposed FY09 budget.

A9. Funds provided by Congress in FY 2008 to conduct resource and 
technology assessments are sufficient to carry out these activities 
well into FY 2009. The $3 million request for FY 2009 will be 
sufficient to continue critical activities during the remainder of the 
fiscal year.

Q10.  Section 999 provides for the establishment and operation of a 
technical committee that, among other duties, will ensure that the 
research activities of NETL and RPSEA are not duplicative.

        a.  Has a technical committee been established and what are the 
        roles of the DOE and RPSEA on that committee?

        b.  Should there not be a greater degree of communication 
        between NETL and RPSEA, perhaps even including establishing a 
        small NETL office near RPSEA?

A10. No response given.

Q11.  Does the FY09 budget for concentrating solar power include 
increased funding for research in thermal energy storage?

A11. Out of the approximately $30 million appropriated for 
Concentrating Solar Power (CSP) in FY 2008, $10 million is being 
directed at thermal energy storage, for R&D at the national labs and in 
preparation for an upcoming solicitation this fiscal year directed at 
thermal energy storage at both universities and private industry. 
Within the FY 2009 budget request for CSP, DOE will continue to fund 
thermal storage R&D activities.

Q12.  The wind program in DOE's Office of Energy Efficiency and 
Renewable Energy has articulated a specific goal of wind power 
providing 20 percent of the electricity in the United States. Is there 
a comparable goal for solar?

A12. Contributing 20 percent of electricity from wind is not a goal, 
but rather a recognition of the potential for wind energy in the United 
States. The specific DOE goals for solar energy are for PV to be cost-
competitive in residential and commercial markets by 2015 and for CSP 
to be cost-competitive in intermediate power markets by 2015 and 
baseload power markets by 2020.

Questions submitted by Representative Daniel Lipinski

Q13.  When Congress restored funding to many programs the President 
proposed to cut or eliminate in the FY 2008 omnibus appropriations 
bill, there was not enough money to fund the ACI. DOE's High Energy 
Physics program, which funds Fermilab, was cut by eight percent below 
the FY 2007 level--a real cut with real consequences. On February 1st, 
Fermilab began unpaid rolling furloughs of its 1900 scientists, 
engineers, technicians and support staff. On February 5, Fermilab began 
the process of laying off 200 people from the lab given the budget for 
FY 2008 and outlook into FY 2009. We are losing the best and brightest 
scientists and sending a chilling message to our university students 
choosing a career path when we need more scientists.

      What is the Administration doing internally to help minimize the 
impacts of the final FY 2008 appropriations bill on Fermilab?

A13. Specified reductions for the HEP program in the FY 2008 
appropriations bill were directed at initiatives that supported a 
significant number of staff members at Fermilab and the Stanford Linear 
Accelerator Center (SLAC). The magnitude of the reductions, and the 
fact that they occurred a quarter into the fiscal year, necessitated 
reductions in staff and curtailment of planned facility operations. The 
Office of Science worked with Fermilab and SLAC management to mount a 
scientifically productive program while retaining the most critically 
needed staff. Funding was allocated to optimize scientific output by 
running a curtailed four month program at the B-Factory at SLAC and the 
full scheduled program of the Tevatron Collider and neutrino beams at 
Fermilab in FY 2008. This allowed the students, post-docs, and 
researchers in the international collaborations at these two facilities 
to obtain important scientific results without negatively impacting 
their careers. Although reductions in staff were unavoidable, this plan 
reduced the number that were required, by reducing the payroll burden 
through the use of the ``rolling furloughs'' at Fermilab. These 
furloughs allow for the retention of many highly skilled staff, who 
would otherwise have to be laid off, and indicate the value and 
importance of these staff to Fermilab and the Office of Science.

Q14.  Dr. Orbach, High Energy Physics is an international field with 
great collaboration. The field will soon be focused on the Large Hadron 
Collider coming into operation in Switzerland and operations at the 
Tevatron at Fermilab will wind down by the end of the decade.

      The future for Fermilab belongs in new projects, which must be 
accelerated, including the NOvA neutrino program done jointly with 
Fermilab and the State of Minnesota and a new project (project X) which 
will pave the way to develop the technology for the proposed 
International Linear Collider. The FY 2008 omnibus appropriations bill 
essentially halted investment in future projects at Fermilab.

      Does the Administration expect to submit a reprogramming request 
or a supplemental request to address the FY 2008 funding shortfall for 
High Energy Physics? What can we do together to reduce the serious 
impacts on Fermilab and our other research laboratories and facilities?

A14. There has been no administration decision to request supplemental 
FY 2008 funding within the Office of Science. In light of significant 
FY 2008 impacts throughout the Office of Science, and standing 
Congressional guidance on reprogrammings that they should not be used 
to change program allocations specifically limited by Congress, no 
reprogramming into High Energy Physics from other Office of Science 
funding is planned. We have worked to optimize activities within the 
overall allocation for High Energy Physics consistent with the 
limitations imposed by the FY 2008 omnibus appropriations bill. We urge 
your support of the FY 2009 request, which, among other priorities, 
strongly supports Fermilab and other Office of Science facilities.

Q15.  Does the Administration have any flexibility internally to keep 
the research teams on these new projects at Fermilab together and 
working toward these new initiatives? What is the Administration's 
commitment to these future programs for Fermilab in the FY 2009 budget?

A15. The NOvA project management team has been kept together, using FY 
2007 carryover funds, to prepare a new project schedule that fits the 
funding profile developed for the FY 2009 budget. While these funds 
should be sufficient to complete the technical, cost, and schedule 
baseline required for approval of DOE Critical Decision 2, progress 
beyond CD-2 cannot be made within the FY 2008 funding allocation. While 
some R&D activities have continued on future initiatives such as 
``Project X,'' the significant reduction in developing infrastructure 
for testing superconducting RF accelerator structures, important for 
this project, has limited progress.
    The FY 2009 Budget Request supports the fabrication of NOvA and 
provides sufficient funding for superconducting RF and general 
accelerator development R&D to make significant progress towards a 
future neutrino accelerator program at Fermilab.

Q16.  It is widely recognized that there is great urgency in proving 
the viability of near-zero emission coal-fueled power including carbon 
capture and sequestration. Your alternative plan throws away nearly 
five years of excellent work and builds in an extra three years of 
delay (based on your official announcement). How do justify such 
delays?

A16. No response given.

Q17.  In March of 2007, DOE signed a cooperative agreement with 
industry to build FutureGen. That's a contract. DOE reviewed the 
project cost estimate before signing the agreement, and the costs have 
not changed a single dollar since you signed the agreement. By choosing 
to restructure, DOE is essentially reneging on its commitment. Why 
should anybody believe DOE is a worthy partner?

A17. No response given.

Q18.  By attempting to reinvent FutureGen, DOE is telling companies 
that operate on six continents to take your money and go home--we were 
just kidding. Industry was contributing approximately $400 million 
dollars with zero expectation of profit. The project was global 
flagship and numerous foreign governments were interested in becoming 
involved. DOE's proposal conveys to them ``we are switching horses,'' 
and we are not reliable partners.

      The very same week DOE proposed killing FutureGen, the Bush 
Administration at the Meeting of Major Economies was trying to convince 
other countries that international collaboration on climate technology 
is important. How do you explain this seeming contradiction? I think 
DOE is in the process of embarrassing us in front of the world and 
undermining our ability to build future partnerships.

A18. No response given.

Q19.  DOE has asserted it wants to control costs, yet your new proposal 
is advertised as having the same or higher costs. The DOE fact sheet 
suggests $1.313 in appropriations will be required by the new plan. 
When asked by a reporter what guarantees your department can provide 
that costs of the alternative plan won't skyrocket, no guarantees could 
be offered. What is your real motivation for attempting to terminate 
FutureGen? It doesn't seem to be cost.

A19. No response given.

Q20.  The department has extensive detail on FutureGen costs, as 
currently configured. What detail do you have on the proposed cost of 
$1.313 for your alternative plan?

A20. No response given.

Questions submitted by Representative Roscoe Bartlett

Q21.  In order for the United States to expand the use of commercial 
nuclear power, an expansion which I strongly support, it will be 
necessary to increase the number of trained and certified nuclear 
engineers and technicians. That is why I was extremely disappointed 
when the Department of Energy chose two years ago to propose 
termination of the existing University program within the Office of 
Nuclear Energy. While the department continued providing applied R&D 
funding to universities through its GNEP program, the lack of basic 
stewardship support and organizational accountability has had a 
tangibly negative impact on nuclear engineering programs and research 
reactors around the United States, including at the University of 
Maryland, College Park.

      In its FY 2009 budget submission, the department has apparently 
rethought the need to be a steward of the U.S. University-based nuclear 
education enterprise. The FY 2009 budget again recommends elimination 
of funding for the University Reactor Infrastructure and Education 
Assistance program. However, it also includes directions to the Office 
of Nuclear Energy, through its Energy Research Initiative process, to 
designate at least 20 percent of the R&D appropriated funds for 
purposes of supporting R&D activities at university research 
institutions through competitive awards focused on advancing nuclear 
energy technology.

      The budget justifications also highlight the department's 
intention to support investigator-initiated basic research, fellowships 
and young faculty awards, and infrastructure and equipment upgrades for 
University-based research reactors and laboratories.

        a.  Who within the Office of Nuclear Energy will be responsible 
        for management of DOE-funded R&D activities at university 
        research institutions?

        b.  How does the department intend to allocate these funds?

        c.  Will there be University-specific solicitations?

        d.  Will these solicitations be peer-reviewed?

        e.  How much of the 20 percent will be dedicated to mission-
        specific applied R&D?

A21. No response given.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

             Statement of Clarence H. ``Bud'' Albright, Jr.
                            Under Secretary
                       U.S. Department of Energy
    Chairman Lampson and Ranking Member Inglis, and Chairman Gordon and 
Ranking Member Hall, and Members of the Committee, I am pleased to be 
before you today presenting the President's fiscal year (FY) 2009 
budget proposal for the Department of Energy's applied science research 
and development programs. The strength and prosperity of America's 
economy is built on the security of our nation and the reliability of 
energy sources. Since 2001, the Administration has committed $183 
billion through the Department of Energy (DOE) to help drive America's 
economic growth, provide for our national security, and address the 
energy challenges that face our nation. The FY 2009 budget was 
developed to continue to meet these goals and does so in part through 
funding applied science and energy research and development.
    With a request of $3.2 billion, a 24 percent annual increase of 
$623 million above the FY 2008 enacted $2.5 billion appropriation, the 
President's Advanced Energy Initiative (AEI) will continue to support 
clean energy technology breakthroughs that will help improve our energy 
security through diversification and help to reduce our dependence on 
foreign oil. The FY 2009 budget for AEI includes funding to promote the 
licensing of new nuclear power plants as well as research on an 
advanced nuclear fuel cycle. Also, the AEI's diverse energy portfolio 
includes investment in making solar power cost-competitive with 
conventional sources of electricity by 2015 and supports a robust 
vehicle technology program that includes developing lithium-ion 
batteries, plug-in hybrids, and drive-train electrification.
    The Department is also requesting funds to improve our conventional 
sources of energy. We are partnering with industry to commercialize 
coal gasification and carbon sequestration processes and systems, and 
we are working to modernize the electricity delivery system, enhance 
the security and reliability of America's energy infrastructure, and to 
facilitate recovery from disruptions to energy supply.
    It is important to remember that scientific breakthroughs and 
innovative solutions to our energy challenges cannot simply be 
mandated, produced and bought. They must be cultivated from a rich 
array of interdisciplinary knowledge. The scientists and engineers at 
the Department's applied science and energy laboratories and programs 
have this knowledge, and their work to discover tomorrow's efficient 
and clean and secure technologies, and the science that produce them, 
must be understood unique capability that is unparalleled. Funding 
these laboratories and the programs they work with at the President's 
request is vitally important if we are to overcome America's energy 
challenges.
    The 2009 AEI Budget includes:

        <bullet>  $588 million for the Coal Research Initiative, R&D 
        focused on coal gasification and carbon sequestration processes 
        and systems, including $156 million for the restructured 
        FutureGen program to demonstrate these technologies;

        <bullet>  $543 million for the GNEP and Nuclear Power 2010 
        initiatives to demonstrate advanced fuel cycle technologies, to 
        expand the domestic use of nuclear power, and to provide for 
        safe, environmentally responsible global nuclear energy systems 
        that support nonproliferation objectives;

        <bullet>  $225 million for biomass science and technology R&D 
        to help enable cellulosic ethanol to become practical and 
        competitive;

        <bullet>  $156 million for solar science and technology R&D to 
        accelerate development of cost-effective photovoltaic 
        materials;

        <bullet>  $146 million for R&D on hydrogen fuel cells and 
        affordable hydrogen-powered cars;

        <bullet>  $103 million for R&D of hybrid electric systems 
        including $49 million for high-energy, high-power batteries for 
        hybrid-electric and ``plug-in'' hybrid vehicles;

        <bullet>  $53 million for wind energy research to help improve 
        the efficiency and lower the costs of wind technologies for use 
        in low-speed wind environments;

        <bullet>  $30 million for geothermal research.

APPLIED SCIENCE ENERGY PROGRAMS

A. OFFICE OF NUCLEAR ENERGY (NE)
    The Office of Nuclear Energy leads the government's efforts to 
develop, in cooperation with industry, new nuclear energy generation 
technologies to meet energy and climate goals; develop advanced, 
nuclear fuel cycle technologies that maximize energy from nuclear fuel 
and strengthen the nuclear nonproliferation regime; and maintain and 
enhance the national nuclear infrastructure. A key mission of DOE's 
nuclear energy research and development program is to lead in the 
planning, conducting, and deploying the next generation of nuclear 
technologies.
    The President's commitment to nuclear power stems from its role as 
one of the most feasible near-term options for producing significant 
amounts of carbon-free, baseload electricity. The expansion of nuclear 
power will play a key role in our decisions to find viable solutions to 
address the challenges posed by greenhouse gas emissions, climate 
change, and energy security.
    It is significant to note that this Administration has increased 
its funding request for nuclear energy in every year, and in total, the 
FY 2009 request represents a 330 percent increase in funding for 
nuclear energy since President Bush took office seven years ago. In FY 
2009, a total of $1.4 billion is requested for nuclear energy 
activities, an increase of $385 million over the FY 2008 appropriation, 
including $487 million for the Mixed Oxide Fuel Fabrication Facility.
    Today, 104 nuclear reactors produce nearly 20 percent of our total 
electricity--this 20 percent share represents over 70 percent of all 
non-carbon emitting electricity production. In the United States, 
seventeen utility companies are projected to build thirty-one new 
reactors, when completed, these new nuclear power plants will provide 
over 41 GWe of electricity, enough to power 30 million homes.
    Worldwide, 31 countries operate 439 reactors totaling 372 GWe of 
electricity capacity. Thirty-four new nuclear power plants are under 
construction worldwide, and when completed will add an estimated 28 GWe 
of new electricity. This new construction is taking place or being 
considered in every major region in the world including Africa, Asia 
and the Indian subcontinent, Europe, the Middle East, South America, 
and North America. Nuclear power's ongoing expansion around the world 
that requires us to address the used fuel and proliferation challenges 
that confront the global use of nuclear energy. To ensure that the 
United States plays a significant role in global nuclear energy policy 
we must foster domestic actions that support a significant role for 
nuclear power in our energy future, a robust nuclear research and 
development program, and a cutting-edge nuclear technology 
infrastructure and international actions that support reliable nuclear 
fuel services to countries that forego the development and deployment 
of enrichment and reprocessing technologies. To meet these challenges, 
the President initiated the Global Nuclear Energy Partnership (GNEP). 
The domestic component of GNEP promotes the accelerated development and 
deployment of advanced fuel cycle technologies, while the international 
component encourages cooperation among nations that share the common 
vision of the necessity of the expansion of nuclear energy for peaceful 
purposes worldwide in a safe and secure manner.
    We have made progress in every one of our program areas, but much 
remains to be done. Our FY 2009 budget request moves us in the right 
direction, allowing the Department and the Office of Nuclear Energy to 
take the lead in spurring the nuclear renaissance in the United States. 
I would now like to take the time to highlight our program areas and 
their corresponding budget requests. 1Nuclear Power 2010
    A key component of our work and one of our most successful programs 
at the Department of Energy is the Nuclear Power 2010 program or NP 
2010. This program was initiated by President Bush in 2002 and has 
produced significant results toward its goal of reducing the technical, 
regulatory, and institutional barriers to the deployment of new nuclear 
power plants. DOE and the President have increased our commitment to 
cross the finish line by nearly doubling its 2009 budget, calling on 
Congress to provide $241.6 million for NP 2010 to help ensure this 
important program can complete its work.
    NP 2010 supports industry through cost-sharing near-term technology 
development and regulatory demonstration activities focused on enabling 
an industry decision to build a new nuclear plant by 2010.
    Of the six Construction and Operation License (COL) applications 
that have been submitted to the Nuclear Regulatory Commission (NRC), 
five COL applications have been officially accepted for review by the 
NRC. And of these five, two applications--TVA's application for two 
Westinghouse AP1000 reactors at the Bellefonte site in Alabama, and 
Dominion Energy's application for a General Electric-Hitachi Economic 
Simplified Boiling Water Reactor at the North Anna site in Virginia--
were developed through the NP 2010 cost-share program. In total, the 
NRC expects to receive twenty COL applications for thirty-one new 
reactors by seventeen different utility companies. Of these 20 COL 
applications, eight will reference either the Bellefonte or North Anna 
license applications. This simplification in the licensing process is 
expected to reduce the license application and review time these 
reference COLAs by up to 50 percent.
    Three early site permits have been approved for Exelon's Clinton 
site in Illinois, Entergy's Grand Gulf site in Mississippi, and the 
North Anna site, all a part of the NP 2010 cost share program, and a 
fourth ESP permit is pending. In addition, two new reactor design 
certifications have been approved by the NRC, the ABWR and the AP1000, 
and DOE is continuing with on-going first-of-a-kind design finalization 
activities for the standardized AP1000 and ESBWR designs, including: 
preparation of engineering analyses and calculations, design criteria 
documents, and total cost and schedule estimates necessary for an 
industry purchase of a new nuclear plant.
    The NP 2010 program will continue to develop generic application 
preparation guidance for fifteen COL applications expected in 2008 to 
help resolve regulatory issues that could potentially delay or derail 
NRC approval.
            Advanced Fuel Cycle Initiative and GNEP
    President Bush announced the Global Nuclear Energy Partnership 
(GNEP) as part of his Advanced Energy Initiative in February 2006. The 
Advanced Fuel Cycle Initiative (AFCI) is the domestic technology 
development and deployment component of GNEP. The AFCI program aims to 
develop and demonstrate advanced fuel cycle technologies for recycling 
used reactor fuel to develop an integrated used fuel recycling plan, 
and support on-going research efforts with the goal of reducing the 
amount of material that needs disposal in a geologic repository and 
maximizing our use of energy resources.
    In effort to further this important work, our budget request 
includes $301.5 million in Fiscal Year 2009 funding for AFCI. This 
request supports research and development activities that will advance 
the economic and sustained production of nuclear energy while reducing 
waste and satisfying requirements for a controlled nuclear materials 
management system that helps strengthen the nuclear nonproliferation 
regime. The request also supports on-going international activities to 
establish a framework for ensuring reliable international fuel services 
and the availability of grid-appropriate reactors, and the continued 
utilization of industry for schedule, cost, and technology developments 
for eventual recycling facility deployment.
    Long-term goals of AFCI/GNEP include the partitioning of used fuel 
and recycling of long-lived radioactive isotopes for destruction 
through transmutation in liquid metal-cooled fast neutron spectrum 
reactors for actinide consumption and nuclear resource sustainability.
    AFCI/GNEP funding also provides support for a large number of 
universities involved in fuel cycle research and development, which 
both ensures that the U.S. has the intellectual capital needed to 
sustain our nuclear fuel cycle for the future and provides the 
important research needed for today's fuel cycle activities. Recycling 
used nuclear fuel rather than permanently disposing of it in a 
repository would result not only in utilizing more of the energy, but 
would also reduce the amount of high-level waste that needs disposal in 
a repository, thereby greatly enhancing the potential capacity of any 
geological repository. This increased efficiency in the fuel supply 
could ensure that even with the expansion of nuclear energy, the 
potential capacity of any geological repository would be greatly 
enhanced.
            Generation IV
    The Generation IV program is focused on very high temperature 
reactor technologies for use in a Next Generation Nuclear Power Plant 
(NGNP) to produce electricity, process heat, and hydrogen. Generation 
IV also is readying technologies that will further improve the 
economics and safety performance of existing Light-Water Reactor and 
advanced Generation IV reactor concepts.
    The FY 2009 budget request includes $70 million for the Generation 
IV program. The Energy Policy Act of 2005 (EPACT) authorized the 
Department to create a two-phased NGNP Project at the Idaho National 
Laboratory (INL). The Department is presently engaged in Phase I of the 
EPACT-defined scope of work, which includes: developing a licensing 
strategy, selecting and validating the appropriate hydrogen production 
technology, conducting enabling research and development for the 
reactor system, determining whether it is appropriate to combine 
electricity generation and hydrogen production in a single prototype 
nuclear reactor and plant, and establishing key design parameters. 
Phase I will continue until 2011, at which time the Department will 
evaluate the need for continuing into the design and construction 
activities called for in Phase II.
    Additionally, this request supports component and material aging 
and degradation research and development that will provide the basis 
for extending the operating license period for existing nuclear 
reactors beyond 60 years, and will also enable the design of advanced 
reactor concept plants with longer operating life spans.
            Hydrogen Initiative
    Nuclear energy has the potential to produce large quantities of 
hydrogen efficiently without producing greenhouse gases and could play 
a significant role in hydrogen production for transportation and 
industrial sectors. Considerable progress in hydrogen combustion 
engines and fuel cells is bringing hydrogen-powered transportation 
close to reality. The goal of the Nuclear Hydrogen Initiative (NHI) is 
to demonstrate hydrogen production technology at increasingly larger 
scales through the use of nuclear energy that would be technically and 
economically suited for commercial deployment in concert with a nuclear 
power plant.
    $16.6 million dollars has been requested for the NHI to continue 
hydrogen production systems operation and testing, evaluation of 
process improvements, and assessment of long-term process stability, 
operability, and component durability. Furthermore, results from the 
integrated laboratory-scale experiments will be analyzed to identify 
cost drivers with an end goal of supporting a hydrogen technology 
selection by 2011.
            Nuclear Facilities
    The Department of Energy supports nuclear science and technology 
through one of the world's most comprehensive research infrastructures. 
The Office of Nuclear Energy has requested $222 million dollars to 
maintain and operate infrastructure at Idaho National Laboratory (INL), 
Los Alamos National Laboratory (LANL), Brookhaven National Laboratory 
(BNL), and Oak Ridge National Laboratory (ORNL). $104.7 million is 
dedicated to Idaho National Laboratory's facilities management. INL 
conducts science and technology research across a wide range of 
disciplines, INL's core missions include: development of advanced, next 
generation fuel cycle and reactor technologies; promotion of nuclear 
technology education, and applying technical skills to enhance our 
nation's security.
    Additionally, $38.7 million is requested to maintain a wide range 
of nuclear and radiological facilities and their associated 
infrastructures in an operational, safe, secure, and environmentally 
compliant manner at LANL, BNL, and ORNL. This infrastructure supports 
national priorities, including the provision of radioisotope power 
systems for national security uses and space exploration.
            Other Defense Activities
    Included in the Office of Nuclear Energy Fiscal Year 2009 request, 
under Other Defensive activities, is $487 million for activities 
associated with the continued construction of the Mixed Oxide Fuel 
Fabrication Facility and $78.8 million for site-wide safeguards and 
security activities at the Idaho National Laboratory to protect the 
assets and infrastructure from theft, diversion, sabotage, espionage, 
unauthorized access, compromise, and other hostile acts that may cause 
unacceptable adverse impacts on national security, program continuity, 
or the health and safety of employees, the public, or the environment.
            University Funding
    Our FY 2009 budget request continues our commitment to fostering 
the expansion of nuclear engineering programs at our universities and 
research institutions. Specifically, the budget request for the Office 
of Nuclear Energy explicitly states that we ``will continue to support 
R&D activities at universities and research institutions through 
competitive awards focused on advancing nuclear energy technologies,'' 
and we have committed to ``designate 20 percent of funds appropriated 
to its R&D programs for work to be performed at university and research 
institutions.'' These funds will support basic research and mission-
specific applied R&D activities, as well as human capitol development 
activities, such as fellowships and infrastructure and equipment 
upgrades for university-based research reactors and laboratories. At 
the level set forth in the President's Budget Request for FY 2009, 20 
percent provides almost $77 million for this work. This commitment of 
20 percent of appropriated funds will serve as a catalyst for success 
in achieving the objectives of the President's American Competitiveness 
Initiative and the America COMPETES Act.
    It is critical to note that the growth of nuclear power is only 
possible if we continue to develop a responsible path for disposing of 
spent nuclear fuel. Therefore, $494.7 million is requested in FY 2009 
for the continued development of the geologic waste repository at Yucca 
Mountain, Nevada, and to support the defense of the License Application 
that we will submit in 2008 to the Nuclear Regulatory Commission for 
authorization to construct the repository.
B. OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY (EE)
    The Office of Energy Efficiency and Renewable Energy (EERE) 
conducts research, development, and deployment activities in 
partnership with industry to advance a diverse supply of energy 
efficiency and clean power technologies and practices. The FY 2009 
budget request continues to support research on alternatives that can 
help decrease our nation's dependence on foreign oil and accelerate 
development of clean electricity supply options.
    EERE's FY 2009 request of $1.255 billion, approximately $19 million 
higher than the FY 2008 request, provides a balanced and diverse 
portfolio of solutions to address the energy and environmental 
challenges facing us today. The request will enable EERE to research 
and develop renewable energy technologies to that can help increase the 
amount of clean energy produced in the U.S.; advance energy efficiency 
technologies and practices to sustainably decouple energy demand from 
economic growth; and promote deployment of these clean energy 
technologies.
    EERE's overall budget request reflects the funding needed to meet 
our energy challenges head on. Advanced fuels and vehicles, renewable 
power, efficiency in buildings and industry, and technology deployment 
comprise EERE's portfolio and multi-pronged approach to energy 
solutions.
            BIOMASS PROGRAM
    In FY 2009, the Department is requesting $225 million for the 
Biomass Program, an increase of $26.8 million from the FY 2008 
appropriation. The Biomass Program's funding supports the Biofuels 
Initiative that was launched in 2006 as part of AEI and is designed to 
achieve cost competitive cellulosic ethanol by 2012. The funding also 
supports the President's ``Twenty-in-Ten'' initiative, announced in the 
2007 State of the Union, to reduce gasoline consumption by 20 percent 
by 2017.
    The Biomass Program's funding request for technology development 
and demonstration supports timely achievement of the goal of cost-
competitiveness by 2012. The Biomass Program is focused on: Feedstock 
Infrastructure to reduce the cost of feedstock logistics; Platforms R&D 
for efficiently converting feedstocks into cost competitive commodity 
liquid biofuels; and Utilization of Platform Outputs to demonstrate and 
validate integrated technologies that achieve commercially acceptable 
performance and cost targets through public-private partnerships. The 
Program Biomass strategy is to accelerate development of the next 
generation of feedstocks and conversion technology options for 
validation and demonstration in integrated biorefineries at commercial 
and 10 percent of commercial scale. This strategy balances the 
program's research, development, and deployment (RD&D) portfolio by 
encouraging technology transfer while maintaining core R&D funding for 
next generation technologies. The Biomass Program will continue to 
emphasize cellulosic ethanol and expand the focus on other renewable 
biofuels, such as biobutanol and green diesel.
            VEHICLE TECHNOLOGIES PROGRAM
    The FY 2009 Vehicle Technologies (VT) Program's request is $221.1 
million, an $8 million increase over the FY 2008 appropriation.
    The Vehicle Technologies Program activities focus on advanced, 
high-efficiency vehicle technologies, including combustion engines and 
enabling fuels, hybrid vehicle systems (including plug-in hybrids), 
high-power and high-energy batteries, advanced lightweight materials, 
and power electronics. These technologies are critical to near-term oil 
savings when used in advanced combustion hybrid and plug-in hybrid 
electric vehicles (PHEVs). In FY 2009, emphasis will increase R&D for 
PHEVs, such as high energy storage batteries.
    The VT Program continues to place increasing emphasis on 
accelerating RD&D on lithium-ion batteries, plug-in hybrids (including 
plug-in hybrid vehicle demonstrations), and drive-train electrification 
to diversify and make our nation's vehicles more efficient to reduce 
petroleum dependency. For more traditional vehicles, the program 
conducts research and development on improving advanced combustion 
engine systems and fuels and on reducing vehicle parasitic losses. The 
Vehicle Technologies budget is modified in the FY 2009 request by 
transferring three activities from the Hydrogen Technology Program: 
Education; Technology Validation; and Safety and Codes and Standards. 
These activity areas have congruent objectives with other efforts 
within the VT Program, and combining them within one program enables 
management efficiencies.
    The VT Program will continue FY 2008 efforts to evaluate the impact 
of intermediate ethanol blended gasoline (i.e., greater than E10) in 
conventional (i.e., non-FFV) vehicles and to improve the efficiency of 
engines operating on ethanol blends. Late model and legacy vehicles 
will be tested for emissions, performance, and materials impacts. These 
efforts help support existing mandates and the President's 20 in 10 
plan.
            HYDROGEN TECHNOLOGY PROGRAM
    The Hydrogen Technology Program's FY 2009 budget request is $146.2 
million, $64.8 million less than the FY 2008 appropriation, due in part 
to the movement of the three activities mentioned above to the Vehicle 
Technologies Program. In 2009, the program will focus on remaining 
critical path barriers to the technology readiness goals for 2015. 
Substantial increases are included for hydrogen storage and fuel cell 
R&D. To provide for those increases, funding for hydrogen production 
from renewables has been eliminated, and systems analyses continues at 
a somewhat reduced funding levels.
    The Hydrogen Program continues to research and develop critical 
hydrogen technologies that enable near-term commercialization pathways. 
Hydrogen Storage is one of the most technically challenging barriers to 
the widespread advancement of hydrogen and fuel cell technologies in 
the transportation sector. Our portfolio continues to identify new 
materials for on-board storage having the potential for greater than 50 
percent improvement in capacity than those available prior to 2004. 
Much needs to be done to enable these materials to operate at practical 
temperatures and pressures.
    In 2009, the Hydrogen Program will significantly increase 
investment in applied R&D of novel materials and breakthrough concepts 
with potential to meet on-board storage system performance targets. All 
storage R&D funding will be conducted through competitively selected 
Centers of Excellence and independent projects. The overarching goal is 
lightweight, low-cost, low-pressure, and efficient on-board vehicular 
storage systems to achieve a driving range of greater than 300 miles, 
without impacting vehicular cargo or passenger space to be competitive 
with today's vehicles.
    To address the critical barriers of fuel cell cost and durability, 
the FY 2009 request significantly increases funding for Fuel Stack 
Components R&D. Our R&D efforts have made progress in this area and 
will continue to work toward our stated goals. One notable achievement 
has been the development of a membrane with 5,000 hours lifetime--a 
giant leap toward the 2010 goal of 5,000 hours durability in an 
automotive fuel cell system.
    The Hydrogen Program's fuel cell R&D will continue to pursue a 
number of technological advancements. Proton-conducting membranes that 
are low-cost, durable, and operable at a low relative humidity will be 
developed. Non-precious metal and alloy catalysts will be identified 
and developed to further lower the cost of fuel cell systems. Gas flow 
through the flow fields will be modeled and measured while fuel cells 
are in operation to ensure optimal gas and water distribution over the 
catalyst and membrane surface. And fuel cells for distributed energy 
generation will continue to be developed with an emphasis on system 
integration, cost reduction and efficiency improvements. The Department 
will also continue its participation in the International Partnership 
for Hydrogen Economy (IPHE)--collaborating on R&D of materials for both 
fuel cells and storage, and working on such projects as the evaluation 
of fuel cell-related test protocols from different countries, as well 
as hydrogen pathway and infrastructure analyses.
            SOLAR ENERGY PROGRAM
    The FY 2009 budget request for the Solar Energy Program is $156.1 
million, $12.3 million less than the FY 2008 appropriation. Through the 
President's Solar America Initiative (SAI), announced in the 2006 State 
of the Union, the Solar Program will accelerate market competitiveness 
of solar photovoltaic technologies by conducting R&D to support less 
expensive, more efficient, and highly reliable solar systems. Targeting 
improved performance and reliability with reduced cost, the Solar 
Program focuses its RD&D activities in two technology areas: 
photovoltaics (PV) and concentrating solar power (CSP).
    The Solar Program's goal in the area of photovoltaics is to develop 
and deploy highly reliable PV systems that are cost-competitive with 
electricity from conventional resources. The Solar Program focuses on 
improving the performance of cells, modules, and systems; reducing the 
manufacturing cost of cells, modules, plant components, and systems; 
reducing the installation, interconnection, and certification costs for 
residential, commercial, and utility systems; and increasing system 
operating lifetime and reliability. To lower costs more rapidly and 
improve performance, the Solar Program is focusing on PV technology 
pathways that have the greatest potential to reach cost competitiveness 
by 2015. Industry-led partnerships, known as ``Technology Pathway 
Partnerships,'' will be continued in FY 2009 to help address the issues 
of cost, performance, and reliability associated with each pathway.
    The Program's CSP focus is to develop concentrating solar 
technologies. A solicitation issued in FY 2007 resulted in 12 industry 
contract awards focused on establishing a U.S. manufacturing capability 
of low cost trough components and the technical feasibility of low cost 
thermal storage. In FY 2008, funds will be provided for Phase I of 
these contracts with the more promising contracts moving into Phase II 
in FY 2009. One of the most important advantages of CSP is its ability 
to thermally store power for later use. The development of advanced 
thermal energy storage technologies in FY 2009 will be expanded to 
include single heat transfer fluid systems that eliminate the need for 
multiple heat exchangers and thereby increase system efficiency and 
reduce cost. For distributed applications, research in FY 2009 will 
continue on improving the reliability of dish systems through the 
operation and testing of multiple units as well as improving the 
manufacturability of dish systems.
            WIND ENERGY PROGRAM
    The Wind Energy Program's FY 2009 request is $52.5 million, an 
increase of $3.0 million from the FY 2008 appropriation. The Wind 
Energy Program supports the AEI objective to maximize wind energy 
resource utilization in the United States by leading the Nation's R&D 
efforts to improve wind energy generation technology and address 
barriers to the use of wind energy in coordination with stakeholders. 
The Wind Program's R&D efforts will focus on improving the performance 
of turbines, blades, and related components.
    The Wind Program believes that wind energy is at a transitional 
point, particularly for large land-based wind systems. The program is 
concentrating on reducing technological barriers that undermine the 
growth potential of wind energy in the U.S. by focusing on improving 
cost, performance, and reliability of large scale land-based 
technology.
    In addition, the Wind Program is facilitating wind energy's rapid 
market expansion by anticipating and addressing potential regulatory, 
transmission and manufacturing barriers; and investigating wind 
energy's application to other areas, including distributed and 
community owned wind projects.
    In 2009 the Wind Program will also work on grid integration to help 
maximize wind energy resource utilization, thereby beginning to address 
a barrier to increasing the domestic wind energy supply while also 
enhancing system reliability.
            WATER POWER PROGRAM
    The Water Power Program's budget request of $3.0 million will 
support initial R&D activities, and follows an initial congressional 
appropriation of $9.9 million in FY 2008. The program needs to evaluate 
the results of its FY 2008 R&D projects and technology assessments 
(which will continue into FY 2009) before considering further applied 
research efforts. The mission of the Water Power Program is to research 
and develop innovative and effective technologies capable of harnessing 
hydrokinetic energy resources, including ocean wave and current energy.
    The program will focus on conducting technology characterizations 
to identify manufacturers, performance limits and issues, known 
environmental impacts, and other relevant technical and market 
variables. In addition, the program will engage with key collaborative 
international activities.
            GEOTHERMAL TECHNOLOGY PROGRAM
    The FY 2009 request for the Geothermal Technology Program is $30 
million, which is an increase of $10.2 million from the FY 2008 
appropriation. The Geothermal Program focuses on the innovative 
technology of Enhanced Geothermal Systems (EGS) which are engineered 
reservoirs created to produce energy from geothermal resources. EGS is 
a new pathway for producing geothermal energy by drilling wells into 
hot rock, fracturing the rock between the wells, and circulating a 
fluid through the fractured rock to extract the heat. While EGS 
reservoirs have been designed, built, and tested in various countries, 
a number of technical hurdles remain to be overcome, the most important 
involving creation of EGS reservoirs with viable production rates and 
lifetimes. The Department's approach will to concentrate initially on 
reservoir-related technological issues. This strategy involves research 
as well as work with cost-sharing partners at existing geothermal 
fields to develop, test, and perfect the tools needed to fracture hot, 
impermeable rock and efficiently circulate fluids.
            BUILDING TECHNOLOGIES PROGRAM
    The Building Technologies (BT) Program's FY 2009 request is $123.8 
million, an increase of $14.8 million from the FY 2008 appropriation. 
The BT Program develops technologies, techniques, and tools for making 
residential and commercial buildings more energy efficient and cost 
competitive. The Program's funding supports a portfolio of activities 
that includes solid state lighting (SSL), improved energy efficiency of 
other building components and equipment, and their effective 
integration using whole building system design techniques that will 
enable the design of net Zero Energy Buildings. The BT Program also 
includes the development of building codes and appliance standards and 
successful education and market introduction programs, including ENERGY 
STAR and EnergySmart Schools.
    The Residential and Commercial Buildings integration components of 
the BT Program aim to transform the carbon footprint of the built 
environment through Zero Energy Buildings. The residential-focused 
Building America subprogram focuses on reducing total energy use in a 
new home by 60 to 70 percent. During FY 2009, research for production-
ready new residential buildings that are 40 percent more efficient will 
continue for three climate zones, with completion in two. The BT 
Program's activities in the commercial sector are focused on alliances 
of leading market companies with national portfolios of buildings.
    The Emerging Technologies subprogram seeks to develop cost-
effective technologies for residential and commercial buildings that 
enable reductions in building energy use. Solid State Lighting will 
develop technologies that can help reduce commercial building lighting 
electricity consumption. Space Conditioning and Refrigeration R&D will 
continue work on HVAC design concepts. Other highlights include highly 
insulating windows and building integrated solar heating and cooling 
systems.
    The Equipment Standards and Analysis subprogram develops minimum 
energy efficiency standards that are technologically feasible and 
economically justified as required by law. Federal energy conservation 
standards that have gone into effect since 1988 are projected to save a 
cumulative total of 75 quadrillion Btus (quads) of energy by the year 
2045 (in 2007, total annual U.S. consumption of primary energy was 
about 103 quads). Between FY 2005 and FY 2007, the Department 
identified and carried out significant enhancements to rule-making 
activities. The Department has made a commitment to clear the backlog 
of delayed actions that accumulated during prior years, while 
simultaneously implementing two new requirements of the Energy Policy 
Act of 2005 (EPACT). The Energy Independence and Security Act 
significantly increased the number of efficiency standards and test 
procedures DOE must develop. The Department will continue to implement 
productivity enhancements that will allow multiple rule-making 
activities to proceed simultaneously, while maintaining the rigorous 
technical and economic analysis required by statute. Energy 
conservation standards for 10 products were initiated in FY 2006 and 
2007 that will continue in FY 2009. In FY 2008, efficiency standards 
rule-makings were initiated on four additional products. In FY 2008, 
DOE is proceeding simultaneously on rule-makings for 15 products and 10 
test procedures. In FY 2009, four more standards and test procedures 
for seven more products will be added.
    The Technology Validation and Market Introduction subprogram funds 
activities that validate and promote clean, efficient, and domestic 
energy technologies. Expanding the ENERGY STAR program to include solid 
state lighting, water heaters, photovoltaics, fuel cells, micro-wind 
turbines, combined heat and power, and other advanced technologies, as 
well as targeting the civic infrastructure (e.g., schools, hospitals, 
libraries, municipal facilities), are central activities that the BT 
Program carries out to invest in Energy Smart solutions. DOE will 
continue to work with the Environmental Protection Agency on the 
development and implementation of Energy Star and other efforts to 
minimize duplication and maximize efficiency. In addition to these 
efforts, the BT Program focuses on outreach efforts to help move 
specific technologies--such as solid-state lighting and high-
performance windows--toward commercial applications. These efforts 
include design and rating tools, durability and product lifetime data, 
testing procedures, demonstrations, retailer education, and training on 
proper installation.
            INDUSTRIAL TECHNOLOGIES PROGRAM
    The Industrial Technologies (IT) Program seeks to reduce the energy 
intensity (energy demand per unit of industrial output) of the U.S. 
industrial sector through coordinated research and development, 
validation, and technical assistance activities. The program works to 
increase dissemination of energy efficiency technologies and operating 
practices. The FY 2009 Budget request for the IT Program is $62.1 
million, which is $2.3 million less than the FY 2008 appropriation. 
Internal funding shifts reflect a continued strategy to emphasize more 
effective ways to increase energy efficiency among energy intensive 
industries. The shift toward more crosscutting and higher impact R&D 
activities will allow the IT Program to develop advanced, energy-
efficient technologies to serve a broader set of industries.
    The IT Program will continue to support the Secretary of Energy's 
``Easy Ways to Save Energy'' campaign through the Save Energy Now (SEN) 
industrial energy savings assessments at the Nation's most energy-
intensive industrial facilities. This has been a very successful 
activity, having reached its 24-month goal of conducting 450 
assessments from 2006 through 2007.
    Building on this success, the IT Program will expand partnerships 
with leading corporations across major manufacturing supply chain and 
deliver DOE plant assessments, tools, and technologies to enable 
dramatic energy efficient improvements.
C. OFFICE OF FOSSIL ENERGY (FE)
    The Office of Fossil Energy (FE) conducts research, development and 
demonstration activities in partnership with industry to enhance U.S. 
economic, environmental and energy security by using conventional 
hydrocarbon sources of fuel. To further this mission, the Office is 
developing technological capabilities that could dramatically reduce 
carbon emissions to achieve near-zero atmospheric emissions power 
production. FE's budget request of $1.127 billion for FY 2009 is an 
increase of $223 million over the FY 2008 appropriation, of which $754 
million supports research and development and $373 million supports 
petroleum reserves.
    The Department's energy portfolio recognizes the abundance of coal 
as a domestic energy resource and remains committed to research and 
development to promote its clean and efficient use. Since coal in the 
United States accounts for 25 percent of the world's coal resources, 
the FY 2009 request focuses on carbon capture and storage.
            FOSSIL ENERGY RESEARCH AND DEVELOPMENT
    The Department's Fossil Energy Research and Development (FERD) 
program is directed at electric power generation from coal, our most 
abundant and lowest cost domestic fossil fuel. Coal today accounts for 
nearly one-quarter of all the energy--and about half the electricity--
consumed in the United States.
    FERD supports many Presidential initiatives and priorities 
including the Coal Research Initiative, Hydrogen Fuel Initiative, and 
FutureGen. FERD also supports the Climate Change Technology Program, 
which is a priority for the Department.
            FUTUREGEN
    FutureGen promotes advanced, full-scale integration of integrated 
gasification combined cycle (IGCC) and carbon capture and storage 
technology to produce electric power from coal while capturing and 
sequestering carbon dioxide (CO<INF>2</INF>), resulting in near-zero 
atmospheric emissions coal energy systems. The Department is 
restructuring FutureGen in a way that accelerates the commercial 
demonstration and deployment of carbon capture and storage 
technologies.
    The new approach proposes multiple 300-600 Megawatt (MW) 
commercial-scale demonstration clean coal power plants--as opposed to a 
single, 275 MW R&D facility--each producing electricity and capturing 
and safely sequestering at least an estimated annual one million metric 
tons of CO<INF>2</INF>. In the FY 2009 budget proposal, FutureGen 
receives an $81.7 million funding increase over the FY 2008 
appropriation.
            CLEAN COAL POWER INITIATIVE
    The Clean Coal Power Initiative (CCPI) is a cooperative, cost-
shared program between the government and industry to demonstrate 
advanced coal-based power generation technologies. CCPI is now focused 
on projects to help accelerate development and deployment of coal 
technologies that could economically capture carbon dioxide, including 
increasing the efficiency and reliability of carbon capture 
technologies. CCPI allows the Nation's power generators, equipment 
manufacturers, and coal producers to help identify the most critical 
barriers to coal use and the most promising advanced technologies to 
use coal cleanly, affordably, and with higher efficiencies that reduce 
carbon intensity.
    The CCPI budget request for FY 2009 is $85 million, a $15.6 million 
increase over the FY 2008 appropriation. In FY 2009 will complete the 
third round of project solicitations, proposal evaluations, and project 
selections of advanced technology systems that capture carbon dioxide 
for sequestration or beneficial reuse.
            CARBON SEQUESTRATION
    The FY 2009 budget request of $149 million for carbon 
sequestration, one of the key components of the Fuel and Power Systems 
program, is an increase of $30 million over the $119 million provided 
in the FY 2008 appropriation.
    The increase should help develop economical ways to separate and 
permanently store (sequester) greenhouse gas emissions from the 
combustion of fossil fuels. The technologies will help existing and 
future fossil fuel power generating facilities by reducing the cost of 
electricity impacts and also providing protocols for carbon capture and 
storage demonstrations to capture, transport, store, and monitor the 
CO<INF>2</INF> injected in geologic formations.
    The increase will support site selection and characterization, 
regulatory permits, community outreach, and completion of site 
operations plan for large-scale, geologic, carbon storage tests. It 
will also fund large-scale injections and remaining infrastructure 
development.
            HYDROGEN
    The budget request of $10 million in FY 2009 for hydrogen from 
coal--a clean fuel for future advanced power technologies such as fuel 
cells and transportation systems--is down nearly $15 million from the 
FY 2008 appropriation. The decrease is due to the elimination of 
integrated coal-biomass processing for carbon emissions research (which 
is generally advanced through the gasification program), elimination of 
substitute natural gas and coal-to-liquids production research (which 
are mature industries and do not provide the high-return investment 
that FE focuses on), and a right-sizing of the effort level for early 
engineering and design studies on hydrogen production modules in near-
zero atmospheric emissions coal plants.
            GASIFICATION TECHNOLOGY
    The Integrated Gasification Combined Cycle (IGCC) budget request 
for FY 2009 is $69 million, a $15.5 million increase over the FY 2008 
appropriation. The IGCC program develops advanced gasification-based 
technologies aimed at reducing the cost of coal-based IGCC plants, 
improving thermal efficiency, and achieving near-zero atmospheric 
emissions of all pollutants. These technologies will be an integral 
part of the carbon capture and storage demonstration projects.
            FUEL CELLS
    Flexible fuel cell systems that can operate in central coal-based 
power systems and with applications for electric utility, industrial 
and commercial/residential markets, receive a funding request of $60 
million in FY 2009--a $4.5 million increase over the FY 2008 
appropriation of $55.5 million. This activity enables the generation of 
highly efficient, cost-effective electricity from domestic coal with 
near-zero atmospheric emissions of carbon and air pollutants in central 
station applications. The technology also provides the technology base 
to permit grid-independent distributed generation applications.
            OIL AND NATURAL GAS TECHNOLOGY
    Oil and gas R&D activities are more appropriate for the private-
sector industry to perform. Consistent with the budget requests for 
Fiscal years 2006, 2007 and 2008, the Petroleum-Oil Technology and 
Natural Gas Technologies research and development programs are being 
terminated in FY 2009.
    The Ultra-Deepwater and Unconventional Gas and Other Petroleum 
Research Fund was created by the Energy Policy Act of 2005 (Public Law 
109-58) as a mandatory program beginning in FY 2007. The program is 
funded from mandatory federal revenues from oil and gas leases. 
Consistent with the Fiscal Year 2007 and 2008 budget requests, the FY 
2009 budget proposes to repeal the program through a legislative 
proposal.
D. OFFICE OF ELECTRICITY DELIVERY AND ENERGY RELIABILITY (OE)
    The mission of the Office of Electricity Delivery and Energy 
Reliability (OE) is to lead national efforts to modernize the 
electricity delivery system, enhance the security and reliability of 
America's energy infrastructure, and facilitate recovery from 
disruptions to energy supply. These functions are vital to the 
Department's strategic goal of protecting our national and economic 
security by promoting a diverse supply and delivery of reliable, 
affordable, and environmentally responsible energy.
    The President's FY 2009 budget includes $134 million for OE in FY 
2009, which is a decrease of $4.6 million from the FY 2008 
appropriation. This includes $14.1 million for Operations and Analysis 
activities (an increase of $2.7 million from the FY 2008 
appropriation), and $19.7 million for Program Direction (an increase of 
$2.1 million from the FY 2008 appropriation).
            ELECTRICITY DELIVERY RESEARCH AND DEVELOPMENT
    In FY 2009, the Department is requesting $100.2 million for 
Research and Development activities, a decrease of $9.3 million from 
the FY 2008 appropriation. Effort is focused in four critical areas: 
High Temperature Superconductivity; Visualization & Controls; Renewable 
& Distributed Systems Integration; and Energy Storage & Power 
Electronics.
    Our High Temperature Superconductivity activities continue to 
support second generation wire development as well as research on 
dielectrics, cryogenics, and cable systems. This activity is being 
refocused to address a near-term critical need within the electric 
system to not only increase current carrying capacity, but also to 
relieve overburdened cables elsewhere in the local grid. The 
superconductivity industry in the United States is now at the critical 
stage of moving from small business development to becoming a part of 
our manufacturing base. The FY 2009 funding request for High 
Temperature Superconductivity is $28.2 million, an increase of $0.3 
million from the FY 2008 appropriation.
    Enhanced security for control systems used by the transmission grid 
is critical to the development of a more reliable and resilient modern 
grid. The Visualization and Controls Research & Development activity 
focuses on improving our ability to measure and address the 
vulnerabilities of controls systems, detect cyber intrusion, implement 
protective measures and response strategies, and sustain cyber security 
improvements over time.
    This activity is also developing the next generation system control 
and data acquisition (SCADA) system that features GPS-synchronized grid 
monitoring, secure data communications, custom visualization and 
operator queuing, and advanced control algorithms. Advanced 
visualization and control systems will allow operators to detect 
disturbances and take corrective action before problems cascade into 
widespread outages. The need to improve electric power control systems 
security is well-recognized by both the private and public sectors. The 
FY 2009 funding request for Visualization & Controls is $25.3 million, 
an increase of $0.2 million from the FY 2008 appropriation.
    The Energy Storage & Power Electronics activities support the 
development of new and improved energy storage devices and systems at 
utility scale, which will be incorporated in DOE's Basic Energy Science 
basic research results. The Department will also work to achieve 
substantial improvements in seeking lifetime, reliability, energy 
density, and cost of energy storage devices. Through this, highly 
leveraged prototype testing and utility demonstration projects will be 
expanded with State energy office participation focusing on areas of 
greatest utility need. The increase will also serve to focus on 
enhanced research in Power Electronics to improve material and device 
properties needed for transmission-level applications. The FY 2009 
funding request for the Energy Storage and Power Electronics program is 
$13.4 million, an increase of $6.7 million from the FY 2008 
appropriation.
    Large scale, megawatt-level electricity storage systems, or 
multiple, smaller distributed storage systems, could significantly 
reduce transmission system congestion, manage peak loads, make 
renewable electricity sources more dispatchable, and increase the 
reliability of the overall electric grid. The FY 2009 funding request 
for Energy Storage & Power Electronics is $13.4 million, an increase of 
$6.7 million from the FY 2008 appropriation.
    The Renewable and Distributed Systems Integration activities will 
develop and demonstrate Smart Grid technologies for an integrated and 
intelligent electric transmission and distribution network in 
accordance with the Energy Independence and Security Act; will 
demonstrate distributed energy systems as a resource to decrease peak 
electric load demand, increase asset utilization, and defer electric 
system upgrades; and in coordination with EERE, will develop renewable 
energy grid integration technologies and methods to facilitate 
increased deployment of renewables and other clean energy sources. The 
FY 2009 funding request for Renewable & Distributed Systems Integration 
is $33.3 million, an increase of $7.8 million from the FY 2008 
appropriation.

CONCLUSION

    I appreciate the opportunity to appear before you to present the 
Department of Energy's FY 2009 budget proposal for the applied energy 
programs' research and development efforts. I will be happy to take any 
questions that Members of the Subcommittee may have.
                   Statement of Dr. Raymond L. Orbach
                      Under Secretary for Science
                       U.S. Department of Energy
    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee. I am pleased to appear before your committee for what I 
expect to be my final budget presentation for the Department of 
Energy's Office of Science. I would like to thank the Committee for 
your strong support for the Office of Science during my tenure. This 
support has enabled the Office of Science to make investments in basic 
research and advanced research capabilities that have and will continue 
to improve U.S. global competitiveness, energy security, the 
environment, and our fundamental understanding of the universe around 
us.
    Our nation continues to face significant challenges in energy 
security and in our ability to maintain the scientific leadership and 
innovation that assures our continued economic security. These 
challenges are addressed by the President in his American 
Competitiveness Initiative and Advanced Energy Initiative announced in 
2006. The President's budget request for FY 2009 is a strong 
demonstration of his continued commitment to these important 
initiatives. The Congress has also spoken and expressed strong, 
bipartisan support for an aggressive innovation and energy security 
agenda in passing the Energy Policy Act of 2005 (EPAct) and in 
following up with both the America COMPETES Act and the Energy 
Independence and Security Act of 2007 (EISA).
    EPAct and the COMPETES Act both recognize the pivotal role of the 
Office of Science in securing the advantages that basic research as 
well as science, math, and engineering education can bring to the 
Nation. EISA's provisions are intended to reduce America's dependence 
on oil, improve efficiency, and cut emissions. But we will not meet the 
targets with solely incremental improvements in current technologies. 
We need the breakthroughs that will result only from transformational 
basic research.
    Here are a few examples. EISA mandates the use of at least 36 
billion gallons of biofuels by 2022. Without transformational 
breakthroughs in deriving fuels from plant cellulose materials, we 
reduce our chances of reaching these aggressive goals. Even though 
conventional approaches, such as sugar-based and corn-based ethanol, 
can be modestly energy positive--although this is still debated--they 
consume large quantities of food and feed grain. Increasing use of 
these feedstocks raises environmental concerns associated with land use 
changes and impacts on atmospheric concentrations of carbon dioxide. 
Biofuels derived from cellulose, and in particular feedstock crops such 
as switchgrass that can be grown on marginal land with minimal water 
and nutrient requirements, can provide the basis for a sustainable 
biofuels economy in the U.S. while benefiting the American farmer. 
Breakthroughs in science are essential for the development of more 
efficient and cost-effective processes for deriving fuels from 
cellulose and for developing dedicated feedstock crops. The approaches 
to cellulosic ethanol deployed in many pilot and demonstration 
bioethanol plants across the United States rely on niche feedstocks and 
conversion technologies that are not yet cost competitive. New 
scientific discoveries will enable revolutionary gains in production 
efficiencies and cost reduction.
    The transformational basic research undertaken by the Office of 
Science's Bioenergy Research Centers is one way the Department is 
addressing the difficulties of cost-effective bioethanol production 
with minimal environmental footprint, by using plant and microbial 
genomics and other novel approaches.
    EISA also mandates a national fuel economy standard of at least 35 
miles per gallon by 2020--an increase in fuel economy of some 40 
percent that will save billions of gallons of fuel. Automobile 
manufacturers will need to employ numerous conventional and advanced 
engine and vehicle technologies to reach this goal. Office of Science 
basic research will be critical in the development of cost effective 
advanced engine and vehicle technologies through research in areas such 
as high-strength, low-weight materials; electrical energy storage; 
hydrogen production, use, and storage; fuel cell materials; catalysts, 
combustion processes, and materials under extreme environments.
    In FY 2009 the Office of Science will initiate Energy Frontier 
Research Centers. They will pursue innovative basic research to 
accelerate the scientific breakthroughs needed to create advanced 
energy technologies for the 21st century. These Centers will pursue 
fundamental basic research areas mentioned above as well as solar 
energy utilization; geosciences related to long-term storage of nuclear 
waste and carbon dioxide; advanced nuclear energy systems; solid state 
lighting; and superconductivity.
    The Office of Science seeks to engage the Nation's intellectual and 
creative talent to address scientific grand challenges. These are the 
necessary transformational discoveries which will fundamentally alter 
our approaches to energy production and use, and they will come from 
the next generation of scientists, mathematicians, and engineers--many 
trained through Office of Science-funded research and using world-
leadership scientific research facilities we build and operate for the 
scientific community.
    The Office of Science is accelerating the pace of discovery and 
innovation to address the Nation's energy needs through our multi-
faceted research portfolio. Your confidence in the Office of Science is 
based on a number of demonstrated successes in our mission areas, and 
your support for the Office of Science has enabled us to assess the 
basic research needs and engage the scientific community to respond 
aggressively. We routinely assess and update these research 
opportunities and priorities with an eye to our mission and with an ear 
to the research community, whether at a national laboratory, a 
university, or in industry. Since we build and operate large-scale, 
long-term, and, by necessity, cost-effective scientific research 
facilities, and because our mission is so important, we take these 
assessments seriously. We cannot afford to go in a wrong direction; we 
need the most complete and robust analysis of scientific opportunity, 
mission need, cost, and benefit.
    A large part of this assessment effort in recent years has been 
accomplished through a series of Basic Research Needs workshops and 
other workshops led by our science programs in partnership with the 
Department's technology programs. These workshops have brought together 
subject experts with diverse views from the broader basic and applied 
research community to discuss and identify areas of focus for DOE's 
basic research efforts. These efforts have enabled the Office of 
Science to stay informed of research needs and new opportunity areas, 
as well as scientific and technological roadblocks, and have enabled us 
to create a prioritized and comprehensive research portfolio within our 
available funding.
    While these workshops are critical to building and balancing our 
research portfolio, we also have a number of planning and advisory 
resources at our disposal to inform our long-term research portfolio 
planning. The National Academy of Sciences, our Federal Advisory 
Committees, informal and formal communication with the international 
scientific community, OSTP, OMB, the Congress, and our in-house Office 
of Science personnel all play important roles. Our programs are strong 
because our research portfolio and facilities are internally and 
externally assessed regularly and because our research and facilities 
are awarded through a competitive merit review process.
    We have established effective processes for assessing basic 
research needs, and we have also developed the capacity to respond 
quickly with highly leveraged investments in scientific facilities and 
research at the national laboratories and universities. This informed, 
rapid response provides the world-class research results that will help 
solve some of our most intractable energy supply and environmental 
challenges, while keeping our nation's scientific enterprise and 
industry at the forefront.
    I think the best way to bring my statement into sharp focus is to 
discuss some examples of how your investments in the Office of Science 
have brought quick and remarkable results, and what we plan to do with 
the funding requested for FY 2009 to enhance the U.S. scientific and 
innovation enterprise and ensure the best possible return to the 
taxpayer.
    Perhaps the best example of this aggressive and nimble approach is 
the response by the Office of Science to the challenge of High 
Performance Computing (HPC). In 2002 the Japanese announced the Earth 
Simulator, a high performance computer for open science which combined 
unprecedented performance and efficiency. Congress responded by 
dramatically increasing HPC funding, and making the Office of Science 
the lead in an effort to surpass the Earth Simulator. I am pleased to 
report that your confidence in us has already resulted in the U.S. 
attaining world leadership in open scientific computing-by the end of 
this year we will achieve peak capacity of one petaflop at our 
Leadership Computing Facility in Oak Ridge. This exceptional capability 
is helping us model such phenomena as turbulent flows related to 
combustion and to model and simulate complex climate processes that 
will inform decision-makers on climate change, mitigation, and 
adaptation.
    The benefits of Office of Science HPC capabilities extend well 
beyond DOE. We provide access to these resources to other federal 
agencies, universities, laboratories, and industry. We have been 
involved in modeling and simulation runs as diverse as determining 
hurricane effects to save lives, and modeling aircraft engines and 
airframes to improve energy efficiency and reduce time-to-market. We 
use the Innovative and Novel Computational Impact on Theory and 
Experiment (INCITE) program to openly compete access to these world-
leading HPC resources. The Office of Science created INCITE for the 
purpose of bringing the capabilities of terascale computing to the 
community in order to transform the conduct of science and bring 
scientific simulation through computational modeling to parity with 
theory and experiment as a scientific tool. As a result, HPC modeling 
and simulation is now seen as a potent tool in the scientific toolbox; 
one that will potentially save lives, increases our energy and national 
security, and propels us to a competitive edge.
    Another accomplishment of the past year is the successful 
competition and award of three Bioenergy Research Centers. These 
Centers will each take different approaches to discovering 
fundamentally new solutions and solving critical roadblocks on the path 
to energy security--how will we meet the new requirement to produce 36 
million gallons of biofuels by 2022 from renewable plant sources that 
don't compete with the food supply? In authorizing and funding the 
Bioenergy Research Centers, Congress expressed its confidence in the 
ability of the Office of Science to tap the talent of our national 
laboratories and universities to tackle our fuels challenge, and these 
Centers are up and running well.
    U.S. leadership in science and technology depends on the continued 
availability of the most advanced scientific tools and facilities for 
our researchers. The suite of research capabilities built and operated 
by the Office of Science are still the envy of the world. And over the 
past several years, with your support, we have delivered new facilities 
and have achieved remarkable technical milestones with existing 
facilities, enabling the U.S. to work at the cutting-edge of many 
scientific disciplines. The Spallation Neutron Source, which came on 
line in 2006, is the world's forefront neutron scattering facility 
providing more neutrons, by a factor of ten, than any other neutron 
source in the world for research of materials and biological complexes. 
The Linac Coherent Light Source currently under construction will 
produce x-rays 10 billion times more intense than any existing x-ray 
source in the world when it comes on line in FY 2010. It will have the 
capabilities for structural studies of nanoscale particles and single 
molecules and for probing chemical reactions in real time. All five 
Office of Science Nanoscale Science Research Centers are now in 
operation, providing unparalleled resources to the scientific community 
for synthesis, fabrication, and analysis of nanoparticles and 
nanomaterials. The Tevatron at Fermilab currently remains the world's 
most powerful particle collider for high energy physics. New records 
for performance in peak luminosity were achieved in 2006, enabling the 
observation of the rare single top quark and bringing researchers 
closer to understanding the basic constituents of matter and the laws 
of nature at high energies.
    On October 24, 2007, the international ITER Agreement went into 
force. The ITER experiment will demonstrate for the first time that a 
reactor can create and sustain a burning plasma. The implications of 
this research are far-reaching. The world faces a series of tough 
choices in meeting our energy needs over the next century. While no 
silver bullet may exist, fusion appears to be the closest. Fusion 
energy provides the real possibility of abundant, economical, and 
environmentally benign energy, starting around mid-century. Our 
investments today will have huge pay-offs for our children and 
grandchildren. We are part of an international consortium that is 
sharing the cost and the risk of the project and will have full access 
to all experimental research data.
    The Office of Science is aggressively pursuing a range of research 
areas that will provide answers critical to our future energy security, 
as the material that follows will show--and we also continue to plan 
for the future, seeking to identify opportunities within available 
resources and to update our priorities appropriately. An example of 
this is the `Facilities for the Future of Science: A 20-Year Outlook' 
report, which was released in November 2003 and updated last year. The 
Outlook contained a prioritized list of facilities to underpin our 
major research thrusts over the next 20 years and beyond. These 
facilities are designed to be world class and adaptable to evolving 
basic research needs to ensure that U.S. taxpayers get the most value 
for their money. These facilities also allow researchers access to the 
full array of physical and biological science large-scale resources, 
creating an all-important balance and `unity' of science within the 
Office of Science. I ask the Members during this appropriations cycle 
especially to consider the lasting value of the basic energy research 
done in the Office of Science to our nation's well-being and economic 
prowess.
    The information that follows is an in-depth examination of the 
funding and activities of the Office of Science for FY 2009.
    The following programs are supported in the FY 2009 budget request: 
Basic Energy Sciences, Advanced Scientific Computing Research, 
Biological and Environmental Research, Fusion Energy Sciences, High 
Energy Physics, Nuclear Physics, Workforce Development for Teachers and 
Scientists, Science Laboratories Infrastructure, Science Program 
Direction, and Safeguards and Security.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


BASIC AND APPLIED RESEARCH & DEVELOPMENT COORDINATION

    The Office of Science continues to coordinate basic research 
efforts in several areas with the Department's applied technology 
offices through collaborative processes established over the last 
several years. These areas include biofuels derived from biomass, solar 
energy, hydrogen, solid-state lighting and other building technologies, 
the Advanced Fuel Cycle, Generation IV Nuclear Energy Systems, vehicle 
technologies, and improving efficiencies in industrial processes. The 
Department's July 2006 report to Congress, DOE Strategic Research 
Portfolio Analysis and Coordination Plan, identified 21 additional 
areas of opportunity for coordination that have great potential to 
increase mission success. The Office of Science supports basic research 
that underpins nearly all 21 areas; and six areas are highlighted in 
the FY 2009 Office of Science budget request for enhanced R&D 
coordination: Advanced Mathematics for Optimization of Complex Systems, 
Control Theory, and Risk Assessment; Electrical Energy Storage; Carbon 
Dioxide Capture and Storage; Characterization of Radioactive Waste; 
Predicting High Level Waste System Performance over Extreme Time 
Horizons; and High Energy Density Laboratory Plasmas. The Office of 
Science has sponsored scientific workshops corresponding to these focus 
areas in collaboration with related DOE applied technology program 
offices. The workshop reports identified high priority basic research 
areas necessary for improved understanding and revolutionary 
breakthroughs.
    Advanced Mathematics for Optimization of Complex Systems, Control 
Theory, and Risk Assessment: The Advanced Scientific Computing Research 
(ASCR) program supports basic research in advanced mathematics for 
optimization of complex systems, control theory, and risk assessment. A 
recommendation from the workshop focused on this subject indicated 
additional research emphasis in advanced mathematics could benefit the 
optimization of fossil fuel power generation; the nuclear fuel life 
cycle; and power grid control. Such research could increase the 
likelihood for success in DOE strategic initiatives including 
integrated gasification combined cycle coal-fired power plants and 
modernization of the electric power grid.
    Electrical Energy Storage: About 15 percent of the Basic Energy 
Sciences (BES) program funding requested to support basic research in 
electrical energy storage (EES) is targeted for a formally coordinated 
program with DOE applied technology program offices. The workshop 
report on this focus area noted that revolutionary breakthroughs in EES 
have been singled out as perhaps the most crucial need for this 
nation's secure energy future. The report concluded that the 
breakthroughs required for tomorrow's energy storage needs can be 
realized with fundamental research to understand the underlying 
processes involved in EES. The knowledge gained will in turn enable the 
development of novel EES concepts that incorporate revolutionary new 
materials and chemical processes. Such research will accelerate 
advances in developing novel battery concepts for hybrid and electric 
cars and will also help facilitate successful utilization and 
integration of intermittent renewable power sources such as solar, 
wind, and wave energy into the utility sector, making these energy 
sources competitive for base-load supply.
    Carbon Dioxide Capture and Storage: BES, ASCR and the Biological 
and Environmental Research (BER) program support basic research in 
carbon dioxide capture and storage. The storage portion of this R&D 
coordination focus area was a subject of a BES workshop on Basic 
Research Needs for Geosciences in February 2007 that focused on the 
research challenges posed by carbon dioxide storage in deep porous 
saline geological formations. The workshop report noted that the 
chemical and geological processes involved in the storage of carbon 
dioxide are highly complex and would require an interdisciplinary 
approach strongly coupling experiments with theory, modeling, and 
computation bridging multiple length and time scales. The BES effort 
supports fundamental research to understand the underlying chemical, 
geochemical, and geophysical processes involved in sub-surface 
sequestration sites. The BER research effort focuses on understanding, 
modeling, and predicting the processes that control the fate of carbon 
dioxide injected into geologic formations, sub-surface carbon storage, 
and the role of microbes and plants in carbon sequestration in both 
marine and terrestrial environments. These aspects of this focus area 
were also the subject of additional SC workshops that identified basic 
research areas in carbon dioxide capture and storage that could benefit 
the optimization of fossil fuel power generation and the development of 
carbon neutral fuels. The ASCR research effort supports two Scientific 
Discovery through Accelerated Computing (SciDAC) partnerships with BER 
to advance modeling of subsurface reactive transport of contaminants; 
an area that has been identified as directly relevant to carbon 
sequestration research efforts.
    Characterization of Radioactive Waste: BES, BER, and the Nuclear 
Physics (NP) program support research in radioactive waste 
characterization. This R&D coordination focus area was the subject of 
six Office of Science workshops, including three BES workshops. The 
workshop reports noted that the materials and chemical processes 
involved in radioactive waste disposal are highly complex and their 
characterization requires an interdisciplinary approach that strongly 
couples experiments with theory, modeling, and computation bridging 
multiple length and time scales. The BES effort will focus on research 
relating to the underlying physical and chemical processes that occur 
under the conditions of radioactive waste storage, including extremes 
of temperature, pressure, radiation flux, and multiple complex phases. 
The BER research effort addresses processes that control the mobility 
of radiological waste in the environment. The NP research effort is 
focused on characterization of radioactive waste through the advanced 
fuel cycle activities. The NP program areas are structured as 
scientific disciplines with goals to understand the nuclear cross 
sections important for advanced fuel cycle reprocessing. A small 
portion of on-going research is relevant to the issues involved with 
radioactive waste and related advanced fuel cycles. The knowledge 
gained from this research will lead to enhanced understandings of 
radioactive waste characterization, which would make nuclear power a 
far more attractive component in primary energy usage.
    Predicting High Level Waste System Performance over Extreme Time 
Horizons: BES supports basic research in predicting high-level waste 
system performance over extreme time horizons. This R&D coordination 
focus area was a subject of a BES workshop on Basic Research Needs for 
Geosciences in February 2007, which focused on research challenges 
posed by geological repositories for high level waste. The workshop 
report identified major research priorities in the areas of 
computational thermodynamics of complex fluids and solids, 
nanoparticulate and colloid physics and chemistry, biogeochemistry in 
extreme and perturbed environments, highly reactive subsurface 
materials and environments, and simulation of complex multi-scale 
systems for ultra-long times.
    High Energy Density Laboratory Plasmas: The Fusion Energy Sciences 
(FES) program supports basic reach in high energy density laboratory 
plasmas. In May 2007, Office of Science and the National Nuclear 
Security Administration (NNSA) jointly sponsored a workshop to update 
the high energy density laboratory plasmas (HEDLP) scientific research 
agenda. Three scientific themes emerged from the workshop: enabling the 
grand challenge of fusion energy by high energy density laboratory 
plasmas; creating, probing, and controlling new states of high energy 
densities; and catching reactions in the act by ultra-fast dynamics. In 
FY 2009, the FES request expands existing HEDLP research in response to 
the research opportunities identified in the workshop.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


OFFICE OF SCIENCE LABORATORY APPRAISALS

    In 2006, the Office of Science revised the appraisal process it 
uses each year to evaluate the scientific, management, and operational 
performance of the contractors who manage and operate each of its 10 
national laboratories. This new appraisal process went into effect for 
the FY 2006 performance evaluation period and provides a common 
structure and scoring system across all 10 Office of Science 
laboratories. The performance-based approach evaluates the contractor's 
performance against eight Performance Goals (three Science and 
Technology Goals and five Management and Operations Goals). Each goal 
is composed of two or more weighted objectives. The new process has 
also incorporated a standardized five-point (0-4.3) scoring system, 
with corresponding grades for each Performance Goal, creating a 
``Report Card'' for each laboratory.
    The FY 2007 Office of Science laboratory report cards have been 
posted on the SC website (http://www.science.doe.gov/
News<INF>-</INF>Information/News<INF>-</INF>Room/2007/
Appraisa<INF>-</INF>%20Process/index.htm).

SCIENCE PROGRAMS

BASIC ENERGY SCIENCES

FY 2008 Appropriation--$1,269.9 Million; FY 2009 Request--$1,568.2 
Million

    The Basic Energy Sciences (BES) program supports research that 
advances the core disciplines of basic energy sciences--materials 
sciences, chemistry, geosciences, and physical biosciences. The 
scientific discoveries at the frontiers of these disciplines impact 
energy resources, production, conservation, efficiency, and the 
mitigation of adverse impacts of energy production and use--discoveries 
that will help accelerate progress toward long-term energy security, 
economic growth, and a sustainable environment. Research in materials 
sciences will lead to the development of materials that improve 
efficiency, economy, environmental acceptability, and safety of energy 
generation, conversion, transmission, storage, and use. Research in 
chemistry will lead to the development of advances such as efficient 
combustion systems with reduced emissions of pollutants; new solar 
photo-conversion processes; improved catalysts for the production of 
fuels and chemicals; and better separations and analytical methods for 
applications in energy processes, environmental remediation, and waste 
management. Research in geosciences results in advanced monitoring and 
measurement techniques for reservoir definition and understanding the 
dynamics of complex fluids through porous and fractured subsurface 
rock. Research into the molecular and biochemical nature of 
photosynthesis aids the development of solar photo-energy conversion.
    In FY 2009, BES will support expanded efforts in innovative basic 
research to accelerate scientific breakthroughs needed to create 
advanced energy technologies for the 21st century. Central to this 
effort is the initiation of Energy Frontier Research Centers that will 
pursue fundamental basic research areas such as solar energy 
utilization; catalysis for energy; electrical energy storage; 
geosciences related to long-term storage of nuclear waste and carbon 
dioxide; advanced nuclear energy systems; hydrogen production, storage, 
and use; solid state lighting; superconductivity; combustion of 21st 
century transportation fuels; and materials under extreme environments. 
The Office of Science seeks to engage the Nation's intellectual and 
creative talent to address the scientific grand challenges associated 
with determining how nature works and to lead the scientific community 
into a new era of science--where we are able to direct and control 
matter at the quantum, atomic, and molecular levels and harness this 
new knowledge and capability for some of our most critical real-world 
challenges. BES anticipates making awards to 20 to 30 Energy Frontier 
Centers in FY 2009, each supported at two to five million dollars per 
year for an initial period of five years.
    BES also provides the Nation's researchers with world-class 
research facilities, including a reactor- and two accelerator-based 
neutron sources, four operating light sources plus two additional next-
generation light sources under construction in FY 2009, five nanoscale 
science research centers, and three electron beam micro-
characterization centers. These facilities provide important 
capabilities for fabricating, characterizing, and transforming 
materials of all kinds from metals, alloys, and ceramics to fragile 
bio-inspired and biological materials. The next steps in the 
characterization and the ultimate control of materials properties and 
chemical reactivity are to improve spatial resolution of imaging 
techniques; to enable a wide variety of samples, sample sizes, and 
sample environments to be used in imaging experiments; and to make 
measurements on very short time scales, comparable to the time of a 
chemical reaction or the formation of a chemical bond. With these 
tools, we will be able to understand how the composition of materials 
affects their properties, to watch proteins fold, to see chemical 
reactions, and to understand and observe the nature of the chemical 
bond. For FY 2009, BES scientific user facilities will be scheduled to 
operate an optimal number of hours.
    The Spallation Neutron Source (SNS)--a next-generation, 
accelerator-based, short-pulse neutron source--completed its first full 
year of commissioning and operations in FY 2007. In FY 2009, 
fabrication and commissioning of SNS instruments will continue, funded 
by BES and other sources including non-DOE sources. Two Major Items of 
Equipment are funded in FY 2009 that will allow the fabrication of nine 
additional instruments for the SNS, thus nearly completing the initial 
suite of 24 instruments that can be accommodated in the high-power 
target station. SNS and the High Flux Isotope Reactor at Oak Ridge 
National Laboratory together provide capabilities unavailable anywhere 
else in the world for study of the position and motion of atoms in 
materials.
    All five Nanoscale Science Research Centers will be fully 
operational in FY 2009: the Center for Nanophase Materials Sciences at 
Oak Ridge National Laboratory, the Molecular Foundry at Lawrence 
Berkeley National Laboratory, the Center for Nanoscale Materials at 
Argonne National Laboratory, the Center for Integrated Nanotechnologies 
at Sandia and Los Alamos National Laboratories, and the Center for 
Functional Nanomaterials at Brookhaven National Laboratory. In FY 2009, 
funding for research at the nanoscale increases for activities spanning 
materials sciences, chemistry, geosciences, and physical biosciences.
    The Linac Coherent Light Source (LCLS) at the Stanford Linear 
Accelerator Center (SLAC) will continue construction in FY 2009. Full 
support of the operation of the SLAC linac is provided by BES in FY 
2009, completing the transition of linac funding from the High Energy 
Physics program to BES. The LCLS project will provide laser-like 
radiation in the x-ray region of the spectrum that is 10 billion times 
greater in peak power and peak brightness than any existing coherent x-
ray light source and that has pulse lengths measured in attoseconds--
the timescale of electronic and atomic motions. The LCLS will be the 
first such facility in the world for groundbreaking research in the 
physical and life sciences. Funding is provided separately for design 
and fabrication of instruments for the facility. Construction of the 
Photon Ultra-fast Laser Science and Engineering (PULSE) building 
renovation continues in FY 2009. PULSE is a new center for ultra-fast 
science at SLAC focusing on ultra-fast structural and electronic 
dynamics in materials sciences, the generation of attosecond laser 
pulses, single-molecule imaging, and understanding solar energy 
conversion in molecular systems.
    Support is provided for PED, R&D, and initiation of construction of 
the National Synchrotron Light Source-II (NSLS-II). NSLS-II will be a 
new synchrotron light source, highly optimized to deliver ultra-high 
brightness and flux with exceptional beam stability. This will enable 
the study of material properties and functions with a spatial 
resolution of one nanometer (nm), an energy resolution of 0.1 
millielectron volt (meV), and the ultra-high sensitivity required to 
perform spectroscopy on a single atom, achieving a level of detail and 
precision never possible before. NSLS-II will open new regimes of 
scientific discovery and investigation.

ADVANCED SCIENTIFIC COMPUTING RESEARCH

FY 2008 Appropriation--$351.2 Million; FY 2009 Request--$368.8 Million

    The Advanced Scientific Computing Research (ASCR) program is 
expanding the capability of world-class scientific research by 
advancing fundamental mathematics and computer science research that 
enables simulation and prediction of complex physical, chemical, and 
biological systems; providing the forefront computational capabilities 
needed by researchers to enable them to extend the frontiers of 
science; and delivering the fundamental networking research and 
facilities that link scientists across the Nation to the Department-
sponsored computing and experimental facilities. ASCR supports 
fundamental research and integrates the results of these efforts into 
tools and software that can be used by scientists in other disciplines. 
The applied mathematics research activity enables scientists to 
accurately model physical and natural systems, and provides the 
algorithms computers require to manipulate that representation of the 
world effectively. Computer science research provides the link between 
the mathematics and the actual computer systems. Scientific discovery 
results from simulations conducted on advanced computers. High 
performance networks and network research provide the capability to 
move the millions of gigabytes of data that SC's experimental and 
computational tools generate to the scientists' desktops. All of these 
elements supported by ASCR advance the frontiers of simulation and 
scientific discovery. ASCR and its predecessors have been leaders in 
the computational sciences for several decades and its activities are 
essential for research programs across SC and the Department.
    In FY 2009, increases in core research in Applied Mathematics and 
Computer Science will be targeted on long-term research needs, 
including support for a new joint Applied Mathematics-Computer Science 
Institute to focus on the challenges of computing at extreme scales 
that blur the boundaries between these disciplines, a new effort in the 
mathematics of large data sets, areas of long-term research most 
relevant to meeting the challenges of computing at extreme scales, and 
risk assessment in complex systems. ASCR will also support a new basic 
research effort in cyber security for open science in FY 2009.
    The Scientific Discovery through Advanced Computing (SciDAC) 
program is a set of coordinated investments across all SC mission areas 
with the goal of using computer simulation and advanced networking 
technologies to achieve scientific breakthroughs that would be 
impossible using theoretical or laboratory studies alone, and fully 
realizing the potential of emerging terascale and petascale for 
advancing scientific discovery. The research and development activities 
supported under SciDAC extend key results from applied mathematics and 
computer science research to develop integrated software tools that 
computational scientists can use in high performance scientific 
applications. SciDAC enables new areas of science to take advantage of 
computation and simulation through Scientific Application Partnerships; 
Centers for Enabling Technologies at universities and national 
laboratories; and university-led SciDAC Institutes that complement the 
activities of the Centers and provide training for the next generation 
of computational scientists.
    In addition to its research activities, ASCR plans, develops, and 
operates supercomputer and network facilities that are available 24 
hours a day, 365 days a year to researchers working on problems 
relevant to DOE's scientific missions. The National Energy Research 
Scientific Computing Center (NERSC) provides the core scientific 
computing capacity needed by the research community and complements the 
capabilities of the Leadership Computing Facilities (LCFs). NERSC 
serves over 2,500 users working on about 900 projects. The NERSC Cray 
XT-4 system will provide 100-150 teraflops of peak computing capacity 
in FY 2009. In FY 2009, the Oak Ridge National Laboratory LCF will 
continue to provide world-leading high-performance sustained capability 
to researchers with the acquisition of a one petaflop Cray Baker system 
by the end of 2008, which will enable further scientific advancements 
in areas such as combustion simulation for clean coal research, 
simulation of fusion devices that approach ITER scale, and quantum 
calculations of complex chemical reactions. In addition, further 
diversity within the LCF resources will be realized with the high 
performance IBM Blue Gene/P system at Argonne National Laboratory, 
which will achieve a peak capability of 250-500 teraflops in FY 2008. 
The Argonne LCF will bring enhanced capability to accelerate scientific 
understanding in areas such as molecular dynamics, catalysis, protein/
DNA complexes, and aging of material. Access by the scientific 
community, including industry, to the LCF and NERSC resources will 
continue through the Innovative and Novel Computational Impact on 
Theory and Experiment (INCITE) program. INCITE is not only engaging 
universities and the national laboratories to advance SC's mission 
through simulation in areas like systems biology, chemical catalysis, 
climate modeling, and accelerator R&D, but also enabling industry to 
dramatically reduce the time for product and technology development. 
Beginning in FY 2009, the ASCR computing facilities will develop and 
implement a unified approach to supporting and maintaining software, 
languages, and tools that are critical to continued effective 
utilization of the machines.
    The demands of today's facilities, which generate millions of 
gigabytes of data per year, now outstrip the capabilities of the 
current Internet design and push the state-of-the-art in data storage 
and utilization. But the evolution of the telecommunications market, 
including the availability of direct access to optical fiber at 
attractive prices and the availability of the next generation of 
flexible optical telecommunications hardware, gives SC the possibility 
of exploiting these technologies to provide scientific data where 
needed at speeds commensurate with the new data volumes. Investments in 
the Energy Science Network (ESnet) provide the DOE science community 
with capabilities not available through commercial networks or the 
commercial Internet to manage increased data flows from petascale 
computers and experimental facilities. In FY 2009, ESnet, in 
partnership with Internet2, will continue to implement a next 
generation optical network structure for U.S. science and deliver 40-60 
gigabits per second to SC laboratories.
    Advancing high performance computing, computation, and advanced 
networking is a highly coordinated interagency effort. ASCR has 
extensive partnerships with other federal agencies and the National 
Nuclear Security Administration (NNSA). Activities are coordinated with 
other federal efforts through the Networking and Information Technology 
R&D (NITR&D) Subcommittee of the National Science and Technology 
Council Committee on Technology. The subcommittee coordinates planning, 
budgeting, and assessment activities of the multi-agency NITR&D 
enterprise. DOE has been an active participant in these coordination 
groups and committees since their inception. ASCR will continue to 
coordinate its activities through these mechanisms and will lead the 
development of new coordinating mechanisms as needs arise such as the 
development of a Federal Plan for Advanced Networking R&D.

BIOLOGICAL AND ENVIRONMENTAL RESEARCH

FY 2008 Appropriation--$544.4 Million; FY 2009 Request--$568.5 Million

    Biological and Environmental Research (BER) supports basic research 
in genomics and systems biology of microbes and plants aimed at 
harnessing their capabilities for energy and environmental solutions; 
environmental measurement and the development of models to predict 
climate over decades to centuries; research to understand contaminant 
fate and transport and to develop science-based methods for the 
cleaning up environmental contaminants; molecular, cellular, and 
tissue-based low dose radiation research to provide regulators with a 
stronger scientific basis for developing future radiation protection 
standards; and advanced research in radiochemistry and imaging 
instrumentation. Results from this fundamental research will have broad 
impacts on our energy future, our environment, and our health.
    In FY 2009, BER continues to support the Genomics: GTL research 
program. This program pursues systems biology approach that spans the 
biological, physical, and computational sciences to determine the 
diverse biochemical capabilities of microbes, microbial communities, 
and plants, with the goal of tailoring and translating those 
capabilities into solutions for DOE mission needs. By understanding 
complex biological systems, developing computational tools to model and 
predict their behavior, and developing methods to harness nature's 
capabilities; biotechnology solutions are possible for DOE energy, 
environmental, and national security challenges. Development of a 
global biotechnology-based energy infrastructure requires substantial 
fundamental scientific understanding that enables scientists to control 
or redirect genetic regulation and redesign specific proteins, 
biochemical pathways, and even entire plants or microbes. Renewable 
biofuels could be produced using plants, microbes, or isolated enzymes 
or through novel production strategies, such as engineered systems 
based on processes found in natural biological systems. Such strategies 
might include, for example, defined mixed microbial communities or 
consolidated biological processes. Within the GTL program, BER supports 
basic research aimed at developing the understanding needed to advance 
biotechnology-based strategies not only for new methods of producing 
renewable, carbon-neutral bioenergy compounds, but also for 
understanding how the capabilities of microbes can be applied to 
environmental remediation and carbon sequestration.
    To accelerate the scientific breakthroughs necessary to develop 
novel, efficient, and cost-effective methods for producing biofuels 
from plant materials, BER awarded three new Bioenergy Research Centers 
in FY 2007. FY 2009 will be their second full year of operations. The 
three centers--the Joint BioEnergy Institute at Lawrence Berkeley 
National Laboratory, the Great Lakes Bioenergy Research Center at the 
University of Wisconsin at Madison, and the BioEnergy Science Center at 
Oak Ridge National Laboratory--consist of diverse teams of researchers 
from universities, national laboratories, and industry; and conduct 
comprehensive, multi-disciplinary research programs focused on systems 
biology on microbes and plants. The Centers serve as catalysts for 
innovation and the development of transformational science for 
bioenergy solutions, and their research activities complement research 
funded within the broader GTL program.
    An ability to predict long-range and regional climate, including 
the effects of energy-related emissions of greenhouse gases and 
aerosols on future climate, enables effective planning for future needs 
in energy, agriculture, and land and water use. Likewise, understanding 
the global carbon cycle and the associated role and capabilities of 
microbes and plants can lead to solutions for reducing carbon dioxide 
concentrations in the atmosphere. DOE, in conjunction with its 
interagency partners under the U.S. Climate Change Science Program 
(CCSP), continues to focus climate change research in CCSP priority 
areas. These areas include abrupt climate change, advanced climate 
modeling, critical climate processes (including effects of clouds, 
aerosols, and water vapor on the atmospheric radiation balance), carbon 
cycling, atmospheric composition (with a focus on greenhouse gas 
concentrations and the effects of aerosols), the effects of climate 
change on important terrestrial ecosystems, and the development and 
evaluation of tools for assessing environmental costs and benefits of 
climate change and the different potential options for mitigation and 
adaptation to such change.
    BER's Climate Change Research program enables both scientifically 
based predictions and assessments of the potential effects of 
greenhouse gases and aerosol emissions on climate and the environment, 
and the development of approaches for enhancing carbon sequestration in 
terrestrial ecosystems. Research supported by the climate program is 
focused on understanding the physical, chemical, and biological 
processes affecting the Earth's atmosphere, land, and oceans, and how 
these processes may be affected by changes in radiative forcing of 
climate resulting from carbon dioxide and aerosol emissions from energy 
production and use. BER support for climate modeling increases in FY 
2009 to leverage the Department's leadership class computing facilities 
to improve both resolution and model physics, including modeling ice 
sheets, in a fully coupled climate model simulating historic climate 
and projecting future potential climate change at regional to global 
scales. BER also continues to support research on abrupt climate change 
and continues SciDAC partnership efforts with ASCR.
    Research on climate forcing under the Atmospheric Radiation 
Measurement (ARM) program will continue to focus on resolving the 
largest sources of scientific uncertainty in climate change 
prediction--the effects of clouds and aerosols. ARM research supports 
individual investigators at universities and research teams at DOE 
laboratories. Continued support is provided for the ARM Climate 
Research Facility (ACRF) which consists of three stationary facilities, 
an ARM Mobile Facility, and the ARM Aerial Vehicles Program. The ACRF 
provides the data collection infrastructure needed for studies 
investigating atmospheric processes and properties and for the 
development and evaluation of climate process models. BER also 
continues to support AmeriFlux in FY 2009, which is a network of 
research sites where the net exchange of carbon dioxide, energy, and 
water between the atmosphere and major terrestrial ecosystems in North 
America is continuously measured. The AmeriFlux Network research sites 
provide extensive measurements of terrestrial carbon sink properties, 
including biological and soil processes, which provide insight into 
carbon cycling and inform the development of climate models. BER 
supports 20 of the approximately 70 sites in the network. The remaining 
AmeriFlux sites are funded by other federal agencies. BER also supports 
research on ecosystem function and response to understand the potential 
effects of climate change anticipated during the coming 50100 years on 
the health of important terrestrial ecosystems in the United States.
    Understanding the complex role of biology, geochemistry, and 
hydrology beneath the Earth's surface will lead to improved decision-
making and solutions for contaminated DOE weapons sites. Research 
emphasis within BER's environmental remediation sciences research will 
focus on issues of subsurface cleanup, such as defining and 
understanding the processes that control contaminant fate and transport 
in the environment and providing opportunities for use or manipulation 
of natural processes to alter contaminant mobility. In FY 2009, BER 
will support three field research sites which provide opportunities to 
validate laboratory findings under field conditions. The resulting 
knowledge and technology will assist DOE's environmental clean-up and 
stewardship missions. Support for the William R. Wiley Environmental 
Molecular Sciences Laboratory at Pacific Northwest National Laboratory 
in FY 2009 maintains operations at full capacity.
    Understanding the biological effects of low doses of radiation can 
lead to the development of science-based health risk policy to better 
protect workers and citizens. Both normal and abnormal physiological 
processes--from normal human development to cancer to brain function to 
cellular processes in microbes and plants--can be understood and 
improved using radiotracers and advanced imaging instruments. BER 
research continues on the biological effects of low dose radiation and 
for radiochemistry and imaging technologies. Building on DOE 
capabilities in physics, chemistry, engineering, biology, and 
computation, BER supports fundamental imaging research and maintains 
core infrastructure for imaging research and the development of new 
technologies. Funding is provided for Ethical, Legal, and Societal 
Issues (ELSI) associated with activities applicable to the Office of 
Science, including research on the ecological and environmental impacts 
of nanoparticles resulting from nanotechnology applied to energy 
technologies.

HIGH ENERGY PHYSICS

FY 2008 Appropriation--$689.3 Million; FY 2009 Request--$805.0 Million

    The High Energy Physics (HEP) program provides over 90 percent of 
the federal support for the Nation's high energy physics research. This 
research advances understanding of the basic constituents of matter, 
deeper symmetries in the laws of nature at high energies, and 
mysterious phenomena that are commonplace in the universe, such as dark 
energy and dark matter. HEP uses particle accelerators and very 
sensitive detectors to study fundamental particle interactions at the 
highest possible energies, as well as non-accelerator studies of cosmic 
particles using experiments conducted deep underground, on mountains, 
or in space. The research facilities and basic research supported by 
HEP advance our knowledge not only in high energy physics, but 
increasingly in other fields as well, including particle astrophysics 
and cosmology. Research advances in one field often have a strong 
impact on research directions in another. Technology that was developed 
in response to the pace-setting demands of high energy physics research 
has also become indispensable to other fields of science and has found 
wide applications in industry and medicine, often in ways that could 
not have been predicted when the technology was first developed.
    In FY 2009, HEP places a high priority on the operations, upgrades, 
and infrastructure of the two major HEP user facilities, the Tevatron 
Collider and the Neutrinos at the Main Injector (NuMI) beam line at 
Fermilab. After a very successful eight-year run, operation of the SLAC 
B-factory is completed in FY 2008. Funding is provided in FY 2009 to 
support significant analysis of data collected at the B-factory and for 
safe ramp-down of the facility. With completion of the scientific 
missions of the B-factory and Tevatron Collider by the end of this 
decade, the longer-term HEP program continues support for the 
development of new cutting-edge facilities in targeted areas like 
neutrino physics that will establish a U.S. leadership role in these 
areas in the next decade; when the centerpiece of the world HEP program 
will be at the Large Hadron Collider (LHC) at CERN (the European 
Organization for Nuclear Research).
    As the LHC accelerator nears its turn-on date in 2008, support of 
an effective role for U.S. research groups in LHC discoveries will 
continue to be a high priority of the HEP program. In FY 2009, HEP 
increases funding for university and laboratory based research to 
support U.S. researchers participating in the physics discoveries 
enabled by the LHC and continues to provide support for operations and 
maintenance of the U.S.-built systems that are part of the LHC 
detectors. R&D for possible future upgrades to the LHC accelerator and 
detectors will also be pursued. A U.S. leadership role in the 
discoveries enabled by the LHC will require effective integration of 
U.S. researchers in the LHC detector calibration and data analysis 
efforts, and implementation and optimization of the U.S. data handling 
and computing capabilities needed for full participation in the LHC 
research program.
    Support for International Linear Collider (ILC) R&D continues, but 
the U.S. role in the global R&D effort is reduced, resulting in a more 
focused but still robust program that emphasizes technical areas where 
the U.S. has unique or world-leading capabilities. The request 
positions the U.S. to play a significant role in the ILC, if 
governments decide to proceed with the project. In other accelerator 
technology R&D areas, funding is increasing to begin implementation of 
a strategic plan for technology R&D. Specific areas targeted for 
increased support are short-term R&D focused on development of high-
intensity proton sources; mid-term R&D directed at development of 
superconducting radio frequency structures, in view of their potential 
for a wide range of applications; and long-term R&D on advanced 
accelerator technologies with the potential to provide transformational 
changes. The latter effort includes fabrication of a new test facility 
for advanced particle acceleration concepts.
    With Tevatron improvements completed, much of the accelerator 
development effort at Fermilab in FY 2009 will focus on the neutrino 
program to study the universe's most prolific particle. The Neutrinos 
at the Main Injector (NuMI) beam allows studies of the fundamental 
physics of neutrino masses and mixings using the proton source section 
of the Tevatron complex. The NuMI beam has begun operations and will 
eventually put much higher demands on that set of accelerators. A 
program of enhanced maintenance, operational improvements, and 
equipment upgrades is being developed to meet these higher demands, 
while continuing to run the Tevatron. Fabrication of the NuMI Off-axis 
Neutrino Appearance (NOnA) detector ramps up in FY 2009 and will 
utilize the NuMI beam. This project includes improvements to the proton 
source to increase the intensity of the NuMI beam. Meanwhile, 
fabrication continues for the Reactor Neutrino Detector at Daya Bay, 
China and two small neutrino experiments, the Main Injector Experiment 
n-A (MINERnA) in the Main Injector Neutrino Oscillation Search (MINOS) 
near detector hall at Fermilab and the Tokai-to-Kamioka (T2K) 
experiment using the Japanese JPARC neutrino beam.
    The HEP Non-Accelerator Physics subprogram supports fundamental 
research for U.S. leadership in the study of those topics in particle 
physics that cannot be investigated completely with accelerators, or 
are best studied by other means. Some of the non-accelerator-based 
particle sources used in this research are neutrinos from the sun, 
galactic supernovae, terrestrial nuclear reactors, and cosmic rays 
striking the Earth's atmosphere. Experimental facilities and research 
utilizing these particle physics techniques are often located at remote 
sites, such as deep underground laboratories, on mountain tops, or in 
space, either as satellites or as instruments attached to International 
Space Station. In FY 2009, HEP, in partnership with NASA, will operate 
the Large Area Telescope (LAT) scheduled to be launched from the 
Kennedy Space Center in mid-2008. The LAT, a primary instrument on 
NASA's Gamma Ray Large Area Space Telescope (GLAST) mission, will 
observe and provide insights into understanding the highest energy 
gamma rays observed in nature. This activity complements the ground-
based VERITAS Telescope Array supported by HEP, which studies the 
astrophysical sources of high energy gamma rays.
    HEP continues the fabrication of the Dark Energy Survey (DES) 
project in FY 2009, which will provide the next step in determining the 
nature of dark energy. HEP continues support for R&D for a large double 
beta decay experiment to measure the mass of a neutrino. These efforts 
are part of a coordinated neutrino program developed from an American 
Physical Society study and a joint High Energy Physics Advisory 
Committee/Nuclear Sciences Advisory Committee sub-panel review. HEP 
supports concept studies for a Joint Dark Energy Mission (JDEM), a 
joint DOE and NASA space-based satellite, leading to a mission concept 
selection in 2009 and a planned FY 2010 fabrication start. Support for 
R&D on other near-term and next-generation ground- and space-based dark 
energy concepts continues in FY 2009. These experiments should provide 
important new information about the nature of dark energy, leading to a 
better understanding of the birth, evolution, and ultimate fate of the 
universe.
    HEP also supports major thrusts in theoretical physics, 
astrophysics, and particle physics grid technology, including 
activities supported through the SciDAC program in FY 2009, as well as 
proposals in accelerator modeling and design. These projects will allow 
HEP to use computational science to obtain significant new insights 
into challenging problems that have the greatest impact in HEP mission 
areas.

NUCLEAR PHYSICS

FY 2008 Appropriation--$432.7 Million; FY 2009 Request--$510.1 Million

    The Nuclear Physics (NP) program is the major sponsor of 
fundamental nuclear physics research in the Nation, providing about 90 
percent of federal support. Scientific research supported by NP is 
aimed at advancing knowledge and providing insights into the nature of 
energy and matter and, in particular, investigating the fundamental 
forces which hold the nucleus together and determining the detailed 
structure and behavior of the atomic nuclei. NP builds and supports 
world-leading scientific facilities and state-of-the-art 
instrumentation to carry out its basic research agenda--the study of 
the evolution and structure of nuclear matter from the smallest 
building blocks, quarks and gluons, to the stable elements in the 
Universe created by stars, to unique isotopes created in the laboratory 
that exist at the limits of stability and possess radically different 
properties from known matter. NP is central to the development of 
various technologies relevant to nuclear energy, nuclear medicine, and 
national security. The highly trained scientific and technical 
personnel in fundamental nuclear physics who are a product of the 
program are a valuable human resource for many applied fields, 
including those relevant to the Department's missions in energy, 
nuclear-related national security, and environmental quality.
    Key aspects of the NP research agenda include understanding how 
quarks and gluons combine to form nucleons (protons and neutrons), what 
the properties and behavior of nuclear matter are under extreme 
conditions of temperature and pressure, and what the properties and 
reaction rates are for atomic nuclei up to their limits of stability. 
Results and insight gained from these studies are relevant to 
understanding how the universe evolved in its earliest moments, how the 
chemical elements were formed, and how the properties of one of 
nature's basic constituents, the neutrino, influences astrophysics 
phenomena such as supernovae. Knowledge and techniques developed in 
pursuit of fundamental nuclear physics research are also extensively 
utilized in our society today. The understanding of nuclear spin 
enabled the development of magnetic resonance imaging for medical use. 
Radioactive isotopes produced by accelerators and reactors are used for 
medical imaging, cancer therapy, and biochemical studies. Advances in 
cutting-edge instrumentation developed for nuclear physics experiments 
have relevance to technological needs in combating terrorism.
    The FY 2009, NP will support the operations of four National User 
Facilities and research at universities and national laboratories, and 
make investments in new capabilities to address compelling scientific 
opportunities and to maintain U.S. competitiveness in global nuclear 
physics efforts. When the Universe was a millionth of a second old, 
nuclear matter is believed to have existed in its most extreme energy 
density form called the quark-gluon plasma. Experiments at the 
Relativistic Heavy Ion Collider (RHIC) at Brookhaven National 
Laboratory are searching to find and characterize this new state and 
others that may have existed during the first moments of the Universe. 
These efforts will continue in FY 2009. The NP program, in partnership 
with NASA, will continue construction of an Electron Beam Ion Source to 
provide RHIC with more cost-effective and reliable operations than the 
current Tandem Van de Graaff accelerator, as well as new research 
capabilities. Support for participation in the heavy ion program at the 
Large Hadron Collider (LHC) at CERN allows U.S. researchers the 
opportunity to search for new states of matter under substantially 
different initial conditions than those provided at RHIC. The interplay 
of the different research programs at the LHC and the ongoing RHIC 
program will allow a detailed tomography of the hot, dense matter as it 
evolves from the ``perfect fluid'' (a fluid with minimum viscosity) 
discovered at RHIC.
    Operations of the Continuous Electron Beam Accelerator Facility 
(CEBAF) at Thomas Jefferson National Accelerator Facility (TJNAF) in FY 
2009 will continue to advance our knowledge of the internal structure 
of protons and neutrons. By providing precision experimental 
information concerning the quarks and gluons that form protons and 
neutrons, the approximately 1,200 experimental researchers who use 
CEBAF, together with researchers in nuclear theory, seek to provide a 
quantitative description of nuclear matter in terms of the fundamental 
theory of the strong interaction, Quantum Chromodynamics (QCD). In FY 
2009, the accelerator will provide beams simultaneously to all three 
experimental halls and funding is provided for the initiation of 
construction of the 12 GeV CEBAF Upgrade Project. This upgrade is one 
of the highest priorities for NP and would allow for a test of a 
proposed mechanism of ``quark confinement,'' one of the compelling, 
unanswered puzzles of physics.
    Efforts at the Argonne Tandem Linear Accelerator System (ATLAS) at 
Argonne National Laboratory and the Holifield Radioactive Ion Beam 
Facility (HRIBF) at Oak Ridge National Laboratory will be supported in 
FY 2009 to focus on investigating new regions of nuclear structure, 
studying interactions in nuclear matter like those occurring in neutron 
stars, and determining the reactions that created the nuclei of the 
chemical elements inside stars and supernovae. Fabrication continues 
for the GRETINA gamma-ray detector array, which will revolutionize 
gamma ray detection technology and offer dramatically improved 
capabilities to study the structure of nuclei at ATLAS, HRIBF, and 
elsewhere.
    The Fundamental Neutron Physics Beamline (FNPB) under fabrication 
at the Spallation Neutron Source will provide a world-class capability 
to study the fundamental properties of the neutron, leading to a 
refined characterization of the weak force. Support continues in FY 
2009 for the fabrication of a neutron Electric Dipole Moment 
experiment, to be sited at the FNPB, in the search for new physics 
beyond the Standard Model. Funds are provided in FY 2009 to continue 
U.S. participation in the fabrication of an Italian-led neutrino-less 
double beta decay experiment, the Cryogenic Underground Observatory for 
Rare Events (CUORE). Neutrinos are thought to play a critical role in 
the explosions of supernovae and the evolution of the cosmos. A 
successful search for neutrino-less double beta decay will determine if 
the neutrino is its own antiparticle and provide information about the 
mass of the neutrino.
    In 2008, NP plans to conduct a design solicitation and make a site 
selection for a Facility for Rare Isotope Beams (FRIB). This U.S. 
facility will enable world-leading research opportunities in nuclear 
structure, nuclear astrophysics, and fundamental studies, and will 
complement the programs of high capability radioactive ion beam 
facilities elsewhere in the world. Following a site selection, funds 
are provided in FY 2009 for R&D and to begin conceptual design 
activities for FRIB.
    Theoretical research is important in all program areas, and NP 
supports the nuclear data program, which collects, evaluates, and 
disseminates nuclear physics data. NP increases support in FY 2009 for 
basic research in the characterization of radioactive waste through 
advanced fuel cycle activities. NP also continues to support SciDAC 
efforts in nuclear astrophysics, grid computing, Lattice Gauge (QCD) 
theory, low energy nuclear structure and nuclear reaction theory, and 
advanced accelerator design.
    Beginning in FY 2009, NP assumes responsibilities for research, 
development, and production of stable and radioactive isotopes 
previously under the DOE Office of Nuclear Energy. A major objective of 
this subprogram within NP, entitled Isotope Production and 
Applications, is to improve the availability and reliability of 
research isotopes at predictable prices needed for medical, national 
security, and industrial applications. A portfolio of research isotopes 
will be established with guidance from scientific advisory committees, 
in consultation with BER, the National Institutes of Health, and all 
segments of the research community and other federal agencies 
interested in using stable and radioactive isotopes.

FUSION ENERGY SCIENCES

FY 2008 Appropriation--$286.5 Million; FY 2009 Request--$493.1 Million

    The Fusion Energy Sciences (FES) program advances the theoretical 
and experimental understanding of plasma and fusion science needed to 
develop fusion energy. Advances in plasma physics and associated 
technologies will bring the U.S. closer to making fusion energy a part 
of the Nation's energy solution. To enable fundamental research into 
the nature of fusion plasmas, FES supports the operation of a set of 
unique and diversified domestic experimental facilities and close 
collaborations with international partners on specialized facilities 
abroad. Results from these facilities provide the data to test our 
theoretical understanding of fusion plasmas and extend our computer 
models?ultimately leading to improved predictive capabilities for 
fusion plasmas. The FES research program, including experiments on 
major facilities, theory, and computer modeling activities, will 
emphasize burning plasma research to prepare for the ITER scientific 
program. FES leads U.S. participation in ITER, an experiment to study 
and demonstrate the scientific and technical feasibility of fusion 
power.
    A defining feature of the FES program is its emphasis on developing 
the underlying science of potential fusion energy systems. This effort 
consists of campaigns to develop the requisite understanding of several 
critical issues, including integrated burning plasma properties; 
macroscopic equilibrium and stability of plasmas; multi-scale transport 
of energy and particles; plasma boundary interfaces between a hot 
plasma and the surrounding material surfaces; interaction of 
electromagnetic waves with plasma electrons and ions; high energy 
density implosion physics; and fusion engineering science. In FY 2009, 
the FES program will begin to identify critical scientific issues and 
missions for the next stage in the U.S. fusion research program during 
the ITER era, which will keep it at the forefront of fusion and plasma 
sciences in the future.
    Through its participation in the international ITER project, the 
magnetic fusion energy sciences program will begin to explore the 
burning plasma regime. The achievement of a burning plasma regime in 
ITER, wherein much more fusion energy is released than is used to heat 
the plasma fuel, will provide a fundamental demonstration of the 
viability of magnetic fusion as a potential new energy source. Our 
participation in the international ITER project began in FY 2006 
through the U.S. Contributions to ITER Major Item of Equipment project. 
In FY 2008, U.S. ITER project activities are minimized because of 
significantly reduced funding relative to requested levels. The extent 
of the resulting cost and schedule impacts is still being assessed. 
With full funding in FY 2009, as requested, the U.S. Contributions to 
the ITER project will resume activities to provide for the U.S. ``in-
kind'' hardware contributions, U.S. personnel to work at the ITER site, 
and funds for the U.S. share of common expenses such as infrastructure, 
hardware assembly, installation, and contingency.
    In FY 2009, FES continues to support the operation of three major 
experimental facilities that provide scientists with the means to test 
and extend our theoretical understanding and computer models for fusion 
science: the DIII-D tokamak at General Atomics in San Diego, 
California, the Alcator C-Mod tokamak at the Massachusetts Institute of 
Technology in Cambridge, Massachusetts, and the National Spherical 
Torus Experiment at Princeton Plasma Physics Laboratory (PPPL) in 
Princeton, New Jersey. Experiments on these major facilities, along 
with theory and computer modeling activities, will support final design 
decisions for ITER and assist in developing operating scenarios for the 
ITER research program.
    Funding is currently provided for continued fabrication of the 
National Compact Stellarator Experiment (NCSX) at PPPL; however, a 
final decision on the project's future will be made in FY 2008, since 
the project's cost and schedule have changed significantly since the 
initial project baseline was established. Several reviews of NCSX were 
conducted by the Office of Science and Princeton University in 2007 
including a scientific and programmatic review by the Fusion Energy 
Sciences Advisory Committee which concluded that the NCSX should be 
completed to maintain U.S. interests in this field. These reviews plus 
upcoming technical, cost, and schedule reviews by DOE will provide the 
necessary input to allow the Department to make the decision either to 
re-baseline the project or to cancel it.
    FES will initiate detailed planning for a Fusion Simulation Project 
(FSP) in FY 2009, taking advantage of the many recent improvements in 
computational and computing capabilities, as well as a significant 
amount of preparatory work that has already been done by FES's SciDAC 
activities. The FSP will be directed at developing a world-leading 
predictive integrated plasma simulation capability that can be applied 
to burning plasmas of the type that will be necessary for fusion energy 
producing power plants. As such, the FSP will represent the embodiment 
of the goal of developing the knowledge base for a fusion energy 
system. The FSP is expected to be completed by FY 2024, but there will 
also be key deliverables targeted at the end of five and ten years.
    FES increases support for efforts in the area of high energy 
density laboratory plasmas (HEDLP) as part of the HEDLP Joint Program 
with the National Nuclear Security Administration. In FY 2009, a 
rolling series of competitive solicitations will be started to identify 
initiatives to be supported under the HEDLP Joint Program that are 
consistent with the missions of both FES and NNSA. These solicitations 
will cover a number of exciting HEDLP research areas such as inertial 
fusion energy sciences, warm dense matter, and magnetized high energy 
density plasmas, including plasma jets, laser-plasma interactions, 
compressible hydrodynamics, and laboratory astrophysics.

WORKFORCE DEVELOPMENT FOR TEACHERS AND SCIENTISTS

FY 2008 Appropriation--$8.0 Million; FY 2009 Request--$13.6 Million

    The Department of Energy has played a role in training America's 
scientists and engineers for more than 60 years, making contributions 
to U.S. economic and scientific preeminence. The Nation's current and 
future energy and environmental challenges may be solved in part 
through scientific and technological innovation and the development of 
a highly skilled scientific and technical workforce. The Workforce 
Development for Teachers and Scientists (WDTS) program helps to ensure 
that DOE and the Nation have a sustained pipeline of highly trained 
scientists, mathematicians, and engineers in the workforce. That 
workforce includes DOE federal employees, the DOE national 
laboratories, and more broadly, the university and private sector 
institutions that perform the science and technology required for DOE 
to achieve its goals in energy, environment, national security, and 
basic discovery. WDTS accomplishes its mission primarily by providing 
hands-on science and technology learning experiences to the Nation's 
students and educators of science, technology, engineering, and 
mathematics (STEM). WDTS programs create a foundation for DOE's 
national laboratories to provide a wide range of educational 
opportunities to more than 280,000 educators and students on an annual 
basis.
    WDTS supports experiential learning opportunities that compliment 
classroom curriculum and (1) build links between the national 
laboratories and the science education community by providing funding, 
guidelines, and evaluation of mentored research experiences at the 
national laboratories to K-12 teachers and college faculty to enhance 
their content knowledge and research capabilities; (2) provide mentor-
intensive research experiences at the national laboratories for 
undergraduate and graduate students to inspire commitments to the 
technical disciplines and to pursue careers in STEM; and (3) encourage 
and reward middle and high school students across the Nation to excel 
in math and the sciences, and introduce these students to the national 
laboratories and the opportunities available to them when they go to 
college.
    In FY 2009, WDTS activities are implemented through three new 
subprograms: Student Programs, Educator Programs, and Program 
Administration and Evaluation. Student Programs provide experiential 
learning opportunities to enhance student understanding of science and 
to increase their interest in pursuing STEM careers. Included within 
this subprogram in FY 2009 are Science Undergraduate Laboratory 
Internship (SULI), Community College Institute (CCI), Pre-Service 
Teachers (PST), and the National Science Bowl (NSB).
    The DOE National Science Bowl is a nationally recognized, 
prestigious academic event for high school and middle school students. 
It has attained its level of recognition and participation through a 
grass-roots design, which encourages the voluntary participation of 
professional scientists, engineers, and educators from across the 
Nation. Students answer questions in scientific topics, including 
astronomy, biology, chemistry, mathematics, and physics, in a highly 
competitive, ``Jeopardy-style'' format. Since 1991, more than 150,000 
students have participated in the regional and national competitions. 
The 2008 NSB High School Finals will be held in Washington, DC from May 
1-6, 2008, and the Middle School Finals will be held in Golden, CO from 
June 19-22, 2008--you are all welcome to attend these exciting events.
    The WDTS Educator Programs make the world-class intellectual and 
physical assets of the Department available to the U.S. education 
community. Included within this newly restructured subprogram in FY 
2009 are DOE Academies Creating Teacher Scientists (ACTS), Faculty and 
Student Teams (FaST), and the Albert Einstein Distinguished Educator 
Fellowship.
    The WDTS Program Administration and Evaluation activities leverage 
resources and partnerships with other federal agencies, industry, 
academic institutions, and professional associations to build expertise 
in workforce development. These activities also include developing and 
deploying rigorous evaluation methods for all WDTS programs; developing 
longitudinal workforce studies that track students and educators who 
participate in DOE programs; and improving outreach efforts to 
communicate to the broader public the role the Department plays in STEM 
education and the opportunities provided to students and educators.

SCIENCE LABORATORIES INFRASTRUCTURE

FY 2008 Appropriation--$66.9 Million; FY 2009 Request--$110.3 Million

    The mission of the Science Laboratories Infrastructure (SLI) 
program is to enable the conduct of DOE research missions at the Office 
of Science laboratories by funding line item construction projects and 
the clean up for reuse or removal of excess facilities to maintain the 
general purpose infrastructure. The program also supports Office of 
Science landlord responsibilities for the 24,000 acre Oak Ridge 
Reservation and provides Payments in Lieu of Taxes (PILT) to local 
communities around Argonne National Laboratory (ANL), Brookhaven 
National Laboratory (BNL), and Oak Ridge National Laboratory (ORNL).
    In FY 2009, SLI proposes to initiate an Infrastructure 
Modernization Initiative. The goal of this initiative is to, by FY 
2019, have facilities and infrastructure at the SC laboratories that:

        <bullet>  Offer a safer, healthier, and more secure work 
        environment for employees and visitors;

        <bullet>  Ensure laboratory infrastructure will support world-
        class science;

        <bullet>  Meet or exceed DOE sustainability goals and are more 
        efficient to operate and maintain; and

        <bullet>  Support worker productivity and facilitate effective 
        interaction with colleagues.

    Increases in construction funding proposed in FY 2009 will fund 
three new projects under the proposed SC Infrastructure Modernization 
Initiative. These are the Interdisciplinary Science Building, Phase I 
project at Brookhaven National Laboratory; the Seismic Life-Safety, 
Modernization, and Replacement of General Purpose Buildings, Phase II 
project, at the Lawrence Berkeley National Laboratory; and the 
Technology and Engineering Development Facility project at the Thomas 
Jefferson National Accelerator Facility. Also included under this 
Initiative is one project started in FY 2008, the Modernization of 
Laboratory Facilities project at Oak Ridge National Laboratory. 
Additional on-going line-item construction projects include the 
Physical Sciences Facility at Pacific Northwest National Laboratory and 
additional renovations and upgrades at the Brookhaven and Lawrence 
Berkeley National Laboratories.

SCIENCE PROGRAM DIRECTION

FY 2008 Appropriation--$177.8 Million; FY 2009 Request--$203.9 Million

    Science Program Direction (SCPD) enables a skilled and highly-
motivated federal workforce to manage and support basic energy-related 
and science-related research disciplines, diversely supported through 
research programs, projects, and facilities under the Office of 
Science's leadership. This budget request addresses the overall 
corporate strategy and eliminates the previous subprograms of Program 
Direction and Field Operations.
    The headquarters federal staff is responsible for Office of 
Science-wide issues, operational policy, scientific program 
development, and management functions supporting a broad spectrum of 
scientific disciplines and program offices. Additionally, support is 
included for management of workforce program direction and 
infrastructure through policy, technical and administrative support 
staff responsible for budget and planning; general administration; 
information technology; infrastructure management; construction 
management; Safeguards and Security; and Environment, Safety, and 
Health within the framework set by the Department. Additionally, 
Program Direction includes funding for the Office of Scientific and 
Technical Information, which collects, preserves, and disseminates DOE 
research and development information for use by DOE, the scientific 
community, academia, U.S. industry, and the public to expand the 
knowledge base of science and technology.
    Field personnel are responsible and directly accountable for 
implementing the SC program within the framework established by 
headquarters policy and guidance. Site Office personnel are responsible 
for the day-to-day oversight of Management and Operating contractor 
performance supporting Office of Science laboratories and facilities. 
In addition, the Integrated Support Center, operated in partnership by 
the Chicago and Oak Ridge Operations office personnel, provides best-
in-class business, administrative, and specialized technical support 
across the entire Office of Science enterprise and to other DOE 
programs. In FY 2009, Program Direction funding increases by 14.7 
percent from the FY 2008 appropriated level. Most of the increase will 
support an additional 42 FTEs, to manage the increase in the SC 
research investment and the Committee of Visitors recommendations for 
all of the SC basic research programs.

SAFEGUARDS AND SECURITY

FY 2008 Appropriation--$75.9 Million; FY 2009 Request--$80.6 Million

    The Safeguards and Security (S&S) program ensures appropriate 
levels of protection against unauthorized access, theft, diversion, 
loss of custody, or destruction of DOE assets and hostile acts that may 
cause adverse impacts on fundamental science, national security, or the 
health and safety of DOE and contractor employees, the public, or the 
environment. The Office of Science's Integrated Safeguards and Security 
Management strategy uses a tailored approach to safeguards and 
security. As such, each site has a specific protection program that is 
analyzed and defined in its individual Security Plan. This approach 
allows each site to design varying degrees of protection, commensurate 
with the risks and consequences described in their site-specific threat 
scenarios. The FY 2009 S&S budget includes funding necessary to protect 
people, property, and information. In FY 2009, increased funding is 
provided for cyber security to respond to significantly increased risks 
and government-wide requirements by the Federal Information Security 
Management Act (FISMA) in this area and in security systems to replace 
and upgrade aging and obsolete systems.

CONCLUSION

    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science research programs and our 
contributions to the Nation's scientific enterprise and global 
competitiveness. On behalf of DOE, I am pleased to present this FY 2009 
budget request for the Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
